OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT
TO CONGRESS
APRIL 1, 2004 – SEPTEMBER 30, 2004
MISSION STATEMENT
     The mission of the U.S. Postal Service Ofﬁce of Inspector General
     is to conduct and supervise objective and independent audits,
     reviews and investigations relating to Postal Service programs
     and operations to:

     ■   Prevent and detect fraud, waste and abuse;

     ■   Promote economy, efﬁciency and effectiveness;

     ■   Promote program integrity; and

     ■   Keep the Governors, Congress and Postal Service
         management informed of problems, deﬁciencies
         and corresponding corrective actions.
A MESSAGE FROM THE INSPECTOR GENERAL
M    arking the one-year anniversary
     since my arrival, the U.S. Postal
Service Ofﬁce of Inspector General
                                          Planning has begun to transfer a
                                          portion of the work currently per-
                                          formed by the U.S. Postal Inspection
                                                                                    To estimate savings, the OIG and
                                                                                    postal management project ﬁndings
                                                                                    over the remaining term of a contract,
(OIG) completed its ﬁscal year (FY)       Service (USPIS) — appropriate             lease, Decision Analysis Report
2004 initiatives: organizational          internal crimes work — to the OIG,        (typically 10 years cash ﬂow), or other
redesign, value enhancement and           to be consistent with congressional       period used by the Postal Service.
performance orientation. As a result,     intent. The two organizations had
                                                                                    In this reporting period, the OIG
our performance has improved and is       been working under a designation of
                                                                                    issued 268 audit reports, manage-
on a steady upward trajectory across      functions crafted when the OIG was
                                                                                    ment advisories and other products.
the organization.                         established in 1997. That agreement
                                                                                    These efforts, some of which the
                                          is being revisited.
We strengthened the OIG by focus-                                                   OIG and postal management
ing on mission-critical initiatives       In this semiannual report, we’re          accomplished jointly, resulted in
and ensuring that OIG work adds           focusing on the top ﬁve management        $229.4 million in questioned costs,
value to the Postal Service. Audit        challenges the OIG believes are           unrecoverable costs, funds to be put
directors and Investigative special       facing the Postal Service today: cost     to better use and revenue impact.
agents in charge worked closely           control; revenue; strategic direction;
                                          safety and security; and manage-          In addition, the OIG completed 463
with Postal Service business units
                                          ment information. Next, we’re             investigations resulting in 190 refer-
and area vice presidents.
                                          highlighting several signiﬁcant audits    rals to management, 28 arrests,
The retooled Ofﬁce of Investigations      and investigations conducted over         24 indictments, 14 convictions and
has far exceeded last year’s results.     this reporting period. In a new sec-      $6.4 million in ﬁnes, restitutions and
Our investigative work resulted in        tion, we explore ideas and concepts       recoveries, of which more than
$23.7 million in ﬁnes, judgments and      regarding postal operations; pro-         $2.3 million was returned to the
restitutions, a 259 percent increase      grams that may contribute to reduc-       Postal Service.
over FY 2003.                             ing costs; improving efﬁciencies; and     As in my previous message, I again
The productivity and timeliness of our    increasing revenue or introducing         acknowledge Postal Service leader-
Ofﬁce of Audit also improved and          new ways of doing business.               ship and the Board of Governors
monetary beneﬁts identiﬁed by our         As background, the OIG is required        for their strong support in all of our
audits increased by 56.5 percent over     by law to report monetary beneﬁts         efforts. I look forward to continuing
the last ﬁscal year. The Postal Service   and accomplishments semiannually          our work overseeing the nation’s mail
vice presidents and their audit direc-    to Congress and the Governors of          service by delivering audit reports
tor counterparts focused efforts on       the Postal Service. Our auditors and      and investigative services that
issues that in FY 2004 identiﬁed          postal managers use the evidence          promote economy, efﬁciency and
$506.8 million in savings and funds       gathered during audits to develop         integrity within the Postal Service.
that could be put to better use.          ﬁgures that can be reasonably deter-
                                          mined and supported. The savings
To continue the momentum, we’re
                                          identiﬁed are linked to recommenda-
building on the three initiatives
                                          tions such as, reducing workhours in
established at the beginning of FY
                                          postal facilities or terminating trans-
2004. We’re ensuring directorate
                                          portation contract routes to save         Sincerely,
excellence, conducting expert plan-
                                          money over a period of time without
ning (which includes close consulta-                                                David C. Williams
                                          detracting from service delivery.
tion with the postal community) and                                                 October 1, 2004
beginning a “Smart Workplace” initia-     There are also non-ﬁnancial beneﬁts,
tive to ensure optimal performance.       such as deterring fraud, waste or
During this reporting period, each        misconduct; ensuring a level playing
OIG employee was trained in project       ﬁeld for contractors; and helping
management, writing/editing and           secure postal computer systems
utilizing workplace alternatives.         from attack.




                                                                                         April 1, 2004
                                                                                           October     – September
                                                                                                    1, 2004 – March30,  2005| | ii
                                                                                                                    31,2004
SUMMARY OF PERFORMANCE
April 1, 2004 – September 30, 2004


                                         AUDIT
                                         Reports issued ..................................................................................................... 268
                                         Signiﬁcant recommendations issued ...................................................................... 52
                                         Total reports with ﬁnancial impact ........................................................................... 60
                                            Funds put to better use.................................................................... $163,398,672
                                            Questioned costs1.............................................................................. $65,263,905
                                            Unrecoverable costs ................................................................................. $67,199
                                            Revenue impact ...................................................................................... $664,780

                                         TOTAL ................................................................................................. $229,394,5562

                                         INVESTIGATIONS
                                         Investigations completed ....................................................................................... 463
                                         Arrests..................................................................................................................... 28
                                         Indictments/informations ......................................................................................... 24
                                         Convictions/pretrial diversions ................................................................................. 14
                                         Administrative actions.............................................................................................. 98
                                         Total ﬁnes, restitutions and recoveries3 ...................................................... $6,352,168
                                              Amount to Postal Service (included in total ﬁgure above)3 ..................... $2,291,260

                                         HOTLINE CONTACTS
                                         Facsimile – FAX ..................................................................................................... 214
                                         E-mail ................................................................................................................. 2,749
                                         Standard Mail ........................................................................................................ 480
                                         Voice mail messages ............................................................................................. 849
                                         Telephone calls ................................................................................................... 8,408

                                         TOTAL CONTACTS ........................................................................................ 12,700




                                         1
                                             Includes unsupported costs of $4,725,975.
                                         2
                                             The Postal Service agreed to recommendations or proposed alternative corrective actions that, if implemented, could
                                             result in more than $229 million in savings.
                                         3
                                             Some ﬁnes and recoveries were from the previous reporting period, but not previously reported.




        ii | Semiannual Report to Congress
TABLE OF CONTENTS

INTRODUCTION ....................................................................................................... 2
MANAGEMENT CHALLENGES................................................................................. 3
       Cost Control ..................................................................................................... 3
       Revenue ......................................................................................................... 10
       Strategic Direction .......................................................................................... 11
       Safety and Security......................................................................................... 12
       Management Information ................................................................................ 13

FEATURE STORIES................................................................................................. 15
IDEAS WORTH EXPLORING ................................................................................... 21
ORGANIZATIONAL CHART ..................................................................................... 28
MAP OF OFFICE LOCATIONS................................................................................. 29
APPENDICES.......................................................................................................... 30
     APPENDIX A – Quantiﬁable Potential Monetary Beneﬁts ................................... 31
                            Report Listing ........................................................................... 35
     APPENDIX B – Findings of Questioned Costs ................................................... 41
     APPENDIX C – Recommendations That Funds Be Put to Better Use ............... 42
     APPENDIX D – Reports with Signiﬁcant Recommendations Pending
                  Corrective Actions .................................................................... 43
     APPENDIX E – Signiﬁcant Management Decisions in Audit Resolution ............. 46
     APPENDIX F – Investigative Statistics ............................................................... 47
     APPENDIX G – Summary of Postal Service Investigative Activities
                  Under Title 39 USC § 3013 ...................................................... 48
     APPENDIX H – Closed Congressional and Board of Governors Inquiries .......... 49
SUPPLEMENTAL INFORMATION ............................................................................ 51
     Audit Synopses ................................................................................................ 51
     Investigative Synopses...................................................................................... 57
     Freedom of Information Act Requests............................................................... 59
     Glossary ........................................................................................................... 60




                                                                                                                               April 1, 2004 – September 30, 2004 | 1
INTRODUCTION
For this reporting period, the April 1 to September 30 Semiannual Report to Congress focuses on the top ﬁve manage-
ment challenges that the Ofﬁce of Inspector General (OIG) believes the Postal Service is facing today. The OIG will
continue providing audit and investigative support to postal executives as they take on these very signiﬁcant challenges.
Following is a summary of the sections in this report.

                     MANAGEMENT CHALLENGES                                   FEATURE STORIES
                     All federal departments confront signiﬁcant              This chapter highlights OIG work in three areas:
                     management risks and opportunities. The Postal           network optimization; working together — a
                     Service is no exception. In this report, the OIG        “win-win” for the Postal Service; and the injury
                     focuses on ﬁve major challenges that confront            compensation working group.
                     postal management and spotlights efforts under-
                     way to manage them.                                     IDEAS WORTH EXPLORING
                     ■ Cost Control — With declining revenues in             This section presents concepts for improving
                           several key areas, the Postal Service must        Postal Service operations, which the OIG plans
                           control costs to maintain universal service.      to evaluate in more depth. The ideas discussed
                          The greatest opportunities to reduce costs         are a property line initiative; commercialization of
                           are in optimizing its network, controlling        employee beneﬁt programs; contract routes ver-
                           its labor costs and increasing efﬁciencies        sus hourly carriers; neighborhood mail; ﬁve-day
                           through technology investments.                   versus seven-day delivery; labor ﬂexibility/moving
                                                                             across crafts; right-sizing Post Ofﬁces; providing
                      ■    Revenue — Revenue growth has been                 fair and efﬁcient retail services; and government-
                           relatively stagnant in the face of rising labor   related services.
                           costs and increases in new delivery points.
                           The Postal Service must strive to develop         APPENDICES
                           revenue streams that fully cover the cost of      The appendices align the OIG’s body of work with
                           its operations without placing undue burden       the ﬁve management challenges facing the Postal
                           on ratepayers.                                    Service. This semiannual report fulﬁlls the require-
                      ■    Strategic Direction — The Postal Service          ments of the Inspector General Act of 1978 to
                           must balance its public service obligation        summarize OIG activities during the immediately
                           with the need to remain commercially viable.      preceding six-month period ending September
                           To achieve this objective, the Postal Service     30, 2004.
                           must continue to work within existing law
                           to increase its business effectiveness and        SUPPLEMENTAL INFORMATION
                           operational efﬁciency.                            This section includes a brief synopses of each
                                                                             audit, selected investigations and Freedom of
                      ■    Safety and Security — With more than              Information Act requests that were completed
                           700,000 employees, nearly 38,000 facilities       between April 1 and September 30, 2004. It also
                           and approximately 200 billion pieces of mail      includes a glossary.
                           to deliver each year, the Postal Service has
                           the enormous task of securing the nation’s
                           mail system and safeguarding its employ-
                           ees and customers in an environment of
                           increased potential for terrorist attacks.
                      ■    Management Information — To address
                           concerns that information it provides is
                           not transparent, the Postal Service has
                           embarked on an effort to provide information
                           that better meets the needs of its managers
                           and stakeholders.




 2 | Semiannual Report to Congress
MANAGEMENT CHALLENGES
All federal departments confront signiﬁ-     Although the Postal Service has offset
cant management risks and opportuni-         some of these increases by reducing its
ties. The Postal Service is no exception.    number of career employees, other costs
In this report, the OIG focuses on ﬁve       such as employee compensation and
major challenges that confront postal        supplies and services associated with
management and spotlights efforts            serving an expanding delivery network
underway to manage them.                     also continue to rise.

COST CONTROL                                 In FY 2003, Congress passed legisla-
The Postal Service’s universal service       tion that reduced the Postal Service’s
network continues to grow as the             payments to the CSRS. This allowed
nation’s population increases and            the Postal Service to divert some of the
new businesses and households are            planned retirement beneﬁt payments
formed. Even as this network expands,        to other needs. For example, although
First-Class Mail volumes continue to         it anticipated having to
decline due to the impact of electronic      borrow additional funds
diversion and sluggish economic              in the fourth quarter of
growth, negatively impacting the             FY 2004, the Postal
ﬁnancial situation of the Postal Service.    Service was able to pay
However, the costs of maintaining a          off some of its remain-
universal service system will continue       ing debt as of June
to increase regardless of the decrease       30, 2004. However,
in mail volume. From FY 2002 through         expenses continue to
2003, the Postal Service has added           rise in areas related to
deliveries to 3.7 million new addresses.     employee retirement
                                             and health care, which
The Postal Service has taken aggressive      increased by more than Since 2001, the Postal Service added deliveries to 3.7 million new
steps in recent years to stem the tide       $1 billion.                addresses.
of increasing costs. It reduced overall
spending by $8.3 billion during the past     While legislative relief helped reduce
three years. Expenses decreased steadily     the Postal Service’s CSRS costs, it
from FY 2001 through FY 2003, and            placed additional burdens on the
FY 2004 expenses are anticipated to          Postal Service not previously required
be below those in FY 2001. In FY 2003        and not levied against other federal
alone, the Postal Service’s efforts in       government entities. The OIG reported
managing its business coupled with the       that the decision to include additional
impact of the Postal Civil Service Retire-   obligations associated with the CSRS
ment System (CSRS) reform legislation        (such as requiring the Postal Service to
resulted in a net income of $3.9 billion.    fully fund military service pension costs
Even without the CSRS legislation, cost      for its employees) brought into question
reductions and increased productivity        whether postal revenues are being used
would have resulted in a net income of       to fund costs not traditionally borne by
$900 million.                                federal agencies and suggested that the
                                             timing of adding these charges points
However, costs such as employee and          to an effort to keep higher payments
retiree beneﬁts continue to increase         coming into the Civil Service Retirement
annually at rates exceeding inﬂation, and    and Disability Fund.
are expected to do so again in FY 2005.




                                                                                                April 1, 2004 – September 30, 2004 | 3
                                After FY 2005, the law requires that “sav-        cerns with facility closures will also need
                                ings” from lowered CSRS payments be               to be addressed. Moreover, network
                                held in a separate account that the Postal        optimization will be a difﬁcult initiative
                                Service cannot use until new legislation          because the Postal Service has not yet
                                is passed. To compensate for not being            achieved a common facility footprint or
                                able to use the savings to offset other           equipment layout in its facilities.
                                business expenses, the Postal Service
                                expects that it will have to raise postage        In the 34 years since the Postal Reorga-
                                rates over ﬁve percent, including two             nization Act of 1970, the Postal Service
                                cents for First-Class Mail in FY 2006.            implemented a series of class-based mail
                                Additionally, the Postal Service anticipates      processing networks.
                                periodic postage rate increases of 1.0
                                to 1.5 percent just to fund this provision        ■     The Processing and Distribution
                                after FY 2006. Further, with the continued              Center (P&DC) network includes
                                diversion of First-Class Mail to other                  more than 300 facilities that primarily
                                communication means, maintaining this                   act as distribution centers for First-
                               “savings” requirement could accelerate                   Class Mail, periodicals and preferred
                                this diversion.                                         parcel volume. Many of P&DCs have
                                                                                        Business Mail Entry Units (BMEUs)
                                The OIG reported that postal customers                  where mailers present bulk mail or
                                should be the beneﬁciaries of the lowered               presorted mail for acceptance.
                                payments, so that the Postal Service may          ■     The Bulk Mail Center (BMC) network,
                                retire debt and cover other retirement                  instituted in the 1970s, includes
                                costs not previously funded, or it may                  21 processing facilities primarily
                                submit new cost data to the Postal Rate                 designed to support Parcel Post and
                                Commission that will ensure proper post-                Standard Mail.
                                age rates are set. Legislation is pending
                                that addresses these issues.

                                    In this report, the OIG focuses on three
                                    signiﬁcant cost control opportunities:
                                    network optimization, labor costs and
                                    technology investments. Following are
                                    discussions of these elements.

                                Network Optimization
                                The challenge for the Postal Service is
                                to standardize, retool and right-size its
                                $26 billion mail processing and trans-
                                portation network (this ﬁgure includes
                                labor costs) while continuing its robust          The Processing and Distribution Center (P&DC) network includes more
                                daily operations. This will not be easy.          than 300 facilities that primarily act as distribution centers for First-Class
                                The sheer size and complexity of the              Mail, periodicals and preferred parcel volume.
                                network is daunting — as it is one of the
                                most complex in the world.                        ■     The Priority Mail Processing Center
                                                                                        (PMPC) network, established in the
                                    It will be difﬁcult to redesign the network         mid-1990s, includes nine Logistics
                                    while still in operation and at the same            and Distribution Centers (L&DCs)
                                    time maintain record customer service               and two processing centers primarily
                                    levels. Public and congressional con-               designed to process Priority Mail.




4 | Semiannual Report to Congress
                                                                                                                                                MANAGEMENT CHALLENGES
■   The network of six International
                                               A key element of the Postal Service’s
    Service Centers (ISCs) serves as the
                                               transportation network is its vehicle ﬂeet
    gateway for international and military
                                               and vehicle management infrastructure
    mail. The Postal Service established
                                               that ensures operationally-ready, safe
    the network in 1996 to better com-
                                               and reliable vehicles. The Postal Service
    pete in the international mail market.
                                               vehicle ﬂeet includes light delivery
While these networks were created              vehicles, cargo vans, tractors and trailers
incrementally during the last 30 years         that transport mail and equipment.
to standardize and improve the service
of speciﬁc mail classes, this approach         In recent audits of vehicle management,
has also led to non-standardized use of        the OIG identiﬁed almost $90 million in
the networks and facilities, resulting in      unsupported costs or potential savings.
overlapping mail ﬂows across products
and classes. Also, in today’s climate          Other control initiatives include efforts to
where some mail classes are experienc-         optimize the Postal Service’s highway
ing ﬂat to declining volume and market         transportation network and to reduce
shifts, there is less need for dedicated       costs by consolidating highway contract
class-based networks.                          transportation routes. Every day Postal
                                               Service trucking contractors transport
The Postal Service has developed a             mail across highway networks nationwide,
concept to optimize the current mail           costing more than $2 billion annually.
processing system by considering               Working with the OIG, the Postal Service
the physical shape of a product being          has identiﬁed more than
processed. This “shape-based” system           1,000 potential highway
determines the capacity requirements           contract trip eliminations,
based upon the volume and path of              consolidations or modiﬁca-
each type of shape.                            tions, resulting in savings of
                                               more than $50 million over
A key component of network optimization        the life of the contracts.
is the Evolutionary Network Development
(END) initiative, introduced in September      Another large transporta-
2004 at the National Postal Forum.             tion network issue centers
END is a sophisticated modeling effort         on the rising cost of fuel.
to assess restructuring of the Postal          The Postal Service currently
Service’s mail processing, transportation      spends more than $1
and logistical support networks. For the       billion per year for vehicle   A one-cent increase in aviation and gasoline fuel prices, sustained
                                                                              for a year, has an approximate $8 million annual impact on postal
past two years, the Postal Service has         fuel, making it one of the
                                                                              expenses.
conducted extensive modeling and simu-         largest fuel consumers in
lations of its networks — originally called    the United States. (Fuel costs are second
the Network Integration and Alignment          only to labor costs in the Postal Service.)
Initiative (NIA). Network modiﬁcations are     A one-cent increase in aviation and
expected to begin in calendar year 2005.       gasoline fuel prices, sustained for a year,
                                               has an approximate $8 million annual
There is a strong and compelling case          impact on postal expenses. An ongoing
supporting network optimization. Declin-       OIG audit will determine whether fuel
ing mail volumes, evolving technology and      procurement is cost-effective and if there
increasing delivery points make it critical    are opportunities to save money.
for the Postal Service to address inef-
ﬁciencies in its network and infrastructure.   The Postal Service is also restructuring
                                               its Mail Transport Equipment Service




                                                                                                      April 1, 2004 – September 30, 2004 | 5
                                Center network (MTESC), a system of           Postal Service estimates the increase will
                                22 contractor-operated logistical support     be about $1 billion in FY 2005.
                                facilities that provide equipment to mail
                                processing facilities nationwide. The         The 1970 Postal Reorganization Act,
                                OIG is currently working with the Postal      39aUSC, 101(c) & 1003(a), requires
                                Service to identify opportunities to make     postal employee pay and beneﬁts to be
                                the MTESC network more effective. See         comparable to that paid for comparable
                                page 4 regarding network optimization.        levels of work in the private sector. This
                                                                              requirement came under debate dur-
                                Labor Costs                                   ing the April 2003 hearings before the
                                Controlling labor costs is one of the big-    President’s Commission on the Postal
                                gest challenges facing the Postal Service,    Service. In those hearings, the President’s
                                due primarily to the size of its workforce.   Commission heard expert views regard-
                                Labor costs include salary and cost of        ing whether postal employees received
                                living adjustments (COLA), workers’ com-      comparable pay or were paid more than
                                pensation for injured employees, health       employees in the private sector who
                                insurance and other beneﬁts.                  perform similar work.

                                The Postal Service currently has about        As a result, the President’s Commission
                                707,000 career and 98,000 non-career          recommended in its July 2003 report that
                                employees. Personnel and compensation         the Postal Reorganization Act of 1970
                                beneﬁts for employees totaled more than       be amended to clarify the meaning of
                                $50.5 billion in FY 2003, a ﬁgure that        the term “comparability” and that a new
                                accounts for more than three-quarters         Postal Regulatory Board be authorized to
                                of the Postal Service’s total operating       determine comparable total compensa-
                                expenses. A substantial portion of            tion for all postal employees. Pending
                                these costs can be attributed to the          legislation on postal reform, however,
                                Postal Service’s 713,000 bargaining unit      does not contain provisions to address
                                employees. In its 2003 Comprehensive          this recommendation.
                                Statement on Postal Operations, the
                                Postal Service stated the average annual      The Postal Service’s largest labor cost
                                pay and beneﬁts for career bargaining         center is delivery operations, which
                                unit employees was $57,051.                   encompasses 43 percent of total labor
                                                                              hours. These hours are time expended
                                Bargaining unit employees have a              by city and rural letter carriers sorting and
                                unique status within the Postal Service       delivering mail.
                                because they have the legal right to
                                negotiate wages, hours and work condi-        The Postal Service developed the
                                tions through collective bargaining with      management tool, Delivery Operations
                                management. The four major collective         Information System (DOIS), to aid delivery
                                bargaining agreements have expiration         managers in matching workload to
                                dates ranging from November 2005 to           workhours. Recent OIG reviews noted
                                November 2006. The current agreements         opportunities for supervisors and manag-
                                provide basic salary increases and a          ers in several delivery units to increase
                                COLA that must be paid for the duration       use of DOIS to improve management of
                                of the agreements. In FY 2004, Postal         city letter carrier delivery operations.
                                Service COLA and salary costs for bar-        In FY 2005, the OIG will expand these
                                gaining unit employees increased about        reviews to other postal delivery units, as
                                $851 million over the previous year. The      well as assess the rural and highway con-
                                                                              tract letter carrier models to determine




6 | Semiannual Report to Congress
                                                                                                                                                 MANAGEMENT CHALLENGES
whether they are more efﬁcient and cost-             ters in six areas of postal operations that
effective than the city letter carrier model.        implemented prevention initiatives which
                                                     could become best practices in reducing
Another signiﬁcant cost continuing to                accidents, injuries and illness. In addition,
plague the Postal Service is workers’                future OIG work will review the Postal
compensation expenses for injured                    Service’s efforts to prevent speciﬁc types
workers.                                             of accidents.

The Postal Service was the largest                   The Postal Service has also tried for
participant in the Department of Labor’s             several years to gain congressional
(DOL’s) Ofﬁce of Workers’ Compensation               interest in its desire to replace the DOL’s
Programs (OWCP) in FY 2004, represent-               OWCP program with its own program.
ing about 30 percent of the total federal            The Postal Service believes having its
workforce that participated. It was also             own program would allow a great deal
the largest payee to OWCP, with approxi-             more ﬂexibility and would be in its best
mately $830 million in payments for the              interest. The OIG is conducting a survey
same year. This is more than 35 percent              to determine the feasibility and cost of
of the $2.3 billion in total federal workers’        such a program.
compensation payments.
                                              The OIG is also reviewing workers’
Postal workers’ compensation payments compensation costs in the areas of per-
have risen by approximately 30 percent        manent and partial disability, and medical
over the last several years — from            service payments made to
$638 million in 2000 to $830 million in       providers. In addition, the
2004. At the same time, the administra-       OIG is examining a contract
tive fees that OWCP charges the Postal        between the Postal Service
Service have increased 33 percent, from       and a preferred provider orga-
$33 million in 2000 to $44 million in 2004. nization to determine the gain
                                              share amounts claimed and
Finally, the Postal Service records, as       realized by the Postal Service
a liability, the present value of all future  through the contract.
payments it expects to make to those
employees receiving workers’ compensa- Also, the OIG partnered with
tion. At the end of FY 2003, it estimated     the Postal Service by creat-       To assist the Postal Service, the OIG identiﬁed 12 performance
total liability for future workers’ compen-   ing an Injury Compensation         clusters in six areas of postal operations that implemented
                                                                                 prevention initiatives that can become best practices in
sation costs at $7.1 billion. The estimated Working Group to develop
                                                                                 reducing accidents, injuries and illness.
total costs of a claim are based upon         ways to help the Postal
the severity of the injury, the age of the    Service reduce its workers’
injured employee, the assumed life            compensation costs.
expectancy of the employee and/or the
trend of experience with such an injury,      One of the initiatives implemented by the
and other factors.                            working group is the new Healthcare
                                              Internal Data Analysis System computer
Although most rising OWCP costs are           program. This program examines dupli-
beyond its control, the Postal Service        cate medical billings and a practice called
is nonetheless trying to reduce costs        “unbundling,” where medical services are
through accident prevention initiatives       broken apart and separately billed for the
that have resulted in fewer employees on      purpose of charging more to OWCP. The
OWCP rolls. To assist the Postal Service,     working group and its initiatives are dis-
the OIG identiﬁed 12 performance clus-        cussed in detail on page 19 of this report.




                                                                                                        April 1, 2004 – September 30, 2004 | 7
                                           Another signiﬁcant labor cost for the                 ing to Postmaster General John Potter,
                                           Postal Service is contributions made to               speaking at the September 2004 National
                                           the Federal Employees’ Health Beneﬁts                 Postal Forum. Through automation, the
                                           (FEHB) program on behalf of postal                    Postal Service is sorting as much as
                                           employees. In FY 2003, the Postal                     80 percent of its letter mail into proper
                                           Service paid more than $4 billion for                 sequence for carrier delivery, but the
                                           health insurance premium costs for nearly             goal is to reach 100 percent. Most ﬂats
                                           630,000 eligible postal employees. This               and parcels continue to require sorting
                                           contribution is more than one-third of the            by carriers. The key to achieving its goal
                                           total costs of the FEHB program, which                is quality barcoding and addressing by
                                           is more than any other federal entity. A              customers and through new technologies
                                           fuller discussion on the Postal Service’s             in development. The OIG will continue to
                                           contribution to the FEHB program is on                look at the new technology and initiatives
                                           page 22.                                              being developed to ensure beneﬁts and
                                                                                                 capabilities are economical and attainable.
                                           Technology Investments
                                           The Postal Service depends on technol-                The Postal Service invested more than
                                           ogy to deliver more than 650 million                  $13 billion deploying automation technol-
                                           pieces of mail daily to more than 140                 ogy over the last 20 years. Letters are
                                           million addresses, but is challenged to               a majority of the volume that the Postal
                                           smartly adapt new technology to main-                 Service processes and most letters are
                                           tain its competitive position in the market.          sorted into delivery sequence order using
                                                                                                 automation equipment. The long-term
                                           The Postal Service’s long-term vision is              capital plan still calls for signiﬁcant
                                           to automate the sortation of more mail in             capital investments in new automation
                                           delivery-ready sequence (in delivery order            equipment and management information
                                           for a given route). The possibilities include         systems to increase operating efﬁciency.
                                                                letters and ﬂats (over-
                                                                sized letters) sorted            Over the past several years, the OIG has
                                                                together, placed                 evaluated the development, deployment
                                                                in a single bundle               and return on investment of many Postal
                                                                and delivered to an              Service initiatives to automate its mail
                                                                individual address.              processing operations. These included
                                                                                                 material handling equipment, robotics,
                                                                       In addition, to           parcel processing equipment, retail
                                                                       improve the security      systems and ﬂats processing equipment.
                                                                       and safety of cus-        These initiatives improved operations, but
                                                                       tomers and employ-        in several instances there were delays in
                                                                       ees the Postal Ser-       deployment and machine performance
                                                                       vice is addressing the    results were lower than expected.
                                                                       threat of biohazards
The Postal Service invested more than $13 billion deploying automation  in the mail by identi-   The large size and diversity of the Postal
technology over the last 20 years.                                      fying and deploying      Service’s customer base presents
                                                                        technology that is       technological challenges demanding
                                                compatible with existing systems.                that solutions be simple, easy to use
                                                                                                 and competitive. The Postal Service is
                                           Automation and information technology                 also using technology to achieve this
                                           have helped the Postal Service, over the              aim. To address changing customer
                                           last three years, trim $8.3 billion from the          needs, the Postal Service has
                                           agency’s operating expenses, accord-                  committed resources to better data




           8 | Semiannual Report to Congress
                                                                                                                                                                        MANAGEMENT CHALLENGES
management, tracking of mail and
improved customer communication.

The Postal Service’s future vision
includes intelligent mail coding and
tracking. (Intelligent Mail™ is the capture
and sharing of information about each
mailpiece throughout the postal system.)
This will help the Postal Service compete
in an environment where information
about mail is becoming increasingly more




Intelligent mail™ is the capture and sharing of information
about each mailpiece throughout the postal system.


important to its customers. Competitors
have built their businesses, in part,
by recognizing this shift in customer
requirements. The Postal Service expects
to beneﬁt from this vision through revenue
growth, reduced operating costs and
enhanced mail security.

The OIG will continue to evaluate the
efﬁciency and effectiveness of current
and future Postal Service strategies to
enhance mail processing equipment
and other emerging technologies. The
OIG will also continue to review new
initiatives for biohazard detection and
protection systems to safeguard postal
employees, customers, operations
and mail security during disasters and
national emergencies.

                                                              The OIG will continue to look at the new technology and
                                                              initiatives being developed to ensure beneﬁts and capabilities
                                                              are economical and attainable.




                                                                                                                               April 1, 2004 – September 30, 2004 | 9
                     REVENUE                                             85 million additional First-Class mailpieces.
                     The Postal Service must strive to develop           Also, on the same date, the PRC recom-
                     revenue streams that fully cover the cost of its    mended approval of the Discover Financial
                     operations without placing undue burden on          Services NSA. The Discover agreement is also
                     ratepayers. Part of the OIG’s challenge is to       intended to retain and grow First-Class Mail
                     work with the Postal Service to help minimize       volume, however, the PRC case indicates that
                     the size of rate adjustments required to meet       there will be a shift of mail volume from Stan-
                     the rising cost of operations.                      dard to First-Class Mail. The Postal Service
                                                                         is waiting for PRC approval for the Bank One
                      Unlike most federal agencies, the Postal Ser-      NSA, which is similar to the Discover Financial
                      vice relies on its revenues, not appropriations,   Services NSA.
                      to fund its operations. Without adequate
                      revenues, the Postal Service would have to         All of the agreements are expected to result
                      borrow funds, reduce services, raise rates or      in cost savings because they require the cus-
                      seek taxpayer subsidies. Recent ﬁnancial data      tomers to receive information about undeliver-
                      indicates the Postal Service’s overall ﬁnancial    able mail electronically in lieu of having pieces
                      condition continues to improve in 2004. Cur-       returned physically. The OIG will continue
                      rent projections show a net income of about        to monitor the Bank One Corporation NSA,
                      $2.6 billion at the end of FY 2004. However,       which was ﬁled with the Postal Rate Commis-
                      this turnaround appears to be short-lived, as      sion on June 21, 2004.
                      the Postal Service is projecting a loss in         The Mail Evaluation, Readability and Lookup
                      FY 2005 of about $200 million.                     INstrument (MERLIN) is designed to improve
                      For FY 2004, some of the projected income          the quality of mail, automate acceptance,
                      relates to legislation passed in April 2003        make veriﬁcation consistent and ensure
                      that reduced Postal Service payments to the        appropriate revenue collection. The Postal
                      Civil Service Retirement System by about           Service invested $186.5 million in MERLIN to
                      $2.7 billion. In addition, revenues grew for       provide automated acceptance and veriﬁca-
                      Standard Mail due to increased advertising         tion of discounted mailings in BMEUs.
                      spending and election mail. However, First-        During this reporting period, the OIG con-
                      Class Mail revenue is expected to decrease         ducted two site-speciﬁc reviews and reported
                      by more than two percent after FY 2004, due        that MERLIN was underutilized. One BMEU,
                      to the continued use of electronic alterna-        for example, failed to collect $30,455 in
                      tives to mail. Further decreases are expected      additional revenue that was due. A report is
                      in the future. Additionally, other unknowns        planned to summarize the site-speciﬁc MER-
                      may impact revenue, including the passage          LIN reports and cover issues such as return
                      of postal reform legislation, the economy and      on investment and user satisfaction.
                      increasing competition.
                                                                         Another avenue being pursued to increase
                     To grow revenue, the Postal Service is enter-       revenue is providing government-related ser-
                     ing into contractual agreements, Negotiated         vices in all Post Ofﬁces. One of these services
                     Service Agreements (NSA), with three cus-           is providing passports.
                     tomers that gives them pricing incentives in
                     exchange for a shift in customer behavior that      Last year, the Postal Service generated
                     provides cost beneﬁts to the Postal Service.        approximately $103 million in revenue from
                                                                         passport fees alone. The OIG plans to follow
                      On September 30, the Postal Service com-           these new business strategies and marketing
                      pleted the ﬁrst year of an NSA with Capital        practices introduced by the Postal Service to
                      One Services, Inc.; which has, based on the        determine if waste, misconduct or fraud could
                      ﬁnal forecast presented at the Postal Rate         interfere with Postal Service efforts to increase
                      Commission (PRC), resulted in an estimated         business and revenue.



10 | Semiannual Report to Congress
                                                                                                                                               MANAGEMENT CHALLENGES
STRATEGIC DIRECTION                              In order to track progress of
In determining its strategic direction,          Transformation Plan initiatives,
the Postal Service must balance public           the Postal Service must have
service with its need to remain commer-          accurate and reliable perfor-
cially viable. This task is increased due        mance data, as discussed in the
to heightened competition in the delivery        management information section
and communication industries, espe-              of this semiannual report.
cially with electronic alternatives to mail
(such as electronic payments) steadily           Despite record accomplish-
eroding First-Class Mail volume.                 ments in FY 2004, the Postal
                                                 Service will again be challenged
Unlike private corporations, the Postal          in FY 2005. Postal Service
Service is bound by statutory constraints        management is anticipating
that limit its ability to quickly adjust rates   balancing a projected FY 2005
to respond to changing costs, negotiate          budget of $68 billion (keeping
with customers and employees, develop            revenues equal to expenses)
                                                                                    The Postal Service must balance public service
and price new products, close unproﬁt-           and seeing Standard Mail           with its need to remain commercially viable.
able outlets, and generate and reinvest          volumes exceed First-Class
surplus. Postal Service management               Mail volumes for the ﬁrst time.
recognizes that providing universal              Management will continue to implement
service in a dynamic and competitive             cost reductions while the Postal Service
environment requires a strategic direc-          delivers an estimated 1.4 billion more
tion that embraces change. To continue           pieces of mail than the previous year.
meeting its statutory mission, the Postal
Service must continue to work within             Through its work, the OIG is looking
existing law to increase its business            at ways to assist the Postal Service in
effectiveness and operational efﬁciency          its strategic planning process and to
and to ensure that new products and              serve as a sounding board. As Postal
services are self-sustaining and relate to       Service management continued to seek
its core business.                               cost-cutting efforts in FY 2004
                                                 to reduce overhead, the OIG
Due to concerns raised by Congress,              worked with management to
the Government Accountability Ofﬁce              provide a case study report
and other interested stakeholders                on district consolidations high-
regarding the Postal Service’s future, the       lighting what worked well and
Transformation Plan was issued in April          what could be improved.
2002. It addresses the continued need
for strategic direction, outlines ways to        In addition, the OIG plans to
address those concerns, provides short-          assess the major manage-
term actions to take under its existing          ment reports the Postal
authority and outlines long-term strate-         Service issues on its plans,
gies that require congressional action.          strategies and measurements
                                                 to determine whether they                  The GAO, Congress and other
Since the Transformation Plan Progress           duplicate each other or if any             stakeholders called on the
                                                                                            Postal Service to develop a
Report was issued in November 2003,              can be consolidated. Finally,              comprehensive transformation
the Postal Service is on target to achieve       the OIG will continue follow-              plan that would address ﬁnancial,
its promised cost reductions of about $5         ing pending congressional                  operational and human capital
billion by 2006, and continues to pursue         postal reform and the Postal               challenges.
initiatives to develop people, manage            Service’s Transformation Plan.
costs, improve service and grow revenue.



                                                                                                     April 1, 2004 – September 30, 2004 | 11
                                 SAFETY AND SECURITY                             plan throughout the Postal Service. The
                                 The nation’s mail system has been               all-hazard, comprehensive plan will be
                                 one of the mediums used for carrying            issued in conjunction with the national
                                 out terrorist attacks. With more than           deployment of the Biological Detection
                                 700,000 employees, nearly 38,000 facili-        System and Ventilation and Filtration
                                 ties and approximately 200 billion pieces       System to test for biological threats.
                                 of mail to deliver each year, the Postal
                                 Service faces the enormous challenge            The Postal Service is also coordinating
                                 of securing the nation’s mail system            with the Federal Emergency Management
                                 and safeguarding postal employees and           Agency on DHS Presidential Directive 8,
                                 customers from these attacks. Regard-           a companion to Presidential Directive 5.
                                 less of the Postal Service’s efforts, the       The new directive provides steps and pre-
                                 threat of future attacks can be reduced         vention activities during the early stages
                                 but not eliminated.                             of a terrorist attack. The Postal Service is
                                                                                 also working closely with state and local
                                     From January to July 2004, the Postal       ofﬁcials to establish lines of communica-
                                     Service and the Postal Inspection Service   tion, roles and responsibilities, and points
                                     responded to more than 800 suspicious       of contact; and to develop site-speciﬁc
                                     white-powder mail incidents, having the     details such as local jurisdictional issues.
                                     potential to be anthrax.
                                                                                 The OIG will continue to review the Postal
                                 To respond more effectively to such             Service’s future efforts in developing
                                 incidents, the Postal Service and the           effective mail security systems; the devel-
                                 USPIS established national and local            opment, implementation, and coordina-
                                 policies (supplementing national policies)      tion of emergency preparedness plans;
                                 for interacting with local police and ﬁre       and USPIS initiatives and programs that
                                 departments. However, a recent OIG              provide protection for employees, cus-
                                 review found that the policies and pro-         tomers, physical assets and the nation’s
                                 cedures need to better complement one           mail system.
                                 another and personnel need to be better
                                 trained, as demonstrated during a recent
                                 suspicious white-powder mail incident at
                                 a mail processing center in Washington,
                                 D.C. The Postal Service and the USPIS
                                 are taking actions to modify local policies
                                 to complement national policies and
                                 ensure postal personnel are trained to
                                 adequately respond.

                                     In response to the Department of
                                     Homeland Security (DHS) Presidential
                                     Directive 5, the Postal Service’s chief
                                     operating ofﬁcer and executive vice
                                     president revised existing emergency
                                     management policies and created the
                                     Ofﬁce of Emergency Preparedness to
                                     reﬂect a new emergency preparedness
                                     focus. This new ofﬁce is implementing       The Biological Detection System and Ventilation and Filtration
                                     an integrated emergency management          System tests for biological threats.




12 | Semiannual Report to Congress
                                                                                                                                            MANAGEMENT CHALLENGES
MANAGEMENT INFORMATION                         OIG will be active in validating
The importance of management                   data and auditing information
information is paramount as the Postal         systems to determine the accu-
Service continues to demonstrate to            racy of information provided to
Congress, the Postal Rate Commis-              the new commission.
sion, stakeholders and the public that
it is making progress in improving the         Data supporting performance
quality of its revenue, cost and service       and results must also be
measurements. In the past, problems            objective so that stakeholders
with management information led to             receive accurate and complete
signiﬁcant differences between initial         information necessary to make
and subsequent forecasted estimates            decisions related to their needs.
within a three-month period. These             As noted in its July 2003 report,
signiﬁcant changes in ﬁnancial outlook         the President’s Commission
were not evident from publicly available       recognizes that the Postal
information and came as a surprise to          Service does, in many respects,
many stakeholders. The Postal Service          conduct ﬁnancial reporting over
and its stakeholders need timely, reliable     and above what is required
and accurate data to better plan, make         of federal agencies; however,     The Postal Service relies on accurate
                                                                                 information to make critical decisions.
critical management decisions and              improvement is still needed.
evaluate performance.                          The President’s Commission
                                               suggests that the Postal Service should
To address concerns that the informa-          be setting the standard for ﬁnancial
tion it provides is not transparent,           transparency by which all other federal
the Postal Service is working to give          entities are judged.
information that better meets the needs
of its managers and stakeholders. For          In coordination with the Securities
example, the Postal Service is currently       and Exchange Commission (SEC), the
developing an annual report that more          Postal Service initiated actions to volun-
closely mirrors those of public com-           tarily comply with certain SEC require-
panies, and is working to (voluntarily)        ments in another measure to provide
comply with provisions of the Sarbanes-        its stakeholders with better ﬁnancial
Oxley Act. The OIG’s role is to help           transparency. For example, the Postal
ensure that the information provided is        Service enhanced its Quarterly Financial
timely, reliable and accurate.                 Report to provide more detail in such
                                               areas as costs and revenue by product
The Postal Service relies on accurate          and ﬁnancial outlook. Changes to
information to make critical decisions         incorporate SEC disclosures in its 2004
and meet its congressional reporting           annual report are also being considered.
requirements. Current postal reform
bills in both the Senate and the House         Additionally, the Postal Service began
of Representatives would require the           actions to comply with portions of the
Postal Service to provide an annual            Sarbanes-Oxley Act of 2002 related to
report to a Postal Regulatory Commis-          documentation and testing of controls
sion that would analyze costs, revenues        over ﬁnancial reporting. Processes in
and rates. The report would also               eight major focus areas — cash, money
describe market information and mea-           orders, meter revenue, payroll expense,
sure service quality for postal products.      transportation expense, real estate
If this provision in the bill is passed, the   expense, contract payments and ﬁnan-




                                                                                                  April 1, 2004 – September 30, 2004 | 13
                                     cial reporting — were initially selected                           Computers and electronic data are vital
                                     for examination. The Postal Service has                            to Postal Service operations and its
                                     placed these processes under review                                critical information not only needs to be
                                     and plans to revise the existing docu-                             timely, reliable and accurate, but also
                                     mentation to conform to the Committee                             “safe and secure.”
                                     of Sponsoring Organization’s framework.
                                                                                                        To validate that management decisions
                                 Changes in technology and the business                                 are based on accurate information, the
                                 environment emphasize the need for                                     OIG conducted audits during FY 2004
                                 providing timely, accessible, relevant and                             to ensure there are effective controls
                                 accurate data to postal decision makers                                over information processing environ-
                                 to support these initiatives. Similarly, an                            ments to protect the conﬁdentiality,
                                 effective system of accounting, ﬁnancial                               integrity, reliability and availability of vital
                                 and information controls is necessary                                  information, the revenue stream and the
                                 for measuring ﬁnancial performance.                                    agency brand. For example, the OIG
                                 In FY 2004, the Postal Service moved                                   performed security vulnerability assess-
                                 to a commercial off-the-shelf general                                  ments of servers covering key informa-
                                 ledger system that improves support                                    tion processing platforms, as well as
                                 capabilities, adapts to changing busi-                                 audits of the Postal Service disaster
                                 ness processes and supports ﬁnancial                                   recovery and business continuity pro-
                                 reporting. The OIG, in support of the                                  cesses and computer incident response
                                 annual ﬁnancial statement audit, is cur-                               functions. The OIG will continue this
                                 rently reviewing the transactions included                             effort in FY 2005.
                                 in the new general ledger system.




                                     Computers and electronic data are vital to Postal Service operations and its
                                     critical information.




14 | Semiannual Report to Congress
             FEATURE STORIES
            This chapter highlights OIG work in three                         ■   The transportation and logistical
            areas: network optimization; working                                  support component of this network
            together — a “win-win” for the Postal                                 comprises more than 17,500
            Service; and the injury compensation                                  highway network routes, 215,000
                                                                                                                                                        POSTCARDS
            working group.                                                        vehicles and more than $6 billion in
                                                                                  annual contracts for air and surface
            NETWORK OPTIMIZATION                                                  transport. This infrastructure is one of
            Optimizing the Postal Service’s multi-bil-                            the biggest in the world. One major
            lion dollar mail processing and transpor-                             part of this infrastructure includes the
            tation network will not be easy. The sheer                            hub-and-spoke program (HASP). A
            size and complexity of the network is                                 postal hub is a centralized mail collec-                                  FLATS
            daunting – as it is one of the most elabo-                            tion facility located at various points
            rate networks in the world.                                           nationwide. Spokes are the mail
                                                                                  transportation routes that connect
            ■ The mail processing component of                                    outlying dispatch or destination points
              this network encompasses more than                                  to the hub. This concept reduces the
              450 facilities, including processing                                need for direct point-to-point trans-                                   LETTERS
              and distribution centers/facilities, bulk                           portation routes and plays an integral
              mail centers, Priority Mail processing                              part in network optimization.
              centers, logistics and distribution
              centers, international service center,                          This infrastructure, created incrementally
              business mail entry units and facility                          over the last 30 years, contains excess
              annexes, as well as various other                               capacity and some facilities that may                                       PARCELS
              facilities. Many of these facilities were                       not be optimally located. Over time,
                                                                                                                                                     Over time, the
              established to process the mail by                              the classes and types of mail were
                                                                                                                                                     classes and types
              class (e.g., First-Class Mail, Standard                         commingled within these networks,                                      of mail were
              Mail, Priority Mail, Periodicals and                            resulting in overlapping mail ﬂows across                              commingled within
              Package services). Efforts are                                  products and classes. Also, in today’s                                 these networks,
                                                                                                                                                     resulting in overlap-
              underway to further enhance letter                              climate where some mail classes are
                                                                                                                                                     ping mail ﬂows
              processing, improve ﬂats automation                             experiencing ﬂat to declining volume and                               across products and
              and deploy the next generation of                               market shifts, there is less need for these                            classes.
              package sorting equipment.                                      dedicated class-based networks.

                                                                              An example that arose from multiple,
                                                                              class-based networks was the outsourc-
                                                                              ing of 10 Priority Mail Processing Centers
                                                                              to solely handle Priority Mail. Establishing
                                                                              a dedicated network for Priority Mail
                                                                              improved service, but increased Priority
                                                                              Mail costs to customers. Resulting price
                                                                              increases were a factor behind lower
                                                                              volume. The Postal Service learned that
                                                                              a more measured approach is necessary
                                                                              before implementing future major network
                                                                              changes. The Postal Service has devel-
The transportation and logistical support component of this network
comprises more than 17,500 highway network routes, 215,000 vehicles           oped a concept to optimize the current
and more than $6 billion in annual contracts for air and surface transport.   mail processing system by considering




                                                                                                                             April 1, 2004 – September 30, 2004 | 15
                                     the physical shape of a product being      work modiﬁcations will begin in calendar
                                     processed. This “shape-based” system       year 2005, and are tentatively projected
                                     determines the capacity requirements       to be completed by the end of 2009.
                                     based on the volume and path of each
                                     type of shape.                             The Postal Service has already been
                                                                                improving network efﬁciency. For
                                                                                instance, the Postal Service has reduced
                                 Evolutionary                                   costs by improving operational efﬁciency
                                 Network Development                            in the international mail processing net-
                                 A key component of network optimiza-           work. Postal Service management closed
                                 tion is the Evolutionary Network Devel-        the Dallas, Texas, International Service
                                 opment (END), initiative, which affects        Center (ISC) and performed network
                                 $20 billion in processing, distribution        efﬁciency reviews of other centers. The
                                 and labor costs and $6 billion in trans-       OIG continues to work together with the
                                 portation costs. (Various names have           Postal Service to independently assess
                                 been used for this initiative including        inefﬁciencies in the ISC network.
                                 the Network Integration and Alignment
                                 Project and Network Rationalization.)          Over the past six months, the OIG and
                                                                                the Postal Service have worked jointly to:
                                 END starts with a sophisticated modeling       ■   Improve the efﬁciency of operations
                                 process to help create a ﬂexible process-          at the New York ISC by reducing
                                 ing and delivery network that reduces              320,000 workhours. This reduction
                                 Postal Service and customer costs,                 could produce a cost avoidance of
                                 increases operational effectiveness and            $98 million over 10 years.
                                 improves consistency of service. It will
                                 be difﬁcult to redesign the network while      ■   Improve the efﬁciency of the Airmail
                                 it is still in operation, and at the same          Records Unit at the New York ISC
                                 time, maintain record customer service             by reducing 30,000 workhours. This
                                 levels. Also, public and congressional             reduction could produce a monetary
                                 concerns with facility closures will need to       impact of $9.2 million over 10 years.
                                 be addressed. Moreover, it will be a dif-          Management also agreed to con-
                                 ﬁcult initiative because the Postal Service        sider outsourcing this operation.
                                 has not yet achieved a common facility
                                 footprint or equipment layout in facilities.   The OIG and the Postal Service will work
                                                                                together to further improve operational
                                 Network Validation                             efﬁciencies by examining the Los Angeles
                                 As recommended by the OIG, the Postal          ISC and selected domestic mail process-
                                 Service assembled an internal team             ing facilities in the Eastern and Capital
                                 to conduct independent veriﬁcation             Metro Areas.
                                 and validation (IVV) of the END models
                                 developed by contractors. During               Transportation Network
                                 2004, the IVV team identiﬁed key model         The Postal Service spends more than
                                 assumptions, veriﬁed underlying inputs         $2 billion annually for contracted highway
                                 to the models and is currently validating      transportation. It has taken steps to
                                 the models. The OIG, working jointly with      optimize its highway transportation net-
                                 the IVV team, has monitored progress           work and reduce costs by consolidating
                                 and recommended best practices. The            highway contract transportation routes.
                                 Postal Service plans to complete the IVV
                                 process in December 2004. Incremental          Over the past two years, the OIG issued
                                 implementation and deployment of net-          10 audit reports covering evaluation




16 | Semiannual Report to Congress
                                                                                                                                       FEATURE STORIES
of highway contract routes, and has            procurement                          is
worked with the Postal Service to identify     cost-effective
more than 1,000 potential highway              and to identify
contract trip eliminations, consolidations     opportunities
or modiﬁcations potentially resulting in       to save money.
savings of more than $50 million over          The ﬁrst phase of the audit will determine
the life of the contracts. The Postal          if the diesel bulk fuel program is being
Service eliminated or modiﬁed most of          effectively implemented. The results
these trips without negatively affecting       of this work will determine if the diesel
service or operational ﬂexibility because      bulk fuel program can be expanded to
mail volume was low and mail could be          provide savings in additional areas of fuel
consolidated on other trips.                   consumption.

Air networks are another vital part of the     During this period, OIG investigations
overall transportation network necessary       uncovered fraud in the transportation
to accomplish the Postal Service’s mis-        services area. A Postal Service contract-
sion. Its air network operations consist of    ing ofﬁcer became suspicious that
contracts with FedEx, commercial airlines      a Texas truck trailer lease contractor
and other private carriers. Approximately      involved in mail delivery was overcharg-
$1.9 billion is spent annually on these        ing for truck trailer repairs. Following
operations — with about $1.2 billion to        our investigation, in August 2004, the
FedEx and $700 million to commercial           contractor pled guilty to making false
and other private carriers.                    claims. The OIG determined that the
                                               contractor ﬁled hundreds of claims for
In May 2004, the OIG began audit work          damage reimbursement, conspired with
in the air network operations area with        certain preferred vendors to undermine
the objectives of determining whether          the required competitive bidding process
air network operations are effective and       and, between 1997 and 2002, submitted
identifying opportunities to save money.       more than 95 percent of its claims with a
During the ﬁrst phase of the audit, the        falsiﬁed estimate for repair.
OIG is assessing operations under the
                                               The OIG will continue to work with the
new commercial air contract, including
                                               Postal Service to optimize the highway
a review of contract implementation by
                                               transportation network, and plans to
postal headquarters and planned reviews
                                               review the bulk mail transportation routes
of local postal air mail and carrier opera-
                                               and the FedEx contract.
tions. Through this work, the OIG intends
to assist the Postal Service in overcoming
network optimization challenges.

The Postal Service currently spends more
than $1 billion per year for vehicle and
aviation fuel, making it one of the largest
fuel consumers in the United States. Fuel
costs are second only to labor costs in
Postal Service highway transportation
contracts. A one-cent increase in the cost
of fuel results in an $8 million annual fuel
increase. Consequently, in March 2004,
the OIG announced audit work in the fuel
management area to determine if fuel




                                                                                             April 1, 2004 – September 30, 2004 | 17
                                 Looking Toward The Future                                            technical advisors on OIG-led audits. This
                                 The Postal Service and the OIG will                                  relationship has fostered trust and open
                                 continue working together to identify                                communications between the Postal
                                 opportunities to improve operations and                              Service and the OIG. The OIG’s goal is to
                                 reduce costs. Some near-term challenges                              add value and provide a helpful resource
                                 for the Postal Service involving the END                             to the Postal Service.
                                 initiative include:
                                                                                                  In another example, Postal Service
                                     ■   Completing a blueprint that will gov-                    managers worked closely with the OIG’s
                                         ern network changes;                                     Network Operations – Processing and
                                     ■   Developing a comprehensive and                           Logistics teams to save the Postal Ser-
                                         integrated plan for network changes;                     vice 589,000 workhours, eliminate 1,000
                                                                                                  unnecessary trips and realize monetary
                                     ■   Identifying and obtaining the                            beneﬁts of more than $247 million.
                                         resources needed to incrementally                        The table below provides additional
                                         implement network optimization; and                      breakdowns.
                                     ■   Developing a formal process to
                                         implement the initiative and evaluate                    The OIG’s Network Operations – Process-
                                         results.                                                 ing and Logistics teams will continue
                                                                                                  to assist postal managers in tackling
                                 WORKING TOGETHER —                                               the challenges of declining mail volume,
                                                                                                  excess capacity and underutilized
                                 A “WIN-WIN” FOR THE                                              networks by providing an independent
                                 POSTAL SERVICE                                                   assessment of mail processing and
                                 Working together has proven to be an                             transportation operations. The improved
                                 effective means of improving the efﬁciency                       relationship has also led to audit referrals
                                 of the Postal Service. Today, there is                           in the areas of domestic and international
                                 increased involvement with postal man-                           mail operation networks, bulk mail
                                 agement in planning and providing techni-                        highway transportation routes and military
                                 cal assistance on audits, but indepen-                           absentee ballots.
                                 dence is maintained by ensuring that ﬁnal
                                 decisions are made by the OIG, according                         These efforts have generated more dis-
                                 to responsibilities outlined by the Inspector                    cussion on how the OIG can coordinate
                                 General Act. In some instances, postal                           and cooperate to bring value to the Postal
                                 employees were assigned to serve as                              Service. For instance, the OIG Network

                                     ADDING VALUE
                                                                                                         Number                Monetary
                                                                                                         of         Workhour   Impact over
                                     Topic                           Theme                               Reviews    Savings    10 Years
                                     Evolutionary Network            Independent Veriﬁcation and            1          None    None
                                     Development                     Validation - Advisory Capacity
                                     Business Mail Entry Units       Efﬁciency                              7        94,000    $29 million
                                     International Service Centers   Efﬁciency and Facility                 4       495,000    $168 million
                                                                     Closures
                                     MERLIN                          Utilization/Revenue Collection         2          None    $30,455
                                     Highway Contract Routes         Optimizing the Transportation         10          None    $50 million
                                                                     Network                                                   over contract term,
                                                                                                                               1,000 trips eliminated
                                     TOTAL                                                                 24       589,000    $247 million




18 | Semiannual Report to Congress
                                                                                                                                      FEATURE STORIES
Operations - Logistics team was recently      $44.5 million in fees for administering
requested to make presentations at the        OWCP claims in 2004. (DOL administers
Southeast Area’s Transportation and Net-      the workers’ compensation program
works meeting and at a national meeting       for all federal agencies. However, unlike
of managers from bulk mail centers, area      agencies that receive annual appropria-
distribution network ofﬁces and network       tions from Congress, the Postal Service
operations management.                        pays workers’ compensation costs from
                                              its own revenue.)
The OIG shared with the Postal Service
its methodology for evaluating highway       In July 2004, the ICWG implemented
contract trips and identifying opportuni-    a new computer program called the
ties to eliminate trips and save money.      Healthcare Internal Data Analysis System.
The Postal Service transportation            The system “analyzes” data by delving
managers shared their thoughts and           into DOL OWCP medical billing and com-
insights. At these meetings, both the        pensation payment records to identify
Postal Service and the OIG addressed         patterns, trends and schemes that may
the challenges brought on by change,         be driving up costs, as well as to select
stressed the need for and beneﬁt of          and reﬁne management practices that
working together, and explored opportu-      could result in fewer work-related injuries
nities to share information.                 to postal employees.

Working together has deﬁnitely proven to     Phase I of the system rollout began in
be a “win-win” for the Postal Service and    July 2004. A contracted registered nurse
the OIG as they prepare for the future.      and investigative analyst from H&RM
                                             and the postal healthcare fraud group
                                             are analyzing data to identify duplicate
INJURY COMPENSATION                          medical billings for identical or multiple
WORKING GROUP                                medical services paid by DOL OWCP.
To identify and help control increasing
costs associated with the workers’         From July 1, 2003 to July 1, 2004, the
compensation program, an Injury            OIG  Dallas Field Ofﬁce and Postal Service
Compensation Working Group (ICWG)          Injury Compensation Unit conducted
was created in January 2004, with a       “beta”  (ﬁeld) testing of the system, which
staff drawn from the OIG, the USPIS, the   identiﬁed  $432,851 in duplicate billings
Postal Service’s Health and Resource       in the Southwest     Area. Collection efforts
Management (H&RM) division and             since  October   1,  2003,  have returned
stakeholders. Investigative, audit and     nearly  $289,000    to the Postal Service
administrative initiatives were begun to   by  way  of DOL.   An  additional $84,000   is
reduce provider and claimant fraud, to     pending   collection,  with analysts review-
address systemic issues related to the     ing another $60,000 for possible collec-
fee schedule and bill payment system       tion. At the conclusion of the Southwest
of the DOL OWCP and to enhance the         Area review, the working group will use
Postal Service’s operational efﬁciency.    the system to analyze medical data in the
                                           Paciﬁc, Southeast and Eastern Areas.
A major management challenge for the
Postal Service in FY 2004 was to reduce Phase II of system implementation, which
workers’ compensation payments,            began recently, is examining “unbundling”
which increased from $638 million in       as a potential cause of increased costs
FY 2000 to $830 million in FY 2004. In     for OWCP and the Postal Service.
addition, the Postal Service paid the DOL (Unbundling is the practice of breaking




                                                                                            April 1, 2004 – September 30, 2004 | 19
                                     a medical service apart and separately        seek to lower costs through investigations,
                                     billing the constituent parts.                audits or administrative remedies and rec-
                                     For example, an unbundled appen-              ommendations. Thus far, analytical work
                                     dectomy might produce separate bills          by group members has pinpointed certain
                                     for the abdominal incision, abdominal         system weaknesses and administrative
                                     surgery, tissue restructuring and sutures.)   activities, as well as fraud, as potential
                                     Unbundled services cost OWCP and the          causes for the rising costs. The OIG has
                                     Postal Service more, since the total cost     already initiated investigations and audits
                                     for the various parts is more than the        and has others planned.
                                     allowable charge for the service. Beta
                                     testing of this phase of the system is        The group also expects to provide
                                     scheduled to begin in November 2004,          information that may support a legisla-
                                     followed by implementation at the end of      tive change that would allow the Postal
                                     December 2004.                                Service to better control its OWCP costs
                                                                                   by moving from the OWCP Federal
                                     In addition to identifying root causes for    Employees’ Compensation Act program
                                     cost increases, the ICWG’s 11 members         to one of its own.




20 | Semiannual Report to Congress
IDEAS WORTH EXPLORING
The role of the OIG is not only to ﬁght waste,    PROPERTY LINE MAILBOX INITIATIVE
fraud and misconduct, but also to promote         The Postal Service is continually challenged
economy, efﬁciency and effectiveness in           to keep up with increasing mail delivery
Postal Service programs and operations.           points (drop-off points for mail, such as
Therefore, researching initiatives is within      houses, businesses, housing developments,
the OIG’s area of responsibility. In this sec-    etc.). It delivers to more than 140 million
tion, the OIG explores ideas and concepts         delivery points, or stops, daily; and, as of the
regarding postal operations and programs          third quarter of 2004, there were more than
that may reduce costs, improve efﬁciencies,       1 million additional delivery points added over
increase revenue or introduce new ways of         the previous year.
doing business. Many of these ideas have
been introduced before, and the OIG plans         According to the U.S. Census Bureau, the
to determine the feasibility or viability of      nation’s population was more than 282 million
these concepts.                                   in 2000, and by 2010 it will be approximately
                                                  309 million. As urban and suburban areas
The OIG proposes eight ideas for further          continue to grow, maximizing mail carrier
consideration:                                    efﬁciency to new and existing delivery points
■   Property line mailbox delivery, which looks   will be key to controlling the costs of providing
    at improving efﬁciency by requiring mail      universal service.
    delivery to property line mailboxes rather
    than to a customer’s door.                    City delivery workhours comprise the largest
                                                  workhour segment in the Postal Service. City
■   Postal Service commercialization of ben-      letter carriers can make deliveries in vehicles,
    eﬁt programs like life and health insurance   on foot, or a combination of vehicle and on
    as well as administration of the workers’     foot. The cost per delivery increases as the
    compensation program.                         delivery is made closer to the customer’s
■   Cost efﬁciency of contract routes versus      door. Delivery to a customer’s door is the least
    hourly carriers.                              efﬁcient mode of delivery because the carrier
■   “Neighborhood mail,” which allows the         has to dismount from the vehicle, walk onto
    delivery of unaddressed mail to the           the customer’s property and, in many cases,
    mailbox.                                      climb stairs to perform the door delivery.
■   Five-day versus seven-day delivery to         According to a recent Government Account-
    maximize efﬁciency and infrastructure         ability Ofﬁce review, door delivery once was
    utilization.                                  the norm in urban settings; however, the
■   Labor ﬂexibility to allow employees to        Postal Service changed its policy in 1978
    perform jobs currently worked by a single     to limit additional door deliveries to further
    craft.                                        enhance delivery efﬁciencies. To comply
■   Right-sizing Post Ofﬁces while providing      with this policy, the Postal Service started
    fair and efﬁcient retail services.            working with developers of new single-family
                                                  neighborhoods to provide alternatives to door
■   Government-related services, which            delivery. As a result, property line delivery is
    would allow postal employees to               one of the fastest growing modes of delivery.
    perform functions on behalf of other          According to Postal Service delivery ofﬁcials,
    federal agencies.                             the only instance where new delivery points
Each of these suggestions poses new chal-         would receive door delivery would be if the
lenges and potential opportunities for the        new delivery point is established on a block
Postal Service.                                   that currently receives door delivery.




                                                                                          April 1, 2004 – September 30, 2004 | 21
                                 At the end of FY 2003, approximately 32               costs while, more importantly, not reducing
                                 percent of deliveries (excluding those to             employee beneﬁts.
                                 postal retail facilities) were still made to the
                                 door. This has a signiﬁcant impact on the             Postal employees are covered by the federal
                                 workhours and thus the costs of delivery for          beneﬁt programs for workers’ compensation,
                                 the Postal Service.                                   Ofﬁce of Workers’ Compensation Programs
                                                                                       (OWCP); life insurance, Federal Employees’
                                  Instituting a national policy on mailbox place-      Group Life Insurance (FEGLI); and health
                                  ment, whereby existing door deliveries would         insurance, Federal Employees’ Health Bene-
                                  be converted to property line deliveries, might      ﬁts (FEHB). In FY 2003, these three programs
                                  possibly provide for savings in excess of a          accounted for more than 11 percent of the
                                  billion dollars annually to the Postal Service.      Postal Service’s compensation and beneﬁts,
                                               Other key factors such as customer      or $5.7 billion.
                                               concerns and Congressional inter-
                                               ests would need to be considered.       Because these programs represent a signiﬁ-
                                               This national policy could also allow   cant portion of its overall costs, the Postal
                                               for certain exceptions, through a       Service may receive better rates with no
                                               local approval process, to provide      reduction in beneﬁts to employees by allow-
                                               continued door service for senior       ing private sector companies to competitively
                                               citizens and other customers who        bid against each other to sponsor or admin-
                                               for reasons of disability or other      ister the Postal Service’s beneﬁts programs.
                                               appropriate reasons need door
                                               delivery on a continual or periodic     Postal employees who are injured on the
                                               basis.                                  job are covered by the Federal Employees’
                                                                                       Compensation Act, administered by the
                                                In addition, alternatives to           DOL’s OWCP. As noted previously, the
                                                property line delivery should be       Postal Service was the largest participant in
                                                considered for those areas where       the federal workers’ compensation program
Federal Employees’ Health Beneﬁts (FEHB)        theft and the security of mail are a   in FY 2004, paying over one-third of the
brochure                                        signiﬁcant concern.                    $2.3 billion in total federal workers’ compen-
                                                                                       sation payments. This was an increase of
                                                                                       over 30 percent since FY 2000. In addition,
                                 COMMERCIALIZATION OF                                  the administrative fees that OWCP charges
                                 EMPLOYEE BENEFITS PROGRAMS                            the Postal Service have increased 33 per-
                                 The Postal Service may have an opportunity            cent, from $33 million in 2000 to $44 million
                                 to better administer its beneﬁts programs by          in 2004.
                                 utilizing its buying power and looking on the
                                 open market for comparable or better rates            There are opportunities to reduce workers’
                                 and coverage.                                         compensation costs through rule changes
                                                                                       that would put the federal program on par
                                  While evaluating alternate opportunities, the        with most state programs. Eliminating annual
                                  Postal Service can initiate or continue to           COLAs, establishing one compensation rate
                                  work with organizations currently administer-        at 66 2/3 percent, implementing a three day
                                  ing the beneﬁts programs to ensure all par-          waiting period, allowing employer choice
                                  ties are doing everything possible to minimize       of physician and mandatory retirement age
                                  costs by preventing or detecting errors or           would all make the federal program more
                                  irregularities. This could slow the increase         cost-effective for the entire federal govern-
                                  of current employee beneﬁts program                  ment and not adversely affect the OWCP
                                                                                       beneﬁts of injured workers.




           22 | Semiannual Report to Congress
                                                                                                                                   IDEAS WORTH EXPLORING
Given the size of the Postal Service injury        other federal agencies, health beneﬁt costs
compensation program, the possibility of           are shared between the Postal Service and
establishing its own program could result          the employee. However, according to the
in savings for the Postal Service and the          President’s Commission, Postal Service col-
federal government, and needs to be more           lective bargaining employees contribute only
fully explored.                                    slightly more than half of what other federal
                                                   and private sector workers contribute for
In the meantime, the Postal Service has            health care coverage.
taken steps to reduce workers’ compensa-
tion costs. For example, medical claim costs       In FY 2003, the Postal Service paid approxi-
were reduced by contracting with a network         mately 83 percent or $4 billion of the premium
of medical care providers. The savings are         costs for nearly 630,000 eligible employees.
distributed back to the Postal Service.            This was an increase of nearly 8 percent from
                                                   FY 2002. Costs continued to rise through
Also, the Postal Service, along with the OIG,      the third quarter of FY 2004 and the Postal
should keep working with the DOL’s OWCP            Service expects an increase of about $800
to ﬁnd new ways of conducting business             million in FY 2005.
and developing tests to detect possible fraud
schemes, double billings or simple errors          The Government Accountability Ofﬁce, in an
associated with workers compensation pay-          FY 1992 report on federal health beneﬁts
ments. Continued efforts should work to keep       costs, noted that the FEHB program’s admin-
costs down.                                        istrative costs could be reduced by allowing
                                                   for the competitive selection of contractors
FEGLI is the largest group life insurance pro-     to perform the program’s administrative
gram in the world. Generally, the cost of basic    services. Further research may be necessary
insurance is shared between the employee           to determine whether sufﬁcient vendors exist
and the government; however, the Postal Ser-       that could accommodate the Postal Service’s
vice pays the complete cost of basic life insur-   employee beneﬁt needs.
ance for its 690,000 eligible employees, nearly
$200 million per year. (All postal employees       The concept of the federal government utiliz-
receive basic life insurance coverage, with        ing the commercial marketplace to reduce
the exception of those who waive coverage,         costs is not new. The government has
casual or temporary employees, substitute          recognized that it must determine whether
rural carriers and certain members of the Uni-     efﬁciencies can be gained by using commer-
formed Services, among others.) The Postal         cial or private sector alternatives. A recent
Service pays over 50 percent of the total          update to the President’s Management
costs spent by the federal government for          Agenda further encourages public-private
this beneﬁt. Estimates indicate that the Postal    competition. The President’s Commission
Service could realize substantial savings if its   noted that unless postal expenses can be
assets were transferred from FEGLI to a plan       reduced, it is questionable whether afford-
operated by the Postal Service.                    able universal mail service is sustainable via
                                                   a self-ﬁnancing public institution. The Com-
The FEHB program provides health insurance         mission also supported broader ﬂexibility to
beneﬁts to more than eight million federal         pursue new strategies to bring revenues and
enrollees and dependents, including eligible       expenditures into balance without sacriﬁcing
employees of the Postal Service. (Similar          quality of service and the ability to meet the
to the life insurance beneﬁt, certain postal       nation’s postal needs.
personnel are not eligible for health insurance,
including members of the armed forces.) Like




                                                                                         April 1, 2004 – September 30, 2004 | 23
                            The OIG can work with the Postal Service             vary signiﬁcantly. The study showed that the
                            to determine the feasibility of a strategy to        average annual cost per route for city carriers
                            pursue commercial alternatives to its current        was about $104,000; for rural carriers, about
                            beneﬁt programs while, at the same time,             $74,000; and for highway contract carriers,
                            work with the Postal Service and administra-         about $25,000.
                            tors to monitor the beneﬁt programs to keep
                            cost increases to a minimum.                         A July 2004 report from the Government
                                                                                 Accountability Ofﬁce (GAO) noted that the
                                                                                 Postal Service estimated the annual cost in
                            CONTRACT ROUTES                                      FY 2003 for each city door delivery ($295)
                            VERSUS HOURLY CARRIERS                               was more than twice as expensive as rural
                            As discussed, delivery costs for the Postal          delivery ($143) and over three times as
                            Service are signiﬁcant and grow with                 expensive as highway contract deliveries
                            increases in the number of addresses. Unlike         ($90). The GAO report said a key factor in
                            processing, street delivery is intrinsically labor   determining the total cost of a route is the
                                                                                 carriers’ compensation system, which differs
                                                                                 for each type of carrier. Compensation for
                                                                                 city and rural carriers is collectively bargained
                                                                                 between the Postal Service and the National
                                                                                 Association of Letter Carriers (NALC) and the
                                                                                 National Rural Letter Carriers Association
                                                                                 (NRLCA), respectively. Compensation for
                                                                                 contract carriers is established by the terms
                                                                                 of their contracts.
Rural carrier                               City letter carrier
                                                                                 The OIG plans to consult with the Postal
                             intensive. The Postal Service uses more             Service and its unions to explore the merits
                             than 220,000 city carriers and 60,000 rural         and concerns regarding the various methods
                             carriers to deliver the mail to more than 140       of compensating carriers for a day’s work.
                             million delivery points.                            Because city letter carriers are compensated
                                                                                 hourly, there is little incentive for them to
                             Both city and rural carriers are Postal Service     deliver the mail quickly; in fact, this compen-
                             employees. However, city carriers are paid          sation method could encourage slower deliv-
                             hourly wages with overtime, if worked, while        ery because of overtime compensation. Rural
                             rural carriers are paid an annual salary based      and contract carriers have more incentive to
                             on an evaluation of the average workload per        deliver mail quickly because, in general, their
                             route. The Postal Service also contracts with       compensation does not vary even if it takes
                             private individuals and businesses through          longer than normal to deliver a given day’s
                             competitive bidding for the highway move-           mail volume.
                             ment and delivery of mail to another two
                             million delivery points.                             The Postal Service may consider exploring
                                                                                  legislation permitting a form of pay called
                           Salaries and beneﬁts for letter carriers,             “administratively uncontrolled overtime,” a
                           which constitute about 43 percent of total             substitute form of payment used by other
                           salaries and beneﬁts for the Postal Service,           agencies for irregular, unscheduled overtime
                           are projected for FY 2005 to be $21 billion            work, which is paid on an annual rather than
                           — $16 billion for city carriers and $5 billion         hourly basis. This form of compensation
                           for rural carriers. A 1999 study by Postal             could allow the Postal Service to better
                           Rate Commission (PRC) staff concluded that             predict and control overtime costs.
                           the costs of the different types of delivery




       24 | Semiannual Report to Congress
                                                                                                                                                  IDEAS WORTH EXPLORING
NEIGHBORHOOD MAIL                                                businesses’ targeted market presence and
The Postal Service previously developed                          revenues. While the Postal Service has not
the concept of neighborhood mail or com-                         made any formal revenue projections, some
munity mail, a service that could beneﬁt the                     ofﬁcials estimated this service could increase
                                                                 annual revenue by $100 million to $300 mil-
                                                                 lion per year.


                                                                 FIVE-DAY VERSUS
                                                                 SEVEN-DAY DELIVERY
                                                                 The Postal Service currently delivers mail
                                                                 six days-a-week as part of its universal
                                                                 service obligation. Changing this six-day
                                                                 commitment to ﬁve or seven days could be
                                                                 explored for opportunities to enhance the
                                                                 Postal Service’s current ﬁnancial position.
                                                                 The Postal Service has already examined the
Neighborhood mail may also increase small businesses’ targeted   ﬁve-day option and deemed it not feasible
market presence and revenues.
                                                                 from a ﬁnancial perspective, or from impact
                                                                 on stakeholders. (On April 3, 2001 the Postal
Postal Service and small- and medium-sized                       Service Board of Governors directed man-
businesses. Using neighborhood mail, busi-                       agement to study cost savings associated
nesses could send unaddressed mail to                            with reducing delivery service to ﬁve days.
potential customers in the communities they                      On July 10, 2001, the Governors announced
serve using the Postal Service’s knowledge                       that the Postal Service will continue with its
of the number of pieces necessary to cover a                     existing six-day delivery service after hearing
given delivery area. However, past opposition                    preliminary ﬁndings on the study of the ﬁve-
from major newspaper lobbyists stopped                           day option.) The estimated net savings was
further concept development.                                     found to be negative due to loss of revenue
                                                                 and less than expected cost savings.
Currently, only three countries with major
Posts (postal services) — Italy, Spain and the                   More importantly, the adverse impact on
United States — do not take advantage of                         customer service and customer satisfac-
neighborhood mail. Countries that provide                        tion was deemed to be prohibitive. These
this service include Switzerland, France,                        ﬁndings suggest that increasing the delivery
Germany and Sweden. However, these                               frequency to seven days may result in
countries do not have a monopoly on mail                         equally interesting but favorable ﬁndings. It is
delivery; rather, they only have a share of the                  conceivable that a seven-day delivery service
total mail volume in their respective countries.                 may result in additional revenues that would
                                                                 offset additional costs while increasing cus-
For the Postal Service, further concept                          tomer service and satisfaction, and offering
development of unaddressed neighborhood                          the Postal Service a competitive advantage.
mail may be beneﬁcial because it has a
monopoly on every mailbox in the United                          The OIG may consider exploring the opera-
States. The Postal Service could potentially                     tional feasibility and ﬁnancial considerations
have 100 percent share of the volume if it                       of changing the frequency of delivery to
offered this service, increasing mail volume                     seven days. The Postal Service has a signiﬁ-
and revenue, enabling it to meet its federal                     cant infrastructure in place that is generally
mandate to operate on a break-even basis.                        not utilized one day a week. Market research
Neighborhood mail may also increase small                        and cost studies need to be undertaken




                                                                                                        April 1, 2004 – September 30, 2004 | 25
                     to properly examine the operational and           The issue of greater ﬂexibility in the deploy-
                     ﬁnancial impact of such a proposal. Market        ment of the Postal Service workforce was
                     research would be helpful to probe custom-        discussed in the President’s Commission
                     ers’ needs and stakeholders’ reaction, and        report. The report stated that the effective
                     to estimate volume and revenue impact.            utilization of employees was essential to the
                     There could also be political pressure against    process of building and maintaining a world-
                     this change from competitors such as              class workforce. The report further stated
                     newspaper associations and other delivery         this was needed to ensure appropriate ﬂex-
                     services. If these studies, however, yield        ibilities in its deployment of the workforce.
                     favorable ﬁndings, the Postal Service may
                     opt for a gradual approach (as opposed            The OIG will look at merits and concerns on
                     to a big bang approach) in implementing           these issues with the Postal Service and its
                     this change in a test market before full and      unions.
                     national implementation.
                                                                       RIGHT-SIZING POST OFFICES:
                     LABOR FLEXIBILITY/MOVING                          PROVIDING FAIR AND EFFICIENT
                     ACROSS CRAFTS                                     RETAIL SERVICES
                     The agreements between the Postal                 The Postal Service faces signiﬁcant legal
                     Service and three of its four major unions        and political constraints when attempting to
                    — American Postal Workers Union, National          close Post Ofﬁces to right-size its operations.
                     Postal Mail Handlers Union, and the National      Private companies that provide retail services
                     Association of Letter Carriers — state that       have much greater ﬂexibility to open and
                    “normally, work in different crafts, occupa-       close outlets than the Postal Service. It is a
                     tional groups or levels will not be combined      commonly
                     into one job.” This is a prohibition against      accepted
                     what is referred to as “crossing crafts,”         principle
                     except in accordance with certain restrictive     that private
                     provisions. This prohibition may have slowed      competi-
                     the Postal Service in its efforts to increase     tive mar-
                     efﬁciencies in mail processing and delivery.      kets do a
                     Speciﬁcally, it limits the Postal Service’s       far better
                     ability to make cross craft assignments even      job of sup-
                     when there is no question the reason for the      plying the
                     assignments is to avoid duplication of effort     demand
                     and increase efﬁciencies.                         for goods
                                                                       and ser-
                      For example, if a postal clerk has insufﬁcient   vices than     Private companies that provide retail services
                                                                                      have much greater ﬂexibility to open and close
                      work for an eight-hour workday but there is      the gov-       outlets than the Postal Service.
                      a heavy workload elsewhere, management           ernment.
                      cannot readily assign him/her to that work       Many believe that government should only
                      unless it is within his/her craft and at his/her provide essential goods and services if
                      same level. Instead, the Postal Service          private markets would fail to do so.
                      generally would either pay overtime to an
                      employee in the overloaded craft or delay        The Postal Reorganization Act deﬁnes postal
                      completion of the work until another day. In     services as “basic and fundamental” and
                      the meantime, management must pay the            requires that the Postal Service provide
                      idle clerk, even though he/she is not working. “prompt, reliable, and efﬁcient services to
                                                                       patrons in all areas and shall render postal
                                                                       services to all communities.” It is clear that


26 | Semiannual Report to Congress
                                                                                                                                        IDEAS WORTH EXPLORING
Congress believes that postal services are        retail services, the Postal Service has a Retail
essential services that private markets would     Network Optimization initiative to develop
not serve. It is not clear whether the Postal     a “consistent and systematic methodology
Service provides such service in the most fair    to maximize retail access strategy, which
and efﬁcient manner possible. Putting aside       will result in equal or better value for Postal
the question of whether private markets           Service customers, in addition to avoiding
would provide postal services if there were       unnecessary future postal expenditures.”
no monopoly, much could be learned from
private markets on how and where similar          GOVERNMENT – RELATED SERVICES
services are provided.                            The Postal Service has the opportunity to
                                                  increase revenue and potentially decrease
The OIG will benchmark postal retail services     the cost of government in general by provid-
against retail services provided by private       ing more services through its extensive retail
markets for essential services such as phar-      network for other government agencies in
macies and other similar retail outlets. This     need of a physical presence in thousands (up
research could develop measures of access         to 38,000) of locations throughout the coun-
to postal and other retail services such as       try. For example, the Postal Service currently
retail units per square mile, customers per       offers limited government-related services
retail unit and households per retail unit.       such as passport applications.
Such measures could be compared nation-
wide and by geographic areas.                     The passport application program is in
                                                  partnership with the Department of State.
The benchmarking would recognize that             The Postal Service receives $30 for each
the Postal Service is expanding access to         application. For ﬁscal year 2004, the Postal
products and services through alternate           Service has generated more than $100
locations and channels. Nonetheless, the          million in revenue from passport fees alone.
results may indicate that there are too many      The Postal Service continues to explore new
and or too few Post Ofﬁces in many areas.         opportunities to generate revenue by offering
Most importantly, the analysis would provide      government-related services.
a knowledge base and criteria for the Retail
Network Optimization initiative and would         Additional services could be provided for
assist decision makers in determining any         other agencies, such as taking applications
changes to the network and where the              for social security cards, beneﬁt applica-
access points best ﬁt into that retail network.   tions for social security or welfare, etc. The
                                                  Postal Service may wish to examine ways
In the Transformation Plan, the Postal            to provide more mail services to other
Service identiﬁed its strategy to ensure it       federal agencies. Currently, federal agen-
continues to provide customers with more          cies are not using postal products such as
and better access to its products and to          Express Mail and Priority Mail to its fullest
make better, more efﬁcient use of its exten-      extent possible for government business.
sive retail network, including moving simple      Because of regulatory constraints, the
transactions out of the Post Ofﬁce.               Postal Service cannot respond to market
                                                  forces where other carriers are able to
The Postal Service recognizes that the shift-     provide more ﬂexible pricing and discounts         The passport application program is
                                                                                                     in partnership with the Department
ing geography of its customers, the changes       than the Postal Service. The OIG plans to          of State. The Postal Service receives
in customer lifestyles and behaviors, and         explore the opportunities of other govern-         $30 for each application.
the rise of new technology all affect how it      mental activities through which the Postal
provides access to its products and services.     Service could generate additional revenue.
To determine how best to provide access to




                                                                                          April 1, 2004 – September 30, 2004 | 27
USPS OFFICE OF INSPECTOR GENERAL
ORGANIZATIONAL CHART
As of November 1, 2004
                                                                          Inspector
                                                                           General



                                                                   Deputy Inspector
                                                                      General


                                                         Ofﬁce of Chief
                                                          Information
                                                             Ofﬁcer



   AIG* General             AIG Mission
                                                        AIG Investigations                                      AIG Audit
     Counsel                  Support



                                                                                                 Audit Operations



                                                Deputy AIG            Deputy AIG          Deputy AIG
                            Deputy AIG                                                                          Deputy AIG               Deputy AIG
  Deputy Counsel                               Investigations        Investigations        Financial                                   Core Operations
                          Mission Support                                                                    Field Operations
                                                   East                  West             Operations

                                                                                                                                          Network
                              Human             Strategic                                  Financial             Field
  Legal Services                                                    Special Inquiries                                                    Operations–
                             Resources         Enforcement                                Statements           Operations
                                                                                                                                         Processing

                                                                                                                Supply,                   Network
  Congressional,           Administrative      Investigative                              Information
                                                                    Transition Team                           Management                 Operations–
  FOIA & Hotline             Services           Operations                                  Systems
                                                                                                               & Facilities               Logistics


                                                                       Chicago             Strategy,
                                                   Miami                                                                               Delivery & Retail
                            Performance                               Field Ofﬁce       Performance &          Engineering
                                                Field Ofﬁce
                                                                                          Marketing


                                                  Boston                 Dallas         Cost, Revenue &
                            Investments         Field Ofﬁce           Field Ofﬁce                                                      Human Capital
                                                                                        Rate Information


                                                                                                                                         Oversight of
                                                 New York               Denver
                                                                                                                                         Investigative
                                                Field Ofﬁce           Field Ofﬁce
                                                                                                                                           Activities


                                               Philadelphia           Los Angeles
                                               Field Ofﬁce            Field Ofﬁce


                                               Washington              St. Louis
                                               Field Ofﬁce            Field Ofﬁce
                                                                                                                                *Assistant Inspector General


          28 | Semiannual Report to Congress
      HEADER
   USPS OFFICE OF INSPECTOR GENERAL
   OFFICE LOCATIONS
                                                           The OIG currently has more than 700 employees located in
                                                           ten ﬁeld ofﬁces as well as other locations nationwide.




                           Seattle, WA


                                                                                Chicago, IL
                                                                                                            Pittsburgh, PA
        Portland, OR
                                                                                              Detroit, MI                                Albany, NY

                                                                                                                                          Boston, MA
                                                                                                                                       Springfield, MA

                                                                                                                                     New Haven, CT
                                                                                              Cleveland, OH
San Francisco, CA                                                           Indianapolis,IN                                       New York, NY
                                            Denver, CO Kansas City,KS
                                                                                        Cincinnati, OH                         Philadelphia, PA
Los Angeles, CA                                                  St.Louis,MO                                                 Washington, DC
                              Phoenix, AZ
                                                                                   Memphis,TN                             Greensboro, NC
           San Diego, CA
                                                                                                                         Raleigh, NC

                                                                                                                     Atlanta, GA
                                                          Dallas,TX


                                                                                                                 Tampa, FL
                                                                                   New Orleans, LA
                                                                        Houston, TX                                Miami, FL


                                                                                                                                             Puerto Rico



                                                                                                            Field Offices
                                                                                                            Field Offices (Investigations Only)
                                                                                                            Audit & Investigations Offices
                                                                                                            Investigations Only
                                                                                                            Audit Only




                                                                                                      April
                                                                                                      April 1,
                                                                                                            1, 2004
                                                                                                               2004 –– September
                                                                                                                       September 30, 2004 || 29
                                                                                                                                 30, 2004    29
APPENDICES
                           The Inspector Generals Act of 1978 requires                            istration of U.S. Postal Service programs and
                           semiannual reports on the immediately-pre-                             operations during the reporting period. Over
                           ceding six-month periods ending March 31                               the last six-month time period, the Postal
                           and September 30. These reports are sent to                            Service agreed with our recommendations
                           Congress and made available to the public.                             that identiﬁed potential monetary beneﬁts of
                                                                                                  nearly $230 million.
                           This report summarizes OIG activities and
                           illustrates signiﬁcant problems, abuses and                            The appendices on the following pages fulﬁll
                           deﬁciencies, along with recommendations                                the requirements of the Act.
                           and corrective actions related to the admin-



  APPENDIX A
                           REPORTS ISSUED TO POSTAL SERVICE MANAGEMENT
                           For the period April 1, 2004, through September 30, 2004
                           OIG audit teams conduct performance and ﬁnancial audits, evaluations, and other reviews to address the business of the Postal Service.
                           Each team issues audit reports or management advisory reports in accordance with the identiﬁed needs of the project.


                           SUMMARY
                           The following is a summary by principal area of reports issued to Postal Service management. The following pages list each issued report.



                                                                                                             Recommended
                                                  Number of            Questioned        Unsupported           Funds Put To           Revenue       Unrecoverable
                 Principal Area               Reports Issued               Costs1              Costs             Better Use            Impact               Costs
                 Cost Control                              248        $65,263,905          $4,725,975          $163,398,672           $634,325              $67,199
                 Revenue                                     4                  $0                  $0                     $0          $30,455                    $0
                 Safety and Security                         5                  $0                  $0                     $0                $0                   $0
                 Management Information                     10                  $0                  $0                     $0                $0                   $0
                 Strategic Direction                         1                  $0                  $0                     $0                $0                   $0
                 TOTAL                                     268        $65,263,905          $4,725,975          $163,398,672           $664,780              $67,199

             1
                  Includes unsupported costs of $4,725,975.




  30 | Semiannual Report to Congress
                                                                                                                                                                  APPENDIX A
REPORTS WITH QUANTIFIABLE POTENTIAL MONETARY BENEFITS
                                                                       Recommend
                                           Questioned    Unsupported   Funds Put to   Revenue Unrecoverable
Audit Report                                    Costs          Costs     Better Use    Impact         Costs


COST CONTROL
SUPPLY MANAGEMENT AND FACILITIES
Application of Agreed-Upon Procedure                                                                                      DEFINITIONS
to Lease Operating Expenses Claimed                                                                                       QUESTIONED COSTS
by Equities Ofﬁce Property Trust
                                                                                                                          A cost that is unnecessary,
CA-CAR-04-023; 07/01/2004                      $9,632            —              —          —            —
                                                                                                                          unreasonable, unsupported or an
Audit of Billed Costs Submitted by                                                                                        alleged violation of law, regulation,
Clean Harbors Environmental Services,                                                                                     contract, etc.
Incorporated Under Contract Number
CG84-99-A-100042, Delivery Order                                                                                          UNSUPPORTED COSTS
483083-02-F-0108                                                                                                          A cost that is not supported
CA-CAR-04-014; 04/21/2004                   $1,010,063           —              —          —            —                 by adequate documentation.
Audit of Firm Fixed Price Proposal                                                                                        Unsupported costs are included
Submitted by M & A Technology                                                                                             with the amounts shown as
Incorporated                                                                                                              Questioned Costs.
CA-CAR-04-013; 04/13/2004                   $1,374,913           —              —          —            —                 FUNDS PUT TO BETTER USE
Audit of Firm Fixed Price Proposal                                                                                        Funds that could be used more
Submitted by Northrop Grumman                                                                                             efﬁciently by implementing
Corporation, Electronics Systems                                                                                          recommended actions.
Company, Under Letter Contract
Number 3BMHRD-03-Z-5541,                                                                                                  REVENUE IMPACT
Solicitation Number DLH-071804                                                                                            Amounts from revenue generating
CA-CAR-04-018; 05/05/2004                  $13,250,468           —              —          —            —                 functions such as retail sales,
Audit of Firm Fixed Price Proposal                                                                                        rent, leases or fees that were
Submitted by Siemens Dematic Postal                                                                                       underpaid or not realized. In
Automation L.P.                                                                                                           addition, this category includes
CA-CAR-04-021; 06/02/2004                     $89,463            —              —          —            —                 increased revenue from existing
                                                                                                                          functions and generated revenue
Audit of Incurred Costs at the William
                                                                                                                          from new sources.
F. Bolger Conference Center Under
Contract Number 102590-97-B-0032                                                                                          UNRECOVERABLE COSTS
CA-CAR-04-020; 06/02/2004                     $25,822            —              —          —            —                 A cost that perhaps should not
Audit of Proposal Submitted by CODE                                                                                       have been incurred and is not
Plus, Incorporated                                                                                                        recoverable.
CA-CAR-04-026; 09/20/2004                    $249,238            —              —          —            —
Audit of Termination for Convenience
Price Adjustment Claim Submitted by
Abcon Associates, Incorporated
CA-CAR-04-022; 06/16/2004                   $4,478,385    $2,702,465            —          —            —
Financial Opportunities of Underutilized
Land
CA-MA-04-004; 07/1/2004                            —             —        $330,000         —            —
Lessor Maintenance Enforcement
CA-MA-04-006; 09/30/2004                           —             —         $20,507         —         $6,000


FISCAL YEAR 2003 FINANCIAL INSTALLATION AUDITS
Englewood Station
FF-AR-04-239; 08/12/2004                       $7,035         $7,035            —          —            —




                                                                                                              April 1, 2004 – September 30, 2004 | 31
                                     REPORTS WITH QUANTIFIABLE POTENTIAL MONETARY BENEFITS
                                                                                                         Recommend
                                                                              Questioned   Unsupported   Funds Put to   Revenue Unrecoverable
                                     Audit Report                                  Costs         Costs     Better Use    Impact         Costs
                                     FISCAL YEAR 2004 FINANCIAL INSTALLATION AUDITS
                                     Albany Business Mail Entry Unit
                                     FF-AR-04-224; 07/08/2004                        —             —              —        $994           $0
                                     Amsterdam Business Mail Entry Unit
                                     FF-AR-04-199; 06/21/2004                        —             —              —        $794           —
                                     Bally Post Ofﬁce
                                     FF-AR-04-272; 08/31/2004                        —             —              —       $1,068          —
                                     Broken Arrow Post Ofﬁce, Broken
                                     Arrow, OK
                                     FF-AR-04-295; 09/27/2004                        —             —              —       $1,301          —
                                     Carrollton Post Ofﬁce and Business
                                     Mail Entry Unit
                                     FF-AR-04-150; 05/05/2004                        —             —              —     $122,900          —
                                     Cathlamet Post Ofﬁce
                                     FF-AR-04-174; 05/27/2004                        —             —              —       $3,570          —
                                     Clarksville Self-Service Postal Center
                                     FF-AR-04-131; 04/20/2004                        —             —              —          —         $1,896
                                     Clovis Main Post Ofﬁce
                                     FF-AR-04-206; 06/28/2004                        —             —              —       $2,093          —
                                     Coronado Self-Service Postal Center
                                     FF-AR-04-132; 04/22/2004                        —             —              —          —         $1,192
                                     Crenshaw Station
                                     FF-AR-04-128; 04/30/2004                        —             —              —       $1,005          —
                                     Durham Business Mail Entry Unit
                                     FF-AR-04-236; 07/27/2004                        —             —              —      $16,503          —
                                     El Dorado Post Ofﬁce
                                     FF-AR-04-210; 06/30/2004                        —             —              —       $2,350          —
                                     El Mercado Postal Store
                                     FF-AR-04-293; 09/21/2004                        —             —              —       $3,507          —
                                     Frederick Business Mail Entry Unit
                                     FF-AR-04-118; 04/13/2004                        —             —              —     $141,954          —
                                     High Point Post Ofﬁce
                                     FF-AR-04-192; 06/10/2004                        —             —              —      $12,735          —
                                     Ithaca Downtown Station
                                     FF-AR-04-277; 09/08/2004                        —             —              —          —         $1,082
                                     Kenwood Station
                                     FF-AR-04-162; 05/13/2004                        —             —              —      $18,178          —
                                     Lakeland District Leased Vehicles
                                     FF-MA-04-001; 07/02/2004                        —             —        $186,027         —            —
                                     Lebanon Business Mail Entry Unit
                                     FF-AR-04-197; 06/16/2004                        —             —              —        $568           —
                                     Livonia Business Mail Entry Unit
                                     FF-AR-04-216; 07/07/2004                        —             —              —        $582           —
                                     Long Beach Viking Station (CA)
                                     FF-AR-04-157; 05/14/2004                        —             —              —       $1,114          —
                                     Manasquan Main Ofﬁce
                                     FF-AR-04-207; 06/29/2004                        —             —              —       $1,200          —
                                     Merced Business Mail Entry Unit
                                     FF-AR-04-297; 09/28/2004                        —             —              —       $2,442          —




32 | Semiannual Report to Congress
                                                                                                                                                      APPENDIX A
REPORTS WITH QUANTIFIABLE POTENTIAL MONETARY BENEFITS
                                                                     Recommend
                                          Questioned   Unsupported   Funds Put to   Revenue Unrecoverable
Audit Report                                   Costs         Costs     Better Use    Impact         Costs
Milton Post Ofﬁce
FF-AR-04-222; 07/08/2004                         —             —              —       $5,354          —
New Castle Post Ofﬁce
FF-AR-04-173; 05/28/2004                         —             —              —       $5,816          —
New Haven (CT) Business Mail
Entry Unit
FF-AR-04-233; 07/21/2004                         —             —              —       $4,524          —
New York Main Ofﬁce
FF-AR-04-262; 08/19/2004                         —             —              —       $5,725      $13,807
Northaven Station
FF-AR-04-176; 05/27/2004                         —             —              —       $2,060          —
Northwest Postal Store, Gainesville, FL
FF-AR-04-156; 05/14/2004                         —             —              —          $0       $22,916
Ortega Contract Postal Unit
FF-AR-04-251; 08/13/2004                         —             —              —      $18,960          —
Palatine Business Mail Entry Unit (IL)
FF-AR-04-159; 05/14/2004                         —             —              —       $5,160          —
Pewaukee Business Mail Entry Unit
FF-AR-04-276; 09/07/2004                         —             —              —      $10,338          —
Pico Rivera Bulk Mail Entry Unit
FF-AR-04-298; 09/28/2004                      $1,379           —              —          —            —
Pico Rivera Main Ofﬁce – Self-Service
Postal Center
FF-AR-04-116; 04/08/2004                         —             —              —          $0        $4,121
Piney Creek Post Ofﬁce (NC)
FF-AR-04-151; 05/10/2004                         —             —              —        $756           —
Rockford Post Ofﬁce, Rockford, MI
FF-AR-04-167; 05/21/2004                         —             —              —       $1,264          —
San Francisco Business Mail Entry Unit
FF-AR-04-275; 09/07/2004                         —             —              —      $18,120          —
Schertz Main Post Ofﬁce
FF-AR-04-119; 04/09/2004                         —             —              —       $1,309       $4,012
Southampton Post Ofﬁce
FF-AR-04-133; 04/22/2004                         —             —              —        $517           —
Tampa Business Mail Entry Unit
FF-AR-04-219; 07/08/2004                         —             —              —       $5,572          —
Tampa Main Ofﬁce Window Unit
FF-AR-04-255; 08/13/2004                         —             —              —       $3,948      $12,173
West Chester Business Mail Entry Unit
FF-AR-04-246; 07/30/2004                         —             —              —      $19,044          —


FISCAL YEAR 2004 FINANCIAL RELATED AUDITS
Stamp Accountability and Inventory
Controls Related to the American Bank
Note Company
FF-AR-04-269; 8/31/2004                          —             —              —     $191,000          —




                                                                                                            April 1, 2004 – September 30, 2004 | 33
                                     REPORTS WITH QUANTIFIABLE POTENTIAL MONETARY BENEFITS
                                                                                                           Recommend
                                                                               Questioned    Unsupported   Funds Put to   Revenue Unrecoverable
                                     Audit Report                                   Costs          Costs     Better Use    Impact         Costs
                                     NETWORK OPERATIONS - LOGISTICS
                                     Bulk Mail Center Highway
                                     Transportation Routes – Great Lakes
                                     Area
                                     NL-AR-04-004; 09/29/2004                          —             —      $7,660,533         —            —
                                     Vehicle Management – Delivery
                                     Vehicles – Buy Versus Lease
                                     NL-AR-04-005; 09/30/2004                  $42,751,032           —     $40,296,954         —            —
                                     Vehicle Management – Trailer
                                     Requirements – Northeast Area
                                     NL-AR-04-006; 09/30/2004                   $2,016,475    $2,016,475    $7,300,150         —            —


                                     NETWORK OPERATIONS – PROCESSING
                                     Efﬁciency of the Airmail Records Unit
                                     at the New York International Service
                                     Center
                                     NO-AR-04-011; 09/24/2004                          —             —      $9,248,967         —            —
                                     Efﬁciency of the New York International
                                     Service Center
                                     ND-AR-04-009; 09/24/2004                          —             —     $98,355,534         —            —


                                     REVENUE
                                     NETWORK OPERATIONS – PROCESSING
                                     Mail Evaluation, Readability and Lookup
                                     INstrument Utilization at the Business
                                     Mail Entry Unit in Philadelphia
                                     NO-AR-04-012; 09/224/2004                         —             —              —     $30,455           —




34 | Semiannual Report to Congress
                                                                                                                                                                          APPENDIX A
REPORT LISTING
The following complete listing of all OIG reports is grouped ﬁrst by Postal Service management challenge, second by category of review and year,
if applicable, and then alphabetically by title.
For the period April 1, 2004, through September 30, 2004

COST CONTROL
 SUPPLY MANAGEMENT AND FACILITIES
Application of Agreed-Upon Procedure on            Audit of Firm Fixed Price Proposal Submitted        Audit of Termination for Convenience Price
Billed Costs Submitted by APL Logistics Under      by Northrop Grumman Corporation, Electronics        Adjustment Claim Submitted by Abcon
Contract Number 162745-97-B-1177                   Systems Company, Under Letter Contract              Associates, Inc.
CA-CAR-04-016; 05/05/2004                          Number 3BMHRD-03-Z-5541, Solicitation               CA-CAR-04-022; 6/16/2004
                                                   Number DLH-071804
Application of Agreed-Upon Procedure to            CA-CAR-04-018; 05/05/2004                           Automated Postal Centers
Lease Operating Expenses Claimed by Bedford                                                            CA-OT-04-001; 4/9/2004
Property Investors, Inc.                           Audit of Firm Fixed Price Proposal Submitted by
CA-CAR-04-024; 07/01/2004                          Siemens Dematic Postal Automation L.P.              Financial Opportunities of Underutilized Land
                                                   CA-CAR-04-021; 06/02/2004                           CA-MA-04-004; 7/1/2004
Application of Agreed-Upon Procedure to Lease
Operating Expenses Claimed by Equities Ofﬁce       Audit of Forward Pricing Proposal and Related       Fiscal Year 2003 Supply Chain Management
Property Trust                                     Historical Costs Submitted by Worldwide Flight      Savings
CA-CAR-04-023; 07/01/2004                          Services, Inc.                                      CA-AR-04-003; 09/30/2004
                                                   CA-CAR-04-025; 07/30/2004                           Lessor Maintenance Enforcement
Arlington, Virginia, Main Post Ofﬁce
CA-OT-04-002; 07/09/2004                           Audit of Incurred Costs at the William F. Bolger    CA-MA-04-006; 09/30/2004
                                                   Conference Center Under Contract Number             Leased Ofﬁce Spacing, New Haven (CT)
Audit of Airfare Adjustment Cost Estimating        102590-97-B-0032
Relationship Factor Proposed by Siemens                                                                CA-OT-04-003; 7/30/2004
                                                   CA-CAR-04-020; 06/02/2004
Dematic Postal Automation L.P.                                                                         Preferred Portfolio Partnering Program
CA-CAR-04-015; 05/03/2004                          Audit of Proposal Submitted by CODE Plus,           CA-AR-04-002; 09/30/2004
                                                   Incorporated
Audit of Billed Costs Submitted by Clean Harbors   CA-CAR-04-026; 09/20/2004                           Repairs and Alterations of Postal Service
Environmental Services, Inc. Under Contract                                                            Facilities
Number CG84-99-A-100042, Delivery Order            Audit of Proposed Rates as Part of Indeﬁnite        CA-MA-04-005; 7/23/2004
483083-02-F-0108                                   Quantity Proposal Submitted by URS Group, Inc.
CA-CAR-04-014; 04/21/2004                          CA-CAR-04-019; 05/07/2004                           Supply Management Transactional Cost Models
                                                                                                       CA-OT-04-004; 8/4/2004
Audit of Firm Fixed Price Proposal Submitted by    Audit of Reported Postage Sales at Selected
M & A Technology, Inc.                             Contract Postal Units Operated by Mail America
CA-CAR-04-013; 04/13/2004                          Corp.
                                                   CA-CAR-04-017; 05/05/01

 DELIVERY AND RETAIL
Function 4 – Customer Service Operations
DR-AR-04-014; 09/30/2004

 FINANCIAL STATEMENTS

Duplicate Payment Made to Inland Paperboard        Independent Report on Withholdings and              Postal Service’s Funding of the Civil Service
& Packaging                                        Contributions for Health Beneﬁts, Life Insurance,   Retirement System
FT-AR-04-012; 09/30/2004                           Retirement and Employee Headcount Data              FT-0T-04-002; 04/09/2004
                                                   FT-AR-04-011; 08/23/2004
Erroneous Economic Value Added Reserve
Payments
FT-OT-04-003; 06/18/2004

 FISCAL YEAR 2003 FINANCIAL INSTALLATION AUDITS
Business Mail Entry Unit (Capping Report)          Post Ofﬁce, Branches and Stations                   Stamp Distribution and District Accounting
FF-AR-04-256; 08/18/2004                           (Capping Report)                                    Ofﬁces (Capping Report)
                                                   FF-AR-04-247; 08/24/2004                            FF-AR-04-149; 05/06/2004
Englewood Station
FF-AR-04-239; 08/12/2004                           Self-Service Postal Centers (Capping Report)
                                                   FF-AR-04-232; 07/19/2004
Contract Postal Units (Capping Report)
FF-AR-04-230; 07/19/2004

                                                                                                                                April 1, 2004 – September 30, 2004 | 35
            FISCAL YEAR 2004 FINANCIAL INSTALLATION AUDITS
           Abilene Business Mail Entry Unit                     Colorado Springs Self-Service Postal Center   Grand Chute Branch
           FF-AR-04-228; 07/13/2004                             FF-AR-04-301; 09/30/2004                      FF-AR-04-202; 06/24/2004
           Albany Business Mail Entry Unit                      Columbus Stamp Distribution Ofﬁce             Grove City Post Ofﬁce
           FF-AR-04-224; 07/08/2004                             FF-AR-04-194; 06/10/2004                      FF-AR-04-191; 06/14/2004
           Aloha Branch                                         Coronado Self-Service Postal Center           Guilford Post Ofﬁce
           FF-AR-04-221; 07/07/2004                             FF-AR-04-132; 04/22/2004                      FF-AR-04-235; 07/22/2004
           Amsterdam Business Mail Entry Unit                   Cozad Post Ofﬁce                              Gulfport Business Mail Entry Unit
           FF-AR-04-199; 06/21/2004                             FF-AR-04-248; 08/11/2004                      FF-AR-04-201; 06/23/2004
           Bally Post Ofﬁce                                     Crenshaw Station                              Haltom City Branch
           FF-AR-04-272; 08/31/2004                             FF-AR-04-128; 04/30/2004                      FF-AR-04-180; 06/02/2004
           Baton Rouge Stamp Distribution Ofﬁce                 Dallas Business Mail Entry Unit               Harlingen Business Mail Entry Unit
           FF-AR-04-169; 05/24/2004                             FF-AR-04-211; 07/01/2004                      FF-AR-04-244; 07/29/2004
           Beedeville Post Ofﬁce                                Dexter Post Ofﬁce                             Harmon’s Contract Postal Unit
           FF-AR-04-122; 04/20/2004                             FF-AR-04-245; 07/30/2004                      FF-AR-04-184; 06/04/2004
           Broken Arrow Post Ofﬁce                              Durham Business Mail Entry Unit               Harrisburg Stamp Distribution Ofﬁce
           FF-AR-04-295; 09/27/2004                             FF-AR-04-236; 07/27/2004                      FF-AR-04-209; 06/30/2004
           Brownsburg Post Ofﬁce                                Durham West Station                           Hayward Post Ofﬁce
           FF-AR-04-124; 04/21/2004                             FF-AR-04-181; 06/04/2004                      FF-AR-04-250; 08/12/2004
           Brunswick Business Mail Entry Unit                   East Greenville Business Mail Entry Unit      High Point Post Ofﬁce
           FF-AR-04-267; 8/26/204                               FF-AR-04-220; 07/07/2004                      FF-AR-04-192; 06/10/2004
           Camden Business Mail Entry Unit                      Eau Claire (WI) Business Mail Entry Unit      Honolulu Stamp Distribution Ofﬁce
           FF-AR-04-291; 09/22/2004                             FF-AR-04-270; 08/30/2004                      FF-AR-04-281; 09/10/2004
           Cameron Contract Postal Unit                         El Dorado Post Ofﬁce                          Ithaca Business Mail Entry Unit
           FF-AR-04-286; 9/16/2004                              FF-AR-04-210; 06/30/2004                      FF-AR-04-292; 09/22/2004
           Canton Business Mail Entry Unit                      El Mercado Postal Store                       Ithaca Downtown Station
           FF-AR-04-260; 08/20/2004                             FF-AR-04-293; 09/21/2004                      FF-AR-04-277; 09/08/2004
           Carmichael Business Mail Entry Unit                  Farmingdale Business Mail Entry Unit          Jacksonville Business Mail Entry Unit
           FF-AR-04-177; 05/27/2004                             FF-AR-04-268; 08/30/2004                      FF-AR-04-200; 06/22/2004
           Carrollton Post Ofﬁce and Business Mail Entry Unit   Farmingdale Main Ofﬁce                        Johnstown Business Mail Entry Unit
           FF-AR-04-150; 05/05/2004                             FF-AR-04-141; 04/26/2004                      FF-AR-04-296; 09/29/2004
           Cathlamet Post Ofﬁce                                 Folcroft Business Mail Entry Unit             Kearney Business Mail Entry Unit
           FF-AR-04-174; 05/27/2004                             FF-AR-04-278; 09/07/2004                      FF-AR-04-273; 08/31/2004
           Cincinnati Self-Service Postal Center #237           Fox Valley Business Mail Entry Unit           Kelly’s Inc., Contract Postal Unit
           FF-AR-04-125; 04/20/2004                             FF-AR-04-171; 05/26/2004                      FF-AR-04-289; 09/20/2004
           Cincinnati Stamp Distribution Ofﬁce                  Frederick Business Mail Entry Unit            Kenwood Station
           FF-AR-04-237; 07/27/2004                             FF-AR-04-118; 04/13/2004                      FF-AR-04-162; 05/13/2004
           Clarksville Self-Service Postal Center               Fremont Post Ofﬁce                            Kerrville Post Ofﬁce
           FF-AR-04-131; 04/20/2004                             FF-AR-04-193; 06/10/2004                      FF-AR-04-287; 9/17/2004
           Claydesta Station                                    Gallatin Business Mail Entry Unit             Kilgore Post Ofﬁce
           FF-AR-04-280; 09/10/2004                             FF-AR-04-213; 07/06/2004                      FF-AR-04-259; 08/17/2004
           Clovis Main Post Ofﬁce                               Glen Rock Branch                              Lafayette Hill Post Ofﬁce
           FF-AR-04-206; 06/28/2004                             FF-AR-04-144; 04/29/2004                      FF-AR-04-299; 09/29/2004
           Coeymans Post Ofﬁce                                  Gonzales Business Mail Entry Unit             Lakeland District Leased Vehicles
           FF-AR-04-175; 05/27/2004                             FF-AR-04-172; 05/26/2004                      FF-MA-04-001; 07/02/2004




36 | Semiannual Report to Congress
                                                                                                                                                            APPENDIX A
 FISCAL YEAR 2004 FINANCIAL INSTALLATION AUDITS
Lakeshore Station                         Monte Vista Business Mail Entry Unit       Palatka Post Ofﬁce
FF-AR-04-168; 05/21/2004                  FF-AR-04-212; 07/09/2004                   FF-AR-04-164; 05/19/2004
Laredo Business Mail Entry Unit           Nahcotta Community Post Ofﬁce              Peter Stuyvesant Station
FF-AR-04-264; 08/25/2004                  FF-AR-04-126; 04/20/2004                   FF-AR-04-140; 04/27/2004
Las Vegas Business Mail Entry Unit        NETC Station                               Pewaukee Business Mail Entry Unit
FF-AR-04-241; 07/30/2004                  FF-AR-04-161; 05/17/2004                   FF-AR-04-276; 09/07/2004
Las Vegas Stamp Distribution Ofﬁce        Newberg Post Ofﬁce                         Pico Rivera Bulk Mail Entry Unit
FF-AR-04-225; 07/13/2004                  FF-AR-04-188; 06/14/2004                   FF-AR-04-298; 09/28/2004
Lebanon Business Mail Entry Unit          New Castle Post Ofﬁce                      Pico Rivera Main Ofﬁce – Self-Service
FF-AR-04-197; 06/16/2004                  FF-AR-04-173; 05/28/2004                   Postal Center
                                                                                     FF-AR-04-116; 04/08/2004
Ledyard Post Ofﬁce                        New Haven (CT) Business Mail Entry Unit
FF-AR-04-139; 04/22/2004                  FF-AR-04-178; 05/28/2004                   Pikeville Business Mail Entry Unit
                                                                                     FF-AR-04-218; 07/07/2004
Lily Dale Post Ofﬁce                      New Haven (CT) Business Mail Entry Unit
FF-AR-04-115; 04/05/2004                  FF-AR-04-233; 07/21/2004                   Piney Creek Post Ofﬁce
                                                                                     FF-AR-04-151; 05/10/2004
Livonia Business Mail Entry Unit          New London Business Mail Entry Unit
FF-AR-04-216; 07/07/2004                  FF-AR-04-231; 07/20/2004                   Port Clinton Post Ofﬁce
                                                                                     FF-AR-04-243; 07/28/2004
Long Beach Downtown Station               New Meadows Post Ofﬁce
FF-AR-04-153; 05/11/2004                  FF-AR-04-266; 08/26/2004                   Port Jefferson Business Mail Entry Unit
                                                                                     FF-AR-04-204; 06/28/2004
Long Beach Viking Station                 New York Main Ofﬁce
FF-AR-04-157; 05/14/2004                  FF-AR-04-262; 08/19/2004                   Portage Post Ofﬁce
                                                                                     FF-AR-04-170; 05/25/2004
Loyola University Contract Postal Unit    Newark Business Mail Entry Unit
FF-AR-04-190; 06/10/2004                  FF-AR-04-252; 08/13/2004                   Radcliff Business Mail Entry Unit
                                                                                     FF-AR-04-226; 07/09/2004
Manasquan Main Ofﬁce                      Newport Post Ofﬁce
FF-AR-04-207; 06/29/2004                  FF-AR-04-154; 05/12/2004                   Rhinelander Post Ofﬁce
                                                                                     FF-AR-04-253; 08/13/2004
Manchester Stamp Distribution Ofﬁce       Norfolk Post Ofﬁce
FF-AR-04-261; 08/23/2004                  FF-AR-04-155; 05/20/2004                   Rockford Post Ofﬁce, Rockford (MI)
                                                                                     FF-AR-04-167; 05/21/2004
Marinette Post Ofﬁce                      North West St. Johns Station
FF-AR-04-242; 07/28/2004                  FF-AR-04-189; 06/10/2004                   Rural Hall Business Mail Entry Unit
                                                                                     FF-AR-04-214; 07/06/2004
Memphis Stamp Distribution Ofﬁce          Northaven Station
FF-AR-04-163; 05/19/2004                  FF-AR-04-176; 05/27/2004                   Salt Lake City Stamp Distribution Ofﬁce
                                                                                     FF-AR-04-130; 04/20/2004
Merced Business Mail Entry Unit           Northwest Postal Store - Gainesville, FL
FF-AR-04-297; 09/28/2004                  FF-AR-04-156; 05/14/2004                   San Francisco Business Mail Entry Unit
                                                                                     FF-AR-04-275; 09/07/2004
Metairie Self-Service Postal Center #73   Oak Harbor Post Ofﬁce
FF-AR-04-186; 06/09/2004                  FF-AR-04-114; 04/07/2004                   San Marcos Post Ofﬁce
                                                                                     FF-AR-04-187; 06/10/2004
Milford Business Mail Entry Unit          Oceanside Business Mail Entry Unit
FF-AR-04-249; 08/11/2004                  FF-AR-04-215; 07/06/2004                   Saugatuck Station
                                                                                     FF-AR-04-234; 07/21/2004
Milton Post Ofﬁce                         Old Village Station
FF-AR-04-222; 07/08/2004                  FF-AR-04-185; 06/08/2004                   Savannah Plaza Contract Postal Unit
                                                                                     FF-AR-04-137; 04/23/2004
Mineral Wells Business Mail Entry Unit    Orlando Business Mail Entry Unit
FF-AR-04-294; 09/22/2004                  FF-AR-04-271; 08/31/2004                   Schertz Main Post Ofﬁce
                                                                                     FF-AR-04-119; 04/09/2004
Missoula Business Mail Entry Unit         Ortega Contract Postal Unit
FF-AR-04-285; 9/16/2004                   FF-AR-04-251; 08/13/2004                   Seattle Stamp Distribution Ofﬁce
                                                                                     FF-AR-04-127; 04/20/2004
Mount Juliet Business Mail Entry Unit     Palatine Business Mail Entry Unit (IL)
FF-AR-04-217; 07/07/2004                  FF-AR-04-159; 05/14/2004                   Ship Bottom Branch
                                                                                     FF-AR-04-290; 09/20/2004




                                                                                                                  April 1, 2004 – September 30, 2004 | 37
            FISCAL YEAR 2004 FINANCIAL INSTALLATION AUDITS
           Southampton Business Mail Entry Unit            Terre Haute Stamp Distribution Ofﬁce                  Vestal Main Ofﬁce
           FF-AR-04-198; 06/17/2004                        FF-AR-04-183; 06/04/2004                              FF-AR-04-123; 04/14/2004
           Southampton Post Ofﬁce                          Trevett Post Ofﬁce                                    Warners Post Ofﬁce
           FF-AR-04-133; 04/22/2004                        FF-AR-04-179; 06/01/2004                              FF-AR-04-279; 09/08/2004
           South Salem Post Ofﬁce                          Tucson Self-Service Postal Center #737                Washington (DC) Self-Service Postal Center #0502
           FF-AR-04-283; 9/15/2004                         FF-AR-04-274; 09/01/2004                              FF-AR-04-166; 05/17/2004
           Spearﬁsh Self-Service Postal Center             Tyler Southeast Crossing Station                      West Chester Business Mail Entry Unit
           FF-AR-04-300; 09/29/2004                        FF-AR-04-138; 04/23/2004                              FF-AR-04-246; 07/30/2004
           Spencer Post Ofﬁce                              University of Central Arkansas Contract Postal Unit   West Palm Beach Stamp Distribution Ofﬁce
           FF-AR-04-240; 07/27/2004                        FF-AR-04-120; 04/14/2004                              FF-AR-04-282; 9/13/2004
           Strathcona Main Post Ofﬁce                      Valley Forge Business Mail Entry Unit                 West Simsbury Post Ofﬁce
           FF-AR-04-142; 04/28/2004                        FF-AR-04-205; 06/28/2004                              FF-AR-04-145; 05/04/2004
           Tampa Business Mail Entry Unit                  Van Brunt Station                                     Wickenberg Post Ofﬁce (AZ)
           FF-AR-04-219; 07/08/2004                        FF-AR-04-203; 06/28/2004                              FF-AR-04-165; 05/20/2004
           Tampa Main Ofﬁce Window Unit
           FF-AR-04-255; 08/13/2004


            AUDIT OF STATISTICAL TESTS FOR FISCAL YEAR 2004 COST AND REVENUE ANALYSIS
           Albany District                                 Kentuckiana District                                  Oklahoma District
           FF-AR-04-160; 05/20/2004                        FF-AR-04-143; 04/29/2004                              FF-AR-04-121; 04/14/2004
           Appalachian District                            Long Island District                                  Philadelphia District
           FF-AR-04-257; 08/18/2004                        FF-AR-04-117; 04/05/2004                              FF-AR-04-196; 06/14/2004
           Arizona District                                Massachusetts District                                Pittsburgh District
           FF-AR-04-227; 07/12/2004                        FF-AR-04-258; 08/17/2004                              FF-AR-04-136; 04/20/2004
           Big Sky District                                Mid-America District                                  Rio Grande District
           FF-AR-04-158; 05/13/2004                        FF-AR-04-129; 04/20/2004                              FF-AR-04-147; 05/05/2004
           Cincinnati District                             Mid-Carolinas District                                Royal Oak District
           FF-AR-04-208; 06/29/2004                        FF-AR-04-134; 04/22/2004                              FF-AR-04-152; 05/10/2004
           Connecticut District                            New Hampshire/Vermont District                        Salt Lake City District
           FF-AR-04-265; 08/26/2004                        FF-AR-04-284; 09/20/2004                              FF-AR-04-182; 06/04/2004
           Gateway District                                New Jersey International Bulk Mail Facility           South Florida District
           FF-AR-04-135; 04/21/2004                        FF-AR-04-263; 08/25/2004                              FF-AR-04-223; 07/08/2004
           Honolulu District                               New York District                                     Suncoast District
           FF-AR-04-288; 09/20/2004                        FF-AR-04-238; 07/27/2004                              FF-AR-04-254; 08/13/2004
           John F. Kennedy Air Mail Facility               Northland District                                    Westchester District
           FF-AR-04-229; 07/15/2004                        FF-AR-04-146; 05/05/2004                              FF-AR-04-195; 06/10/2004


            FISCAL YEAR 2004 FINANCIAL RELATED AUDITS
           Stamp Accountability and Inventory Controls
           Related to the American Bank Note Company
           FF-AR-04-269; 8/31/2004


            FISCAL YEAR 2004 PROTECTIVE REVIEWS
           Fiscal Years 2003 and 2004 Protective Reviews
           Capping Report
           FT-MA-04-003; 8/12/2004




38 | Semiannual Report to Congress
                                                                                                                                                                                   APPENDIX A
Network Optimization
 DELIVERY AND RETAIL
City Letter Carrier Street Management and Route    Self-Service Vending Program – Eastern Area       Self-Service Vending Program – Rio Grande
Inspections in the Fort Worth District             DR-AR-04-015; 09/30/2004                          District
DR-AR-04-001; 06/22/2004                                                                             DR-AR-04-010; 09/24/2004
                                                   Self-Service Vending Program – Greater South
City Letter Carrier Ofﬁce Preparation – Dallas     Carolina District                                 Self-Service Vending Program – Sacramento
District                                           DR-AR-04-007; 09/20/2004                          District
DR-AR-04-005; 7/26/2004                                                                              DR-AR-04-011; 09/28/2004
                                                   Self-Service Vending Program – Kentuckiana
Self-Service Vending Program – Alabama District    District                                          Self-Service Vending Program – Southeast Area
DR-AR-04-004; 6/30/2004                            DR-AR-04-012; 09/30/2004                          DR-AR-04-013; 09/30/2004
Self-Service Vending Program – Albany District     Self-Service Vending Program – Massachusetts      Self-Service Vending Program – Tennessee
DR-AR-04-006; 9/13/2004                            District                                          District
                                                   DR-AR-04-008; 09/24/2004                          DR-AR-04-003; 06/30/2004
Self-Service Vending Program – Atlanta District
DR-AR-04-002; 07/01/2004                           Self-Service Vending Program – Nevada-Sierra
                                                   District
                                                   DR-AR-04-009; 09/24/2004


 NETWORK OPERATIONS – LOGISTICS
Bulk Mail Center Highway Transportation Routes     Vehicle Management – Delivery Vehicles –          Vehicle Management – Trailer Requirements
– Great Lakes Area                                 Buy versus Lease                                  – Northeast Area
NL-AR-04-004; 09/29/2004                           NL-AR-04-005; 09/30/2004                          NL-AR-04-006; 09/30/2004
Buy Versus Lease – Cargo Vans
NL-OT-04-001; 9/09/2004


 NETWORK OPERATIONS – PROCESSING
Efﬁciency of the Airmail Records Unit at the New   Efﬁciency of the New York International Service
York International Service Center                  Center
NO-AR-04-011; 09/24/2004                           NO-AR-04-009; 09/24/2004

Labor
 HUMAN CAPITAL
Efforts to Prevent Accidents, Injuries and         Efforts to Prevent Accidents, Injuries and        Efforts to Prevent Accidents, Injuries and
Illnesses in the Mississippi and Suncoast          Illnesses in the Mid-America and Salt Lake City   Illnesses in the Long Island and New York
Performance Clusters                               Performance Clusters                              Performance Clusters
(Southeast Area)                                   (Western Area)                                    (New York Metro Area)
HM-AR-04-006; 04/29/2004                           HM-AR-04-010; 07/20/2004                          HM-AR-04-008; 07/07/2004
Efforts to Prevent Accidents, Injuries and         Efforts to Prevent Accidents, Injuries and        Efforts to Prevent Accidents, Injuries and
Illnesses in the Arkansas and Oklahoma             Illnesses in the Los Angeles and Oakland          Illnesses in the Chicago and Greater Indiana
Performance Clusters                               Performance Clusters                              Performance Clusters
(Southwest Area)                                   (Paciﬁc Area)                                     (Great Lakes Area)
HM-AR-04-007; 06/28/2004                           HM-AR-04-011; 07/26/2004                          HM-AR-04-009; 07/07/2004
                                                                                                     Summary Report on the Efforts to Prevent
                                                                                                     Accidents, Injuries and Illnesses in 12
                                                                                                     Performance Clusters
                                                                                                     HM-AR-04-012; 09/21/2004
Technology
 ENGINEERING

Advanced Facer Canceler System Improvements        Postal Automated Redirection System First         Technology Acquisition Management
DA-AR-04-004; 09/30/2004                           Article Testing                                   DA-AR-04-003; 09/24/2004
                                                   DA-AR-04-002; 9/15/2004
Automated Package Processing
DA-AR-04-001; 08/20/2004



                                                                                                                                         April 1, 2004 – September 30, 2004 | 39
           REVENUE
            INSPECTION SERVICE OVERSIGHT
           Postal Inspection Service’s Asset Forfeiture
           Program
           SA-AR-04-002; 06/29/2004


             NETWORK OPERATIONS - PROCESSING

           Express Mail Operations                             Mail Evaluation, Readability and Lookup             Mail Evaluation, Readability and Lookup
           NO-AR-04-008; 05/05/2004                            INstrument Utilization at the Business Mail Entry   INstrument Utilization at the Business Mail Entry
                                                               Unit in Philadelphia, PA                            Unit in Columbia, SC
                                                               NO-AR-04-012; 09/24/2004                            NO-AR-04-010; 09/24/2004

           STRATEGIC DIRECTION
            STRATEGY & PERFORMANCE
           Fiscal Year 2003 District Consolidations in the
           Eastern, Northeast and Paciﬁc Areas
           ST-OT-04-001; 06/17/2004

           SAFETY AND SECURITY
            ENGINEERING
           Decision Process for Disposition of the Curseen-    Emergency Preparedness Training
           Morris Facility                                     DA-OT-04-004; 07/23/2004
           DA-OT-04-003; 04/09/2004


            INFORMATION SYSTEMS
           Business Continuity Planning and Testing at the     Personnel Security Controls at the Eagan, San
           Eagan, San Mateo and St. Louis Information          Mateo and St. Louis Information Technology and
           Technology and Accounting Service Centers           Accounting Service Centers
           IS-AR-04-010; 07/14/2004                            IS-AR-04-011; 09/08/2004


            INSPECTION SERVICE OVERSIGHT
           Postal Inspection Service’s Postal Police Ofﬁcers
           SA-AR-04-001; 04/21/2004

           MANAGEMENT INFORMATION
            INFORMATION SYSTEMS
           Audit of Serena ChangeMan ZMF                       Electronic Data Interchange at the San Mateo        Postal Service’s Advanced Computing
           Implementation                                      Information Technology and Accounting Service       Environment Program Management
           IS-AR-04-008; 06/17/2004                            Center                                              IS-AR-04-007; 06/16/2004
                                                               IS-AR-04-013; 09/29/2004
           Click-N-Ship Application Controls Review                                                                Postal Service’s Business Partner Connectivity
           – Access to Nonproduction Systems                   Follow-up of the Network Security and Security      IS-AR-04-014; 09/30/2004
           IS-AR-04-012; 09/28/2004                            Testing of Load Balancers at the San Mateo Host
                                                               Computing Services                                  Security Vulnerability Assessment of Selected
           Computer Incident Detection and Response            IS-AR-04-006; 06/08/2004                            UNIX Servers at Host Computing Services,
           Capabilities                                                                                            Eagan, MN
           IS-AR-04-009; 06/18/2004                            Oracle Database Testing at the Host Computing       IS-CS-04-005; 07/12/2004
                                                               Services, Eagan, MN
                                                               IS-CS-04-004; 06/16/2004                            Security Vulnerability Assessment of Selected
                                                                                                                   Windows Servers at the Host Computing
                                                                                                                   Services, Eagan, MN
                                                                                                                   IS-CS-04-003; 05/21/2004



40 | Semiannual Report to Congress
                                                                                                                                                                                    APPENDIX B
APPENDIX B
FINDINGS OF QUESTIONED COSTS
For the period April 1, 2004, through September 30, 2004
Questioned Costs: A cost that is unnecessary, unreasonable, unsupported or an alleged violation of law, regulation, contract, etc.

            OFFICE OF INSPECTOR GENERAL AND POSTAL INSPECTION SERVICE
            As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

                                                                                                                   Number                      Total          Unsupported
                                                                                                                        of               Questioned       Costs Included In
            Description                                                                                            Reports                    Costs       Questioned Costs
            Reports for which no management decision was made at the beginning of the
            reporting period                                                                                             22             $94,171,919             $10,483,386
            Reports requiring management decision that were issued during the reporting
            period                                                                                                       12             $65,263,905              $4,725,975
            TOTAL                                                                                                        34           $159,435,824              $15,209,361
            Reports for which a management decision was made during the reporting period (i+ii)                          22             $95,720,298              $8,492,933
               (i) Dollar value of disallowed cost                                                                       —              $16,313,060                   $78,338
               (ii) Dollar value of cost not disallowed                                                                  —              $79,407,238              $8,414,595
            Reports for which no management decision was made by the end of the reporting
            period. Negotiations are ongoing.                                                                            12             $63,715,526              $6,716,428
            Reports for which no management decision was made within six months of issuance
            (See Note 1 for a list of individual reports)                                                                 0                       $0                      $0
            Reports for which no management decision was made within one year of issuance
            (See Note 2 for a list of individual reports)                                                                 6             $13,208,954              $1,997,488


            Note 1 – Reports for which no management decision was made within six months of issuance:
                                                                                                                                              Total           Unsupported
                                                                                                                                        Questioned        Costs Included in
            Report Date                                                    Report/Case Number                Project Type                    Costs        Questioned Costs
                                                                                               —                        —                        $0                       $0


            Note 2 – Reports for which no management decision was made within one year of issuance:
                                                                                                                                              Total           Unsupported
                                                                                                                                        Questioned        Costs Included in
            Subject                                                                 Case Number               Report Date                    Costs        Questioned Costs
            Contract Audit – M.E.S. Incorporated                                  CA-CAR-02-045                 6/28/2002               $1,053,263                   $134,340
            Contract Audit – M.E.S. Incorporated                                  CA-CAR-02-051                 9/13/2002                 $620,681                   $187,271
            Contract Audit – Bell and Howell Mail and
            Messaging Technologies                                                CA-CAR-03-002                10/16/2002                 $343,759                        $0
            Contract Audit – D. L. Kaufman, Incorporated                          CA-CAR-03-011                 2/11/2003               $4,028,935                        $0
            Audit of Equitable Adjustment Claim Submitted by
            STV, Incorporated                                                      IR-CAR-03-011                9/30/2003                   $98,569                       $0
            OFFICE OF INSPECTOR GENERAL TOTAL                                                                                           $6,145,207                   $321,611
            Contract Audit – 181-1294644-AC(1)                                                                    11/17/99              $7,063,747               $1,675,877
            POSTAL INSPECTION SERVICE TOTAL                                                                                             $7,063,747               $1,675,877


            COMBINED TOTAL                                                                                                             $13,208,954               $1,997,488




                                                                                                                                          April 1, 2004 – September 30, 2004 | 41
APPENDIX C
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
For the period April 1, 2004, through September 30, 2004
Funds Put to Better Use: Funds that could be used more efﬁciently by implementing recommended actions.
As required by the IG Act, the following pages show the total number of audit reports and the total dollar value recommendations for funds that can be put to better use by
management.

            OFFICE OF INSPECTOR GENERAL
                                                                                                                                         Number
            Description                                                                                                               of Reports             Dollar Value
            Reports for which no management decision was made at the beginning of the
            reporting period                                                                                                                  11           $183,597,134
            Reports requiring management decision that were issued during the reporting
            period                                                                                                                              8          $163,398,672
            TOTAL                                                                                                                             19           $346,995,806
            Reports for which a management decision was made during the report period (i + ii)                                                11           $185,753,605
               (i) Value of recommendations agreed to by management                                                                           —            $183,142,772
               (ii) Value of recommendations that management did not agree                                                                    —               $2,610,833
            Reports for which no management decision was made by the end of the reporting
            period.*                                                                                                                            8          $161,242,201
            Reports for which no management decision was made within six months of
            issuance
            (See Note 1 for a list of individual reports)                                                                                       1             $1,200,212
            Reports for which no management decision was made within one year of issuance
              (See Note 2 for a list of individual reports)                                                                                     4          $104,784,352




           Note 1 – Reports for which no management decision was made within six months of issuance:
                                                                                                                                                     Recommend Funds
            Subject                                                                                       Case Number               Report Date        Put to Better Use
            Vehicle Maintenance Facilities – Chicago District – Accidental Vehicle Damage Cost
            and Vehicle Safety, Security and Appearance                                                  NL-AR-04-002                12/05/2003               $1,200,212
            TOTAL                                                                                                                                             $1,200,212



           Note 2 – Reports for which no management decision was made within one year of issuance:
                                                                                                                                                     Recommend Funds
            Subject                                                                                       Case Number               Report Date        Put to Better Use
            Bulk Fuel Purchase Plan                                                                      TR-AR-01-004                07/27/2001              $15,918,035
            New York Metro Area Operational Use of Trailers                                             TD-MA-03-001                 01/29/2003               $2,495,344
            Trailer Lease Justiﬁcation                                                                   TD-AR-02-002                 3/29/2002              $82,349,739
            New York Metro Area Trailer Acquisition – Lease Versus Buy                                   TD-AR-03-009                03/31/2003               $4,021,234
            TOTAL                                                                                                                                          $104,784,352

           *Included herein are amounts where management agreed to take the recommended corrective action but could not comment on some of the potential savings
            until analyses were completed. The majority of identiﬁed savings were agreed to and decisions were reﬂected in a prior reporting period.




            42 | Semiannual Report to Congress
                                                                                                                                                                     APPENDIX D
APPENDIX D
REPORTS WITH SIGNIFICANT RECOMMENDATIONS PENDING CORRECTIVE ACTIONS
For the period through September 30, 2004
As required by the IG Act, the following pages include a list of each audit report issued before the commencement of the reporting period for which no manage-
ment decision has been made by the end of the reporting period.




OFFICE OF INSPECTOR GENERAL
                   Number of
  Issue            Recommen-                                                                                                       Report
  Date             dations*           Report Title                                                                                 Number
  9/29/1999               3           Emergency and Extra Trip Expenditures on Highway Routes                                     TR-AR-99-003

  9/29/2000               2           Review of the United States Postal Inspection Service Budget Process                        OV-AR-00-005

  4/30/2001               1           Postal Inspection Service Support to Postal Service Threat Assessment Teams                 OV-AR-01-002

  7/27/2001               5           Bulk Fuel Purchase Plan                                                                     TR-AR-01-004

  9/28/2001               1           Postal Inspection Service Fraud Against Government Program                                  OV-AR-01-004

  2/22/2002               3           Review of the Facilities Management System for Windows                                       IS-AR-02-003

  3/29/2002               1           Review of Contracts Associated with Biohazard Threat                                       CQ-MA-02-002

  3/29/2002               1           Public-Key Infrastructure Initiatives by the Postal Service                                 EM-AR-02-009

  3/29/2002               2           Trailer Lease Justiﬁcation                                                                  TD-AR-02-002

   5/8/2002               2           Southwest Area’s Efforts in Obtaining Appropriate Chargeback Credits for Identiﬁed          LH-AR-02-003
                                      Wage Compensation Overpayments and Refundable Disbursements
   7/9/2002               4           Review of eBusiness Agreements                                                              EM-AR-02-012

  7/10/2002               2           New York Metro Area Trailer Acquisition Requirements                                        TD-MA-02-003

  7/30/2002               3           Postal Inspection Service Health Examination Program                                     OV-AR-02-003(R)

   9/3/2002               2           Postal Service’s Corporate Succession Planning Process                                      LH-AR-02-004

  9/26/2002               1           Utility Payments to Commonwealth Edison                                                      FT-AR-02-015

  9/27/2002               3           Effectiveness of the Postal Service’s Asset Locator                                          FT-AR-02-017

  9/30/2002               2           Associate Supervisor Program in the Great Lakes Area                                        LH-AR-02-005

 10/28/2002               2           New York Metro Area Trailer Acquisition - Safety and Length                                 TD-AR-03-001

  1/29/2003               2           New York Metro Area Operational Use of Trailers                                             TD-MA-03-001

  1/30/2003               1           Fiscal Year 2002 Postal Service Financial Statements Audit – St. Louis Information           FT-AR-03-008
                                      Technology and Accounting Service Center
  1/30/2003               1           Sexual Harassment Prevention Measures in the Northern Virginia and Richmond                 LH-AR-03-003
                                      Districts – Capital Metro Operations
  2/25/2003               2           Sexual Harassment Prevention Measures in the Albany and Southeast New England               LH-AR-03-004
                                      Districts – Northeast Area
   3/5/2003               1           Sexual Harassment Prevention Measures in the Central Florida and South Georgia              LH-AR-03-005
                                      Districts – Southeast Area

 * Pending corrective action




                                                                                                                           April 1, 2004 – September 30, 2004 | 43
                              Number of
             Issue            Recommen-                                                                                             Report
             Date             dations*    Report Title                                                                              Number
              3/5/2003               2    Sexual Harassment Prevention Measures in the Greensboro and Harrisburg Districts         LH-AR-03-006
                                          – Eastern Area
              3/5/2003               1    Sexual Harassment Prevention Measures in the Dakotas and Portland Districts              LH-AR-03-007
                                          – Western Area
             3/12/2003               2    Address Change Service                                                                   TD-AR-03-004

             3/18/2003               3    Sexual Harassment Prevention Measures in the Oakland and Santa Ana Districts             LH-AR-03-008
                                          – Paciﬁc Area
             3/19/2003               3    Vehicle Maintenance Facilities - Vehicle Inventory Control Weaknesses in the Chicago     TD-AR-03-005
                                          District
             3/25/2003               3    Sexual Harassment Prevention Measures in the Arkansas and Rio Grande Districts           LH-AR-03-009
                                          – Southwest Area
             3/28/2003               2    Work Performed by Business Mail Entry Employees in the Seattle, Minneapolis and          CQ-AR-03-001
                                          Des Moines Bulk Mail Centers
             3/31/2003               1    Retail Data Mart System – Security Issues                                                OE-AR-03-002

             3/31/2003               2    New York Metro Area Trailer Acquisition – Lease Versus Buy                               TD-AR-03-009

             6/13/2003               1    Postal Inspection Service Tracking of Investigative Workhours and Activity               SA-AR-03-003

             6/30/2003               2    Review of Facility Conditions at the Groton, Connecticut, Main Post Ofﬁce                LH-AR-03-010

             7/31/2003               2    Efﬁciency of Work Performed by Business Mail Entry Clerks Within the Los Angeles         AO-AR-03-001
                                          District
             8/21/2003               2    Propriety of Postal Service Utility Payments                                             FT-AR-03-011

              9/8/2003               2    Capping Report on the Postal Service’s Sexual Harassment Prevention Measures in 18       LH-AR-03-011
                                          District Ofﬁces
             9/10/2003               1    Retail Data Mart System – Data Integrity and Expected Beneﬁts                            OE-AR-03-006

             9/25/2003               2    Efﬁciency of Work Performed by Business Mail Entry Clerks in the San Francisco           AO-AR-03-002
                                          Business Mail Entry Unit
             9/26/2003               2    Postal Inspection Service Controls Over Firearms – Reconciliation of Sturm, Ruger and    SA-AR-03-006
                                          Company, Inc., Firearms
             9/29/2003               1    Enhanced Carrier Route Standard Mail Worksharing Discounts                               AC-AR-03-006

             9/30/2003               1    Inventory Management – Maintenance Stockrooms                                            AC-AR-03-007

             9/30/2003               8    General Controls at the Engineering Research and Development Center                       IS-AR-03-008

             9/30/2003               3    Postal Service and Union Labor Relations                                                 LH-AR-03-012

             12/1/2003               1    Potential Improper and Erroneous Payments                                                FT-AR-04-001

             12/2/2003               3    Fiscal Year 2003 Information System Controls, Eagan, San Mateo and St. Louis              IS-AR-04-001
                                          Information Technology and Accounting Service Centers
             12/5/2003               3    Vehicle Maintenance Facilities - Chicago District – Accidental Vehicle Damage Cost and   NL-AR-04-002
                                          Vehicle Safety, Security and Appearance
             2/23/2004               1    Conditions at Patterson Station in the Baltimore District                                NL-MA-04-002

             2/24/2004               1    Network Integration and Alignment Models – Independent Veriﬁcation and Validation        NO-AR-04-005

             3/10/2004               3    Information Systems Disaster Recovery Process                                             IS-AR-04-004

             3/30/2004               4    Compliance with the Bank Secrecy Act                                                     FF-AR-04-100


            * Pending corrective action




44 | Semiannual Report to Congress
                                                                                                                                                           APPENDIX D
                  Number of
 Issue            Recommen-                                                                                              Report
 Date             dations*    Report Title                                                                               Number
 3/31/2004               2    Efﬁciency of the San Francisco International Service Center and the General Services     NO-AR-04-006
                              Administration Facility
 3/31/2004               2    Efﬁciency of the Oakland International Service Facility and the Regatta Facility         NO-AR-04-007

 4/21/2004               1    Postal Inspection Service’s Postal Police Ofﬁcers                                         SA-AR-04-001

  6/8/2004               3    Follow-up of the Network Security and Security Testing of Load Balancers at the San       IS-AR-04-006
                              Mateo Host Computing Services
  7/1/2004               2    Financial Opportunities of Underutilized Land                                            CA-MA-04-004

 7/14/2004               1    Business Continuity Planning and Testing at the Eagan, San Mateo and St. Louis            IS-AR-04-010
                              Information Technology and Accounting Service Centers
 9/13/2004               2    Self-Service Vending Program – Albany District                                           DR-AR-04-006

 9/20/2004               3    Self-Service Vending Program – Greater South Carolina District                           DR-AR-04-007

 9/22/2004               2    Self-Service Vending Program – Nevada-Sierra District                                    DR-AR-04-009

 9/24/2004               1    Technology Acquisition Management                                                        DA-AR-04-003

 9/24/2004               2    Self-Service Vending Program – Massachusetts District                                    DR-AR-04-008

 9/24/2004               1    Efﬁciency of the New York International Service Center                                   NO-AR-04-009

 9/28/2004               2    Self-Service Vending Program – Sacramento District                                       DR-AR-04-011

 9/29/2004               2    Electronic Data Interchange at the San Mateo Information Technology and Accounting        IS-AR-04-013
                              Service Center
 9/29/2004               3    Bulk Mail Center Highway Transportation Routes – Great Lakes Area                         NL-AR-04-004

 9/29/2004               3    Vehicle Management – Trailer Requirements - Northeast Area                                NL-AR-04-006

 9/30/2004               1    Preferred Portfolio Partnering Program                                                    CA-AR-04-002

 9/30/2004               1    Fiscal Year 2003 Supply Chain Management Savings                                          CA-AR-04-003

 9/30/2004               2    Advanced Facer-Canceler System Improvements                                              DA-AR-04-004

 9/30/2004               2    Self-Service Vending Program – Kentuckiana District                                      DR-AR-04-012

 9/30/2004               2    Self-Service Vending Program – Southeast Area                                            DR-AR-04-013

 9/30/2004               2    Function 4 - Customer Service Operations                                                 DR-AR-04-014

 9/30/2004               2    Self-Service Vending Program – Eastern Area                                              DR-AR-04-015

 9/30/2004               2    Postal Service’s Business Partner Connectivity                                            IS-AR-04-014

 9/30/2004               5    Vehicle Management – Delivery Vehicles – Buy Versus Lease                                 NL-AR-04-005


* Pending corrective action




                                                                                                                 April 1, 2004 – September 30, 2004 | 45
APPENDIX E
SIGNIFICANT MANAGEMENT DECISIONS IN AUDIT RESOLUTION
For the period April 1, 2004, through September 30, 2004
As required by the IG Act, the following pages discuss information concerning any signiﬁcant management decision with which the Inspector General disagrees and is
currently in audit resolution.


                      OFFICE OF INSPECTOR GENERAL
                      Trailer Lease Justiﬁcation                          New York Metro Area Trailer Acquisition          Postal Inspection Service Tracking of
                      (TD-AR-02-002, 3/29/2002)                           – Lease Versus Buy                               Investigative Workhours and Activity
                                                                           (TD-AR-03-009, 3/31/2003)                       (SA-AR-03-003, 6/13/2003)
                      Recommendation 1: We recommended
                      the Vice President, Purchasing and Materi-          Recommendation 1: We recommended the             Recommendation 1: We recommend
                      als, prepare a Decision Analysis Report to          Vice President, Supply Management, prepare       the Chief Postal Inspector develop and
                      purchase the common ﬂeet trailers currently         a Decision Analysis Report in accordance         implement a documented process to track
                      under the nationwide lease and submit it to         with Postal Service investment policy to         total investigative workhours for jacketed
                      the Board of Governors.                             support acquisition of trailers for the New      cases using existing Postal Inspection Service
                                                                          York Metro Area.                                 (USPIS) Data Base Information System Service
                      Recommendation 4: We recommended the                                                                 capabilities, which allows the USPIS the
                      Vice President, Purchasing and Materials,           Recommendation 2: We recommended the             ability to determine total workhours expended
                      develop management controls to ensure               Vice President, Supply Management, submit        for individual area cases that resulted in
                      use of a Decision Analysis Report for leases        the Decision Analysis Report to the Board of     jacketed cases.
                      exceeding $10 million per year.                     Governors for approval.
                                                                                                                           Agency Response: The USPIS was concerned
                      Agency Response: Postal Service manage-             Agency Response: Postal Service manage-          that any estimates of attributed workhours
                      ment stated the National Trailer Lease was not      ment pointed out that the issues raised during   expended in the preliminary stages of an
                      a lease, but a service contract, and as a result,   this audit were substantially the same as        investigation to a speciﬁc jacketed case
                      did not require a Decision Analysis Report or       the issues raised during the Trailer Lease       would degrade the integrity of their internal
                      Board of Governors’ approval. However, on           Justiﬁcation audit. We concur. Accordingly, we   reporting systems.
                      July 22, 2002, in an effort to reach resolution,    have joined our resolution efforts concerning
                      the deputy postmaster general directed Postal       these two audits.
                      Service management to analyze the National
                      Trailer Lease in accordance with the proce-
                      dures speciﬁed by Postal Service investment
                      policy, and stated that Postal Service Finance
                      would independently verify the analysis in
                      accordance with the same procedures they
                      use for capital projects. Consequently, we
                      deferred further decision on how to proceed
                      with resolution until we had an opportunity
                      to review the validated analysis. As of this
                      semiannual reporting period, we have not
                      received a validated analysis — the equivalent
                      of an analysis the Postal Service would use for
                      capital projects. Therefore, we have elected to
                      proceed with these recommendations through
                      the resolution process.




           46 | Semiannual Report to Congress
                                                                                                                                                       APPENDIX F
APPENDIX F
INVESTIGATIVE STATISTICS1
For the period April 1, 2004, through September 30, 2004

OFFICE OF INSPECTOR GENERAL
Statistics
Investigations completed                        463
Arrests                                          28
Indictments/Informations                         24
Convictions/Pretrial diversions                  14
Administrative Actions                           98
Fines, restitutions and recoveries2     $6,352,168
     Amount to Postal Service3          $2,291,260



U.S. POSTAL INSPECTION SERVICE4
For the period October 1, 2003, through September 30, 2004
Statistics
Investigations completed                      1,643
Arrests/Indictments/Informations                652
Convictions/Pretrial diversions                 608
Administrative Actions
     Removals                                 1,081
     Identiﬁcations                           1,303
Fines, restitutions and recoveries      $8,969,308
     Amount to Postal Service3            $864,624

1
    Statistics include joint investigations with other federal law enforcement agencies.
2
    Some ﬁnes and recoveries were from the previous reporting period, but not previously counted.
3
    Amount included in total ﬁnes, restitutions and recoveries.
4
    Statistics for the previous reporting period were not included in the October 1, 2003 – March 31, 2004
    Semiannual Report to Congress, therefore these statistics reﬂect the entire ﬁscal year.




                                                                                                             April 1, 2004 – September 30, 2004 | 47
APPENDIX G
              SUMMARY OF POSTAL SERVICE INVESTIGATIVE ACTIVITIES
              UNDER 39 USC 3013
              For the period April 1, 2004, through September 30, 2004
              The Postal Reorganization Act requires the Postmaster General to furnish information on the investigative activities of the Postal Service by the U.S.
              Postal Service Inspection Service on a semiannual basis. With passage of the Deceptive Mail Prevention and Enforcement Act in December 1999, the
              Postal Service’s reporting obligations were changed. The Act requires the Postal Service to submit its semiannual report on investigative activities to
              the Ofﬁce of Inspector General rather than to the Board of Governors, expands the subject matter that must be reported, and revises the reporting
              schedule to coordinate with the OIG Semiannual Report to Congress. The information in the report includes actions directed at combating crimes
              involving the mail; costs and expenditures devoted to Postal Service investigative activities; use of subpoena power; and any additional information
              the OIG may require.
              The following information summarizes the administrative and judicial actions initiated and resolved during the reporting period. These actions
              include the issuance of cease and desist orders directed to mailers, actions to intercept payments fraudulently induced, and orders seeking to
              intercept fraudulent mailings.

              Subpoena activity for the period of April 2004, through September 30, 2004
              Case No.              Date Issued             Scheme
              04-005                05/07/04                Solicitations in the guise of Invoices
              04-006                06/04/04                False Representation – Failure to Render
              04-007                06/04/04                False Representation – Failure to Render
              04-008                09/30/04                Sweepstakes Scheme
              04-009                09/30/04                Sweepstakes Scheme


              SUMMARY OF U.S. POSTAL INSPECTION SERVICE ACTIONS UNDER
              39 USC 3005 and 3007 – April 1, 2004 through September 30, 2004

                                                                    Complaints             Consent                                  Cease &
               Type of Scheme                                            Filed          Agreements                     FROs    Desist Orders
               Advance fee                                                      1                      1                   0               1
               Boiler rooms/Telemarketing                                       –                      –                   1               2
               Contest/Sweepstakes                                              2                      1                   1               2
               False billings                                                   1                      1                   –               2
               Lotteries (Foreign and Domestic)                                 6                      –                   –               –
               Misrepresentation                                                2                      2                   –               3
               Work at home                                                     8                      5                   6              12
               TOTAL                                                          20                      10                   8              22



               OTHER ADMINISTRATIVE ACTIONS                                                          FINANCIAL REPORTING ON INVESTIGATIVE
               Administrative Action Requests                                 21                     ACTIVITIES FY2004 MO 7-12
               Temporary Restraining Orders Requested                           4                    Type                                      Semiannual Report
               Temporary Restraining Orders Issued                              1                    Personnel                                        171,461,269
               Civil Injunctions (Section 1345) Requested                       1                    Nonpersonnel                                      44,949,123
               Civil Penalties (Section 3012) Imposed                  $100,595
               Withholding Mail Orders Issued                                 13                     TOTAL                                            216,410,392
               Voluntary Discontinuances                                      43                     Capital Obligations                               17,477,292




   48 | Semiannual Report to Congress
                                                                                                                                                                           APPENDIX H
APPENDIX H
CLOSED CONGRESSIONAL AND BOARD OF GOVERNORS INQUIRIES
For the period April 1, 2004, through September 30, 2004




COST CONTROL
Requestor                                    Allegations/Concern                                                                         Closure Date
Representative, Illinois                     Allegations of nepotism, discrimination and mismanagement.                                     22-Jun-04
Representative, Illinois                     Request to investigate the death of a former postmaster.                                       22-Jun-04
Representative, Washington                   Allegations of fraudulent acts, harassment and discrimination.                                 11-May-04
Senator, Colorado                            Request to investigate work practices at a Post Ofﬁce.                                         13-May-04
Representative, South Carolina               Allegations of ﬁnancial and other improprieties.                                               22-Apr-04
Senator, Florida                             Allegations of employment-related and injury compensation beneﬁts                              15-Apr-04
                                             issues.
White House                                  Request to investigate work practices at a Post Ofﬁce.                                         13-May-04
Senator, Virginia                            Requesting assistance in expediting EEO complaint against USPS OIG.                            26-Apr-04
Representative, Florida                      Allegations of harassment and discrimination at a Post Ofﬁce.                                  29-Apr-04
Senator, Delaware                            Allegations of improper acts by a postal employee.                                              5-May-04
Governors                                    Employee allegations of USPS OIG mismanagement.                                                19-May-04
Representative, Louisiana                    Allegation that USPS OIG ﬁndings are biased and condone Postal Service                          9-Aug-04
                                             mismanagement.
Representative, Illinois                     Allegations of retaliation as a result of EEO and EEOC decisions.                              23-Jun-04
Representative, Virginia                     Allegation of misdelivery of mail.                                                             22-Jun-04
Senator, California                          Request to investigate allegations of perjury by a postmaster.                                 31-Aug-04
Representative, Louisiana                    Request for reconsideration of OWCP case based on allegations of fraud.                        27-Sep-04
Senator, Louisiana                           Allegations that USPS OIG ﬁndings are biased and condone Postal Service                         9-Aug-04
                                             mismanagement.
State Senator, New York                      Allegations of unfair practices, discrimination and illegal acts at a Post Ofﬁce.              18-Aug-04
Representative, Virginia                     Request to review the development of Postal Service areas.                                      2-Aug-04
Representative, Virginia                     Allegations of delivery problems and incurred costs as a result of the                         11-Aug-04
                                             problems.
Representative, New York                     Request status of investigation.                                                               13-Sep-04
Representative, New York                     Allegation of hostile work environment.                                                        25-Aug-04
Senator, New York                            Request status of investigation.                                                               13-Sep-04
Representative, Arizona                      Allegations of sexual harassment and adverse personnel actions as a                            29-Sep-04
                                             result of an EEO complaint.
Governor                                     Request to perform a comparison of buy versus lease of cargo vans.                              9-Sep-04
Senator, Virginia                            Allegations that the USPS OIG improperly handled an EEO and EEOC case.                         30-Sep-04
Representative, Virginia                     Allegations of wasteful and inefﬁcient job training and placement                              30-Sep-04
                                             decisions.




                                                                                                                                 April 1, 2004 – September 30, 2004 | 49
                      SAFETY AND SECURITY
                      Requestor                        Allegations/Concern                                                          Closure Date
                      Senator, Connecticut             Request to review decision by the USPS to eliminate the presence of Postal     27-Apr-04
                                                       Police Ofﬁcers at six postal facilities.
                      Governors                        Review criteria to reopen/close a post ofﬁce after decontamination.             9-Apr-04
                      Representative, South Carolina   Allegations of ﬁnancial and other improprieties.                               22-Apr-04
                      Senator, Illinois                Allegation of misdelivery of mail.                                              1-Apr-04
                      Representative, Massachusetts    Allegations of ceasing procedures on handling Unendorsed Bulk Business         22-Apr-04
                                                       Mail (UBBM) at a post ofﬁce.
                      Representative, California       Allegation of mail theft.                                                       7-May-04
                      Senator, Delaware                Request report on accident prevention efforts of the Postal Service.            6-May-04
                      Senator, Maine                   Request report on accident prevention efforts of the Postal Service.            6-May-04
                      Representative, Oregon           Allegations of threats of violence at a Post Ofﬁce.                              7-Jul-04
                      Representative, North Carolina   Allegations that the Postal Inspection Service did not pay reward money.         7-Jul-04
                      Representative, Georgia          Allegation of falsiﬁcation of documents by a postmaster and supervisors.       27-Sep-04
                      Representative, Georgia          Allegation of falsiﬁcation of documents by a postmaster and supervisors.       27-Sep-04
                      Representative, Pennsylvania     Request to investigate allegations of mail fraud.                               15-Jul-04
                      Senator, Maine                   Concerns with overseas delivery services.                                       20-Jul-04
                      Representative, California       Allegations of mail theft.                                                      2-Aug-04
                      Representative, Michigan         Allegations of fraud, mismanagement and harassment.                            17-Sep-04
                      Representative, Virginia         Request to review the late delivery of First Class Mail.                       11-Aug-04
                      Representative, Illinois         Allegation of mail fraud.                                                      27-Sep-04



                      REVENUE
                      Requestor                        Allegations/Concern                                                          Closure Date
                      Representative, California       Request for update on letter sent by prior IG.                                  5-May-04
                      Senator, Arizona                 Allegations of difﬁculties with mailing and packaging contract.                17-Jun-04
                      Representative, New York         Allegations that the USPS is stonewalling on issues dealing with vendors       30-Sep-04
                                                       and mailers.


                      MANAGEMENT INFORMATION
                      Requestor                        Allegations/Concern                                                          Closure Date
                      Governor                         Automated Postal Center deployment delays.                                      9-Apr-04
                      Governor                         Report on how much money is spent at other agencies on ﬁnancial                15-Apr-04
                                                       statement work.
                      Representative, California       Request for update on letter sent by prior IG.                                  5-May-04
                      Governor                         Improper contracting of rental property.                                        30-Jul-04
                      Governor                         Transition from self-service vending to Automated Postal Centers               15-Jun-04




50 | Semiannual Report to Congress
                                                                                                                                                                          SUPPLEMENTAL INFORMATION
SUPPLEMENTAL INFORMATION
AUDIT SYNOPSES
For the period April 1, 2004, through September 30, 2004


COST CONTROL                                                           internal control weaknesses such as those related to cash and stamp
                                                                       accountability and business mail veriﬁcation and acceptance.
Automated Postal Centers, CA-OT-04-001
                                                                       For the FY 2004 Cost and Revenue Analysis, the OIG observed
The OIG found that the contract award for the Automated Postal
                                                                       statistical tests conducted in 27 districts. Data collectors gener-
Centers was delayed because the requirements were not devel-
                                                                       ally followed Postal Service policies and procedures when con-
oped in sufﬁcient detail to prepare a statement of work at the time
                                                                       ducting statistical tests, except for various test errors observed
the Board of Governors approved the project.
                                                                       in 15 districts.
Contract Reviews                                                       In addition to the FY 2004 ﬁnancial installation and Cost and Rev-
The Defense Contract Audit Agency (DCAA) performed 14 contract-        enue Analysis work, the OIG audited and reported on seven addi-
related audits during the period at the OIG’s request. The audits      tional installations at the request of Postal Service management or
evaluated costs associated with advanced co-processor units,           as a result of other audits. The OIG also issued ﬁve capping reports
emergency response services for anthrax contamination and              related to its FY 2003 ﬁnancial installation audits of Post Ofﬁces,
biohazard detection systems. DCAA also audited terminated con-         business mail entry units, contract postal units, self-service postal
tract costs; veriﬁed billed costs; and determined whether forward      centers and stamp distribution ofﬁces.
pricing rates were reasonable. The OIG considered most of the
proposals acceptable for negotiating fair and reasonable rates and     Financial Opportunities of Underutilized Land,
$20 million was identiﬁed as potential contract savings.               CA-MA-04-004
                                                                       Working with Postal Service ofﬁcials, the OIG jointly developed
Duplicate Payment Made to Shipping Box Vendor,                         a methodology for identifying marketable underutilized land for
FT-AR-04-012                                                           which there was no operational need. The OIG applied it to facilities
The Postal Service made a $765,781 duplicate payment to a ven-         in Colorado and identiﬁed two that had marketable, underutilized
dor for Priority Mail shipping boxes. Payments processed by the        land. The estimated net proceeds from the sale of the underutilized
San Mateo Accounting Service Center, Calif., generally were sup-       land were $330,000. In addition, the OIG performed a preliminary
ported and correctly entered into the accounts payable accounting      analysis of all postal-owned facilities and identiﬁed 627 that had
and reporting system. However, a double payment occurred when          potential underutilized land in excess of 100,000 square feet each.
the vendor submitted the same invoice for payment on two sepa-         The OIG agreed to provide this information to Facilities personnel
rate dates. Further, system controls did not detect the duplicate      to use in their upcoming inventory of excess property.
invoices because the San Mateo personnel incorrectly entered
the ﬁrst invoice number that resulted in the duplicate payment for     Fiscal Year 2003 Supply Chain Management Savings,
goods not received by the Postal Service.                              CA-AR-04-003
                                                                       In FY 2003, Postal Service operating expenses were approximately
Erroneous Economic Value Added Reserve Payments,                       $64 billion, of which $9 billion was for goods and services. To
FT-OT-04-003                                                           reduce spending, postal ofﬁcials adopted a supply chain manage-
The Postal Service’s Chief Financial Ofﬁcer (CFO) asked the OIG        ment (SCM) philosophy. The OIG looked at whether the Postal
to review internal payroll processes and controls to determine         Service was appropriately assessing SCM impact and found this
why more than 41,000 current or former employees received              was generally true for the 18 projects it reviewed. The methodol-
$103 million in erroneous Economic Value Added (EVA) payments          ogy used to calculate cost savings, cost avoidance, cost reduction
on June 18, 2004. These payments were intended to complete the         and revenue generation was reasonable; and conservatively, soft
remaining payout of EVA reserve balances to approximately 1,900        savings were not included as SCM impact. The Postal Service also
employees. These erroneous payments duplicated lump-sum pay-           has a mechanism for updating cumulative and carryover SCM
ments that employees received in October 2002. The OIG identiﬁed       impact. However, ofﬁcials did not always establish an appropriate
and reported on the corrective actions taken by the Postal Service     baseline for calculating SCM impact, and they reported impact for
to prevent this from occurring again.                                  projects not attributable to SCM initiatives. As a result of the proj-
                                                                       ects reviewed, the Postal Service overstated FY 2003 SCM savings
Field Operations Reviews
                                                                       by about $98.6 million.
The OIG audited and reported on ﬁnancial operations of 149 instal-
lations, including 50 business mail entry units, 70 Post Ofﬁces, 8     Fiscal Years 2003 and 2004 Protective Reviews Capping
contract postal units, 9 self-service postal centers and 12 stamp      Report, FT-MA-04-003
distribution ofﬁces, as a part of its ﬁscal year (FY 2004) ﬁnancial    The OIG found that internal controls were generally in place and
statements audit of the Postal Service. Generally, ﬁnancial transac-   functioning at 117 local Postal Service facilities. However, because
tions were reasonably and fairly presented in the accounting records   ﬁeld personnel did not always follow policies and procedures,
and internal controls were in place and effective at 145 units,        opportunities existed to strengthen controls in the areas of asset
although the OIG identiﬁed some internal control and compliance        and postmaster accountability, revenue protection and expense
issues. However, at four installations, the OIG identiﬁed signiﬁcant




                                                                                                                                April 1, 2004 – September 30, 2004 | 51
                      minimization, employee and customer service, information sys-          vice would have overpaid its obligation by over $100 billion. When
                      tems security, and oversight.                                          OPM acknowledged the overpayment, the Postal Service was
                                                                                             given legislative relief. However, additional burdens were placed
                     Function 4 – Customer Service Operations, DR-AR-04-014                  on the Postal Service that had not been required for CSRS pension
                     The Postal Service projected $1 billion in savings and cost avoid-      costs and not levied against other federal government entities.
                     ance from FYs 2002 through 2006 with a workforce reduction of           The Postal Service did not envision it would pay these charges for
                     19,000 full-time equivalent employees. It would achieve this goal       CSRS pension costs.
                     using the Function 4 process for customer service operations that
                     includes retail, administrative, automated and manual distribution      All Postal Service funding is derived from its customers’ purchases
                     activities within its Post Ofﬁce, station and branch operations. The    of Postal Service products, and the Postal Service is not allowed to
                     OIG’s audit of the Function 4 process found that postal managers        charge customers more than it needs for its expenses. The money
                     can improve customer service operations by fully using standard-        should not be returned to OPM to replace appropriated tax dollars.
                     ized Function 4 reviews and sharing proven practices.                   This would constitute a hidden tax for Postal Service customers
                                                                                             that Congress has not appropriated.
                     Independent Report on Withholdings and Contributions for
                     Health Beneﬁts, Life Insurance, Retirement and Employee                 Repairs and Alterations of Postal Service Facilities,
                     Headcount Data, FT-AR-04-011                                            CA-MA-04-005
                     The OIG assisted the Ofﬁce of Personnel Management (OPM)                During FY 2003, an OIG audit found that Postal Service ofﬁcials
                     in verifying employee withholdings and employer contributions           in the Dallas District effectively managed expensed repairs and
                     reported on the “Report of Withholdings and Contributions for Health    alterations for its buildings and leased facilities. However, there
                     Beneﬁts, Life Insurance and Retirement” for the payroll periods end-    was an appearance that the Dallas District did not appropriately
                     ing February 20, 2004; March 5, 2004; and April 2, 2004; and the        use funds budgeted for expensed repairs and alterations.
                    “Supplemental Semiannual Headcount Report” as of March 5, 2004.          The Southwest Area established a procedure in FY 2004 to use
                     Generally, the OIG veriﬁed the Postal Service’s employee withhold-      each district’s budget proposal to allocate funds to the districts.
                     ings, employer contributions and enrollment information for health      In an updated audit, the OIG found that personnel responsible
                     beneﬁts, life insurance and retirement. Four reportable issues were     for expensed repair and alteration projects did not always close
                     identiﬁed based on the agreed-upon procedures provided by OPM.          or update rollover projects in their tracking system resulting in
                                                                                             unreliable data for making management decisions. The OIG recom-
                      Lessor Maintenance Enforcement, CA-MA-04-006
                                                                                             mended that the Postal Service enhance its policy on construction
                      An audit of lease operating expenses found that the Administrative     projects to include timely updates to FMSWIN for expensed repairs
                      Service Ofﬁce (ASO) and Facilities Service Ofﬁce (FSO) personnel       and alterations, and communicate that requirement to applicable
                      responsible for repair projects in the Dallas, Colorado/Wyoming and    personnel. Management agreed with the recommendation and
                      Capital Districts did not always process rent reduction requests.      planned to have corrective action in place by July 30, 2004.
                      Also, FSO personnel did not include the costs of investigations and
                      studies for repair projects in the Dallas and Fort Worth Districts     Stamp Accountability and Inventory Controls Related to the
                      in future rent reductions. As a result, the Postal Service incurred    Stamps on Consignment Program, FF-AR-04-269
                      expenses for repairs that could have required the lessor to perform    The OIG audited stamp accountability and inventory controls
                      under the lease agreement, and missed an opportunity to reduce         related to the company that supplies stamps for the Stamps on
                      overall lease operating expenses by $26,507.                           Consignment Program and is in the fourth year of their contract.
                                                                                             The Stamps on Consignment Program places stamps in commer-
                      Preferred Portfolio Partnering Program, CA-AR-04-002                   cial retail outlets and banks for sale to the public. Generally, the
                      The OIG looked at the Preferred Portfolio Partnering (PPP) program,    audit noted that stamps were properly controlled and accounted
                      where Postal Service ofﬁcials identify, develop and implement          for in accordance with contract terms and payments to the Postal
                      information technology (IT) business solutions for functional areas.   Service were accurate. However, Postal Service accounting
                      Contract ﬁles generally contained the required documentation, but      records overstated the contractor’s stamp accountability by $17
                      the Postal Service can enhance program oversight and maximize          million, nine consignees disputed receipt of stamp shipments
                      IT savings. The audit recommended that postal ofﬁcials review PPP      valued at approximately $191,000 and ﬁve consignees had trans-
                      performance to ensure the program was an effective and efﬁcient        actions valued at approximately $191,000 that were overdue by
                      tool for obtaining IT business solutions, something it has not done    at least 60 days.
                      since FY 2001. Additionally, the audit recommended that postal
                      ofﬁcials should determine whether the Postal Service received
                      accurate research and development credit from one of its PPP           Network Optimization
                      partners. Postal ofﬁcials agreed with OIG recommendations.             Bulk Mail Center Highway Transportation Routes – Great
                      Postal Service’s Funding of the Civil Service Retirement               Lakes Area, NL-AR-04-004
                      System, FT-OT-04-002                                                   The Postal Service could save about $7.7 million on existing Great
                      The OIG analyzed issues pertaining to the Postal Civil Service         Lakes Area bulk mail highway contracts by terminating, substitut-
                      Retirement System (CSRS) Funding Reform Act of 2003 (Public            ing or modifying 96 trips. The Postal Service could eliminate or
                      Law 108-18). The Government Accountability Ofﬁce found that the        modify the trips without negatively affecting service because trip
                      Postal Service’s amortized payments to OPM for its CSRS liability      mail volume was low and mail could be consolidated on other trips.
                      were too large. If the overpayments had continued, the Postal Ser-     Management agreed to verify the cancellation or modiﬁcation of
                                                                                             the 40 trips they identiﬁed for termination during the OIG’s audit;




52 | Semiannual Report to Congress
                                                                                                                                                                           SUPPLEMENTAL INFORMATION
verify appropriate action on the 49 trips they agreed to modify,        in the various districts indicated that, overall, the machines were
substitute, or terminate; and reassess the 7 trips they thought         operational and easily accessible, with few exceptions.
were still necessary.
                                                                        Trailer Requirements – Northeast Area, NL-AR-04-006
City Letter Carrier Ofﬁce Preparation – Dallas District,                The Postal Service has a national trailer lease for 4,475 trailers to
DR-AR-04-005                                                            transport mail. The lease would cost the Postal Service more than
The Dallas District can improve its ofﬁce preparation for city letter   one-quarter billion dollars over a 12-year period. In the Northeast
carriers. Speciﬁcally, impediments adversely impacted delivery          Area, an OIG audit found that the Postal Service could be more
supervisors’ and managers’ ability to adequately match workhours        effective and save money if ofﬁcials analyze and identify trailer
with workload. In addition, city letter carriers’ work activities did   requirements. The Postal Service may have missed an opportunity
not always ensure they departed the delivery unit as scheduled.         to save more than $2 million because it leased more trailers than
Further, supervisors and managers did not effectively use the           the Springﬁeld Bulk Mail Center needed. However, the Postal
Delivery Operations Information System to assist in managing            Service can save more than $7.3 million over the remaining trailer
ofﬁce activities. Management disagreed with ﬁve of the six recom-       lease by returning unneeded trailers. Postal management, however,
mendations because the ﬁndings reﬂected on the performance of           advised that potential savings estimates were overstated.
the entire Dallas District and not the three delivery units the OIG
visited. Management implemented corrective actions based on the         Vehicle Management – Delivery Vehicles – Buy Versus Lease,
report ﬁndings throughout the district. Management’s actions taken      NL-AR-04-005
and planned should correct the issues identiﬁed in the ﬁndings.         The Postal Service owns about 163,000 long-life delivery vehicles
                                                                        (LLVs), each expected to last 24 years. The Postal Service supple-
City Letter Carrier Street Management and Route Inspections             ments the long-life ﬂeet with leased vehicles that typically cost
in Fort Worth District, DR-AR-04-001                                    two or three times as much as long-life vehicles. Since 1991, the
At the Oakwood and Riverside Stations, the OIG found that street        Postal Service leased as many as 7,600 vehicles, but never less
management and route inspections were generally effective. Deliv-       than a minimum of 2,300. The OIG audit ascertained that from ﬁs-
ery unit supervisors conserved city delivery carriers’ workhours by     cal years 1991 through 2003, the Postal Service could have saved
conducting required street observations. However, a route inspec-       more than $43 million by replacing at least 2,300 commercially
tion conducted at the Oakwood Station delivery unit noted that          leased vehicles with Postal Service-owned vehicles. In 2006, the
managers did not adjust routes to maintain them at eight hours.         Postal Service can reduce its ﬂeet of leased vehicles by 2,300
                                                                        by purchasing LLVs instead that will save more than $40 million
Efﬁciency of the Airmail Records Unit at the New York                   during the 24-year expected life of a long-life vehicle.
International Service Center, NO-AR-04-011
The New York International Service Center (ISC) in the New York
Metro Area could improve the efﬁciency of its Airmail Records           Labor
Unit (AMRU) by reducing workhours by 30,000. Management                 Efforts to Prevent Accidents, Injuries and Illnesses in 12
should also consider outsourcing the AMRU, since this operation         Performance Clusters – HM-AR-04-006, HM-AR-04-007, HM-
is not core to the New York ISC’s mission. Reducing workhours           AR-04-008, HM-AR-04-009, HM-AR-04-010, HM-AR-04-011,
by 30,000 could produce a cost avoidance of $9,248,967 based            HM-AR-04-012
on labor savings over a 10-year period.                                 All of the 12 performance clusters (PCs) audited carried out
Efﬁciency of the New York International Service Center,                 prevention initiatives that can become best practices in reducing
NO-AR-04-009                                                            accidents, injuries and illnesses. Additionally, all 12 PCs were
An OIG audit noted that the New York International Service Cen-         accumulating and analyzing accident, injury and illness data for
ter could improve the processing efﬁciency of international and         prevention initiatives. In all facilities visited by the OIG, processes
military mail by reducing employee workhours by 326,000 and             in place helped accurately report accidents, injuries and illnesses.
increasing supervisory workhours by 6,000, for a net reduction          However, in the Mississippi, Suncoast, Los Angeles,Oakland, Chi-
of 320,000 workhours. This 320,000-workhour reduction could             cago, Greater Indiana, Long Island,New York, Arkansas,Oklahoma,
produce a cost avoidance of more than $98 million based on labor        Mid-America and Salt Lake City PCs, the OIG could not determine
savings over 10 years.                                                  whether the prevention initiatives reduced the number of acci-
                                                                        dents, injuries and illnesses, or whether the initiatives were carried
Self-Service Vending Program—DR-AR-04-002, DR-AR-                       out in a timely manner. Of this group, only the New York PC had
04-003, DR-AR-04-004, DR-AR-04-006, DR-AR-04-007, DR-                   data showing that prevention initiatives reduced the number of
AR-04-008, DR-AR-04-009, DR-AR-04-010, DR-AR-04-011,                    accidents, injuries and illnesses.
DR-AR-04-012, DR-AR-04-013, DR-AR-04-015                                At the Los Angeles, Oakland, Chicago, Greater Indiana, Arkansas
The Self-Service Vending (SSV) Program provides postal custom-          and Oklahoma PCs, the Human Resources Information Systems
ers with a convenient alternative for purchasing stamps and other       and the Risk Management Reporting Systems are antiquated and
basic products after business hours and without the need to stand       will be replaced. At the Mississippi and Suncoast Performance
in line during business hours. During the OIG’s reviews of the SSV      Clusters, these systems did not efﬁciently analyze data for pre-
equipment in various districts, the OIG noted that ofﬁcials could       vention initiatives.
increase revenue opportunities by redeploying equipment that does
not meet minimum revenue requirements. Further, ofﬁcials could
reduce maintenance and repair costs by stopping the use of obso-
lete equipment. The OIG’s physical observation of vending machines




                                                                                                                                 April 1, 2004 – September 30, 2004 | 53
                     Technology                                                               more than 10,000 pieces), but the overall MERLIN veriﬁcation
                                                                                              rate was underutilized. The OIG recommended management reas-
                      Advanced Facer Canceller System Improvements,                           sess BMEU stafﬁng and scheduling to ensure full use of MERLIN
                      DA-AR-04-004                                                            machines. Management agreed with the OIG’s recommendation.
                      Two upgrades to the Postal Service’s Advanced Facer Canceller Sys-
                      tem might not achieve program performance nor protect revenue.          Mail Evaluation, Readability and Lookup INstruments
                      Postal Service management agreed to delay deployment of the             Utilization at the Business Mail Entry Unit in Philadelphia,
                      upgrades until contract requirements were met.                          Pennsylvania, NO-AR-04-012
                                                                                              The Philadelphia Business Mail Entry Unit (BMEU) and its detached
                      Interim Report – Automated Package Processing System                    mail units were not fully using Mail Evaluation, Readability and
                      First Article Test, DA-AR-04-001                                        Lookup INstrument (MERLIN) machines to identify and collect the
                      The Automated Package Processing System (APPS) was not able             appropriate postage from business mailers. While MERLIN utiliza-
                      to sustain throughput requirements during the First Article Test.       tion increased, MERLIN-compatible mailings (those with more than
                      Since testing, the Postal Service made numerous software and            10,000 pieces), it remained below the Postal Service’s target of
                      hardware changes to address the throughput issues. As a result of       100 percent. The BMEU did not collect $26,825 in additional post-
                      improvements, the Postal Service conditionally accepted the APPS.       age assessed by MERLIN veriﬁcations. Management agreed with
                      Also, the Postal Service did not include facility modiﬁcation costs     the OIG’s recommendations to collect the postage due.
                      as part of the overall cost of the program. Sites did not receive
                      detailed information to make a correct assessment as to whether         Postal Inspection Service’s Asset Forfeiture Program,
                      modiﬁcations were needed to accommodate the APPS. As a result,          SA-AR-04-002
                      numerous modiﬁcation costs were not included as part of the             The U.S. Postal Inspection Service’s Asset Forfeiture Program
                      overall program costs. We made no recommendations because               began with the Child Protection Act of 1986 and the granting
                      Postal Service management has taken a proactive approach in             of forfeiture authority in child exploitation cases. In 1988 and
                      addressing this issue.                                                  1992, the Money Laundering Control Act of 1986 was amended to
                                                                                              give the Postal Inspection Service (USPIS) forfeiture authority for
                      Postal Automated Redirect System First Article Test,                    investigations of mail fraud, narcotics, child exploitation, money
                      DA-AR-04-002                                                            laundering and other ﬁnancial crimes. The USPIS is adequately
                      The OIG evaluated the Postal Automated Redirection System               managing the Asset Forfeiture Program. Asset forfeiture special-
                      (PARS) to determine if it provides reliable technology for process-     ists and managers generally followed policies and procedures
                      ing undeliverable-as-addressed mail. PARS identiﬁes and redirects       established for the Asset Forfeiture Program, and the USPIS is
                      undeliverable-as-addressed mailpieces at their point of origin          addressing its strategic management challenge to strengthen
                      as opposed to their destination. The system has the potential to        program management.
                      provide signiﬁcant savings through a reduction in sort passes and
                      processing time associated with handling redirected mail. Results       Review of Express Mail Operations, NO-AR-04-008
                      of the PARS First Article Test Phase 1 disclosed that intercept rates   A review of Express Mail operations found that the Postal Service
                      on mail processing equipment were all above the statement of            exceeded its service standards in FY 2003 by delivering 95 per-
                      work technical requirements. However, there were First Article Test     cent of Express Mail items on time. However, over 99 percent of
                      technical issues for the mail processing equipment and Change-          Express Mail packages sent to Guam and 87 percent to American
                      of-Address Forms Processing System (CFPS). Postal Service man-          Samoa did not meet established service standards. As a result,
                      agement generally agreed with the OIG’s concerns and is taking          the Postal Service had a potential monetary exposure of $376,000,
                      actions to lessen the impact of these issues.                           if all customers requested refunds because guaranteed delivery
                                                                                              times were not met. The review also noted that the Postal Service
                      Technology Acquisition Management, DA-AR-04-003                         met its goal of scanning 98.8 percent of Express Mail packages
                      The Technology Acquisition Management organization generally            for FY 2003. However, during the same period, two districts did
                      supported, documented, approved and controlled Postal Service           not properly scan over 70,000 Express Mail packages at the time
                      acquisitions. However, the organization still faces challenges in       of acceptance.
                      managing acquisitions because of the absence of formal written
                      policies and procedures. In addition, program managers used
                      different program management processes and did not document             STRATEGIC DIRECTION
                      standards for conditionally accepted projects. Management agreed        Fiscal Year 2003 District Consolidations in the Eastern,
                      with the OIG’s recommendation.                                          Northeast and Paciﬁc Areas, ST-OT-04-001
                                                                                              Overall, the district consolidation process worked well for the
                      REVENUE                                                                 Postal Service. In particular, the Postal Service consolidated ad-
                                                                                              ministrative functions without affecting operations or involuntarily
                      Mail Evaluation, Readability and Lookup INstruments
                                                                                              separating employees, while still achieving the district consolida-
                      Utilization at the Business Mail Entry Unit in Columbia, South
                                                                                              tion goals. In addition, no grievances were ﬁled by executive and
                      Carolina, NO-AR-04-010
                                                                                              administrative schedule employees, and only seven Equal Employ-
                      The Columbia, S.C., Business Mail Entry Unit (BMEU) and its
                                                                                              ment Opportunity (EEO) and two Merit Systems Protection Board
                      detached mail units were not fully using Mail Evaluation, Readability
                                                                                              (MSPB) complaints were ﬁled regarding the consolidation. All of the
                      and Lookup INstrument (MERLIN) machines to identify and collect
                                                                                              EEO complaints and one MSPB complaint are pending. The other
                      the appropriate postage from business mailers. The Postal Service’s
                                                                                              MSPB complaint was settled in favor of the Postal Service.
                      target was 100 percent veriﬁcation of large mailings (those with




54 | Semiannual Report to Congress
                                                                                                                                                                          SUPPLEMENTAL INFORMATION
SAFETY AND SECURITY                                                      Postal Inspection Service’s Postal Police, SA-AR-04-001
                                                                         The Postal Inspection Service (USPIS) used several methodologies
Business Continuity Planning and Testing at the Eagan, San               to support its decision to eliminate postal police ofﬁcers at six
Mateo and St. Louis Information Technology and Accounting                facilities. These methodologies included studies and analyses;
Service Centers, IS-AR-04-010                                            professional judgment based on interviews with local police,
This report showed that essential business units at the Eagan,           Postal Service managers, the USPIS and security force manag-
San Mateo and St. Louis Information Technology and Accounting            ers; and recommendations from the most recent Security Force
Service Centers had not fully developed and tested business              Assessment Survey. However, the studies and surveys gave con-
continuity plans documenting where and how all essential func-           trasting opinions on whether to maintain a postal police presence
tions would be performed during a business interruption. These           at the six facilities. Also, the Security Force Assessment Survey is
centers need to develop and test business continuity plans that          over 18 years old and no documentation was available to assess
address the movement of key personnel to an alternate facility in        the validity of its methodology. The OIG recommended that the
the event of a disruption.                                               USPIS update, document and validate the methodology used for
                                                                         conducting Security Force Assessment Surveys or use an alterna-
Decision Process for Disposition of the Curseen-Morris                   tive process that can be validated and documented to evaluate the
Facility, DA-AR-04-003                                                   presence of postal police ofﬁcers at postal facilities.
A Postal Service Governor asked what decision process the Postal
Service used to decide whether to reopen the Curseen-Morris
facility (formerly Brentwood) after the anthrax attack. Postal man-      MANAGEMENT INFORMATION
agement disclosed that the decision to sell, demolish or reopen          Audit of Serena ChangeMan ZMF Implementation,
Curseen-Morris was made using professional judgment after                IS-AR-04-008
reviewing the unique circumstances of the event. While a ﬁrm set         Serena ChangeMan ZMF is a new product that manages and
of criteria may not be practical for every situation, general criteria   automates the process of migrating software changes from a
or guidelines would help ensure that a systematic approach is used       development environment to any test environment and to the
and the Postal Service is addressing major considerations. The           production environment. By implementing Serena ChangeMan
OIG recommended that postal management should benchmark                  ZMF at the Eagan Information Technology and Accounting Service
with other federal and private sector organizations and document         Center, the Postal Service established internal controls that pro-
criteria and guidelines to be used in the decision-making process        vide reasonable assurance for the integrity of application change
after a biohazard attack or other disaster.                              management. Key controls — including appropriate access, docu-
Emergency Preparedness Training, DA-OT-04-004                            mentation maintenance, segregation of duties and management
In November 2003, the Postmaster General created the Ofﬁce of            controls — were in place and functioning.
Emergency Preparedness to best serve national security interest          Click-N-Ship Application Controls Review – Access to Non-
and properly safeguard employees and customers. Its purpose              Production Systems, IS-AR-04-012
is to establish a high level of emergency preparedness through           The Postal Service needs stronger controls over internal access
better planning, process integration and ﬁeld support. Postal            to non-production Click-N-Ship systems, an OIG audit determined.
Service management asked for OIG input on the adequacy of                The Click-N-Ship system is an Internet application that allows
their new emergency preparedness training. As a result, OIG              customers to use personal computers and printers to pay for and
staff participated in training sessions and exercises to learn the       print labels for domestic and international mail. Users can create
process for implementing the new plans. Overall, the OIG found the       and pay for labels online instead of having to go to a Post Ofﬁce.
training sessions helpful in disseminating headquarters policies
and terminology to all levels. However, the audit noted that while       Computer Incident Detection and Response Capabilities,
postal management continually provided guidance and policy, the          IS-AR-04-009
guidance was not always communicated and therefore was not               The Postal Service is detecting and responding to computer secu-
always followed by the emergency management teams.                       rity incidents. The Postal Service is doing a commendable job in
                                                                         responding to identiﬁed incidents. However, the Postal Service can
Personnel Security Controls at the Eagan, San Mateo and
                                                                         enhance the incident detection and response functions and reevalu-
St. Louis Information Technology and Accounting Service                  ate software tools and resources. The Postal Service is reevaluating
Centers, IS-AR-04-011                                                    deployment of network-based intrusion detection sensors.
The OIG audited personnel security at the Eagan, San Mateo and
St. Louis Information Technology and Accounting Service Centers.         Electronic Data Interchange at the Information Technology
Auditors also evaluated the effectiveness of internal controls over      and Accounting Service Center, IS-AR-04-013
hiring and termination procedures for Postal Service career and          The Postal Service could improve electronic data interchange
contract employees in sensitive positions at the three centers and       operations by revising policies and procedures to reﬂect the
found that internal controls were generally effective. While manage-     electronic data interchange environment; changing passwords at
ment processed initial security clearances for career employees and      regular intervals and implementing password history; and using
contractors on a timely basis, security clearance updates were not       contingency plans to reﬂect the current operating environment.
always processed on a timely basis. Obtaining and updating secu-         Postal Service management corrected deﬁciencies in off-site stor-
rity clearances help protect computer resources from accidental or       age of critical backup media and speciﬁcations for trading partner
unauthorized use, modiﬁcation, disclosure or destruction.                agreements. They also obtained reports required by Statement on
                                                                         Auditing Standards No. 70 for the value-added network vendor.




                                                                                                                                April 1, 2004 – September 30, 2004 | 55
                      Follow-up of the Network Security and Security Testing of               has procedures in progress, completed or planned addressing the
                      Load Balancers, IS-AR-04-006                                            issues in this report. These procedures, when fully implemented,
                      The OIG looked at whether postal management had corrected the           ensure that cost controls are effective and the total cost of the
                      issues identiﬁed in Interim Audit Report – Network Security and         project are known and reported to upper management.
                      Security Vulnerability Technical Report – Security Testing of Load
                      Balancers. The Postal Service has corrected the issues of trust rela-   Postal Service’s Business Partner Connectivity, IS-AR-04-014
                      tionships between computers, load balancers and password sharing.       The Postal Service’s controls over business partner connectivity
                      However, managers could further improve controls over accounts.         are generally adequate but can be improved. Postal management
                                                                                              agreed to OIG recommendations.
                      Oracle Database Testing at the Host Computing Services,
                      Eagan Minn., IS-CS-04-004                                               Security Vulnerability Assessment of Selected UNIX Servers
                      The OIG tested the Oracle database at the Host Computing Ser-           at Host Computing Services, IS-CS-04-005
                      vices to assess the security of the database, perform compliance        The OIG evaluated security over selected UNIX servers at the
                      checks against Postal Service standards, and perform security           Host Computing Services to determine whether the servers
                      vulnerability assessments on three applications. Overall, the           complied with Postal Service standards for server hardening.
                      Oracle environment is well-managed. Some database conﬁgura-             The OIG selected eight production servers for review, but limited
                      tions deviated from Postal Service standards, but in general, the       the OIG’s tests to two servers not included in a Postal Service
                      Database Support Services (DBSS) staff is doing a good job of           internal review of six of the eight servers. The servers the OIG
                      system maintenance. The OIG recommended that the DBSS staff             reviewed support the general ledger and eAccess applications.
                      should review the deviations.                                           The OIG reviewed all eight servers for compliance with Postal
                                                                                              Service hardening standards. Overall, the UNIX environment is
                      Postal Service’s Advanced Computing Environment Program                 well-managed; however, the OIG made several recommendations
                      Management, IS-AR-04-007                                                that postal management agreed with.
                      The Postal Service has made remarkable progress in upgrading its
                      outdated computing infrastructure into a modernized environment.        Security Vulnerability Assessment of Selected Windows
                      In reviewing the program accomplishments, the OIG noted that            Servers at the Host Computing Services, IS-CS-04-003
                      the Program Management Ofﬁce was not preparing and reporting            The OIG conducted a security vulnerability assessment at the Host
                      accurate ﬁnancial information on the ACE program on a timely basis.     Computing Services to evaluate security over one Windows NT and
                      During the OIG’s review, the Program Management Ofﬁce took              three Windows 2000 servers. Overall, the Windows environment is
                      steps to document the reporting procedures and update ﬁnancial          well-managed. The OIG had several recommendations that postal
                      reports. Management agreed with the OIG’s recommendations and           management agreed with making.




56 | Semiannual Report to Congress
                                                                                                                                                                          SUPPLEMENTAL INFORMATION
SUPPLEMENTAL INFORMATION
INVESTIGATIVE SYNOPSES
For the period April 1, 2004, through September 30, 2004

Truck Trailer Contractor Pleads Guilty to Filing False Claims                   release of the funds. The judge denied both temporary restraining orders
A Texas contractor that leases truck trailers for mail delivery pleaded         and the case was dismissed.
guilty in U.S. District Court in San Francisco, Calif., on August 3, 2004,
to one count of making false claims. OIG special agents determined              Two More Sentenced in Texas Billing Scheme
that the contractor ﬁled hundreds of claims for damage reimbursement            Two more participants in a billing scheme between an auto service
supported by forged and fraudulent bids and estimates. The company              company and a Texas Post Ofﬁce were sentenced on July 19.A U.S.
also colluded with certain preferred vendors to undermine the required          District Court judge in Texas sentenced a former postal supervisor to
competitive bidding process, and between 1997 and 2002 submitted                27 months in prison, three years supervised release and payment of
more than 95 percent of its claims with a falsiﬁed estimate for repair.         $3,130 in restitution. The supervisor was convicted of 17 counts of false
                                                                                claims, two counts of false statements and one count of conspiracy to
As a condition of its plea agreement, the company entered into a cor-           commit bribery. The owner of the auto service company pleaded guilty
porate integrity agreement with the Postal Service requiring the imple-         to conspiracy to commit bribery and was sentenced to six months in a
mentation of a quality assurance program to ensure its compliance with          community corrections center and ﬁve years probation.
postal regulations and sound business ethics. The company was also
placed on one year probation.                                                   The investigation revealed discrepancies in the frequency of repairs,
                                                                                number of labor hours charged and number of parts that the vehicle
On October 5, 2004, the contractor was ordered to pay a $500,000                maintenance facility provided. Invoices disclosed that the Texas Post
criminal ﬁne and $1.2 million to cover the OIG’s investigative costs.           Ofﬁce paid over $200,000 to the company.
Construction and Paving Company Fined, Debarred                                 Long-Life Vehicles Roll On with New Transmissions
On June 10, a construction and paving company hired to renovate a               As a result of an OIG investigation, an Alabama auto distributor company
parking lot at a New Jersey International & Bulk Mail Center was ordered        agreed on May 17, to supply to the Postal Service 174 truck transmis-
by a U.S. District Court judge in Newark, N.J., to pay a $60,000 ﬁne            sions valued at $256,650 for no charge. The transmissions for the
and $33,400 in restitution to the Postal Service. Earlier, the company          Postal Long-Life Vehicles had all failed during the two-year warranty
pleaded guilty to causing the Postal Service to modify a contract when it       period. The company did not initially provide free replacements per its
submitted change orders that contained inﬂated costs. The company is            agreement with the Postal Service. In an administrative settlement, the
also serving a three-year probationary period.                                  company agreed to supply the transmissions over the next year to 15
The judge, in addition, ﬁned the corporate president $5,000 and ordered         vehicle maintenance facilities (VMFs) throughout the country.
him to serve two years probation for providing a gratuity to an employee        In addition, postal employees at the Philadelphia VMF were able to
of a construction management services ﬁrm under contract to the Postal          identify seven more defective transmissions from a list compiled by
Service. In exchange for free paving of his driveway, that employee             special agents. The auto company replaced these transmissions, valued
approved overstated and nonexistent charges on a contract modiﬁcation.          at $12,075, on May 3, free of charge.
Medical Doctor Sentenced for Insurance Fraud                                    Healthcare Business Owner to Pay $29,032 for Fraud
A four-year investigation culminated on May 25 when a California doc-           On June 7, a U.S. District Court judge in Kansas City, Kan., ordered the
tor was sentenced for insurance fraud. The doctor pleaded guilty to a           owner of a Kansas City healthcare company to pay more than $29,032 in
23-count criminal indictment in March, and a San Diego superior court           restitution and to spend six months conﬁned to his home for healthcare
judge ordered him to serve 48 months in prison.The judge also ordered           fraud. The OIG opened its investigation after learning that the company
the doctor to pay $1,311.53 in restitution to the Postal Service and $495       billed the Department of Labor’s Ofﬁce of Workers’ Compensation Pro-
to the California Department of Insurance, as well as perform 500 hours         grams (OWCP) and a federal health-beneﬁt plan for the same services
of community service.                                                           to a postal employee.
 Contractor Fails to Outsmart Postal Service                                    Over a three-year period, one postal worker received treatment from
On May 24, a U.S. District Court judge in St. Louis, Mo., dismissed a           a chiropractor, a massage therapist and a personal trainer for a repeti-
case against the Postal Service, which resulted in a cost avoidance of          tive-motion injury of his arm, elbow and shoulder. After treatment, the
$107,237. Two months earlier, on March 24, the OIG learned that a for-          employee received documentation showing that the facility’s owner
mer highway transportation contractor fraudulently negotiated $170,227          (who was also a caregiver) double-billed for the services by submitting
in Postal Service checks. The Postal Service sent the checks in error to        invoices to OWCP and the employee’s health-beneﬁt plan. The docu-
the contractor’s former company as payment for operating a particular           mentation also falsely showed that this one caregiver had treated the
highway contract route. The contractor cashed the checks, even though           postal worker all 27 times when, in fact, several different specialists
he knew his company no longer operated the route.                               were involved in the treatment.
At one time, the contractor’s company ran the highway contract route.But        Elusive Psychotherapist Sentenced
in 2001 that route was sold to another contractor in a state court action       On April 29, a Florida psychotherapist was sentenced in Florida state
involving the contractor and his companies. When the Postal Service             court to one year of probation after pleading “no contest” to second-
withheld the funds from two other highway contract routes in order to           and third-degree grand theft charges. In an investigation initiated
recover its money, the contractor ﬁled a civil suit on April 19, alleging the   at the request of the Florida Department of Insurance Fraud, the OIG
Postal Service was in breach of contract. The contractor also ﬁled two          determined that the psychotherapist fraudulently billed Blue Cross and
temporary restraining orders, requesting the judge to order immediate




                                                                                                                                April 1, 2004 – September 30, 2004 | 57
                      Blue Shield nearly $49,000 for services he did not provide. The physician           wages again in October 2002 and continued through March 2004 with-
                      claimed that he supplied services to 11 postal employees.                           out notifying the Ofﬁce of Workers’ Compensation Programs, as required.
                      The doctor had eluded arrest for about ﬁve months by ﬂeeing to Canada               Workers’ compensation beneﬁts to the woman have been suspended,
                      in August 2003, when a warrant for his arrest was issued. A random                  potentially saving the Postal Service $696,196.
                      screening at the Phoenix Sky Harbor International Airport turned up the             “Operation Bad Voyage” Makes Good Progress
                      outstanding arrest warrant, and the psychotherapist was extradited                   OIG special agents continued to make headway in the “Operation Bad
                      to Florida.                                                                          Voyage” investigation into the gasoline fraud scheme in the Miami area. To
                      $473,894 in Costs Avoided                                                            date 26 subjects have been arrested. Since July 19, 2003, an abundance
                      An OIG investigation helped the Postal Service avoid $473,894 in costs               of Postal Service Voyager Fleet Card Personal Identiﬁcation Numbers
                      when it veriﬁed that a “casual” postal employee was continuing to receive            (PINs) and more than 270 account numbers have been compromised as
                      disability beneﬁts by not reporting that she had returned to work. The               subjects purchased about $400,000 in fuel throughout the Miami area.
                      Washington, D.C., resident hurt herself on the job in 1997, while working           A total of 14 subjects are scheduled for a plea arraignment on November
                      for the Postal Service during the second of two 90-day periods. While               12. During the reporting period, three subjects were sentenced. On
                      continuing to receive workers’ beneﬁts, the woman went back to work,                May 24, 2004, a U.S. District Court judge in Miami ordered one subject
                      holding jobs with a grocery store chain and two banks from June 2001 to             to spend ﬁve months in prison and ﬁve months in home conﬁnement.
                      October 2003. Her compensation beneﬁts have since been stopped.                     Another subject was sentenced on April 26, 2004, to one year of proba-
                                                                                                          tion by an 11th Circuit Court Judge in Miami-Dade County. The third
                      $724,299 Payout Avoided in Civil Suit                                               subject entered into a plea agreement with the Florida State Attorneys’
                      On June 21, a reduced judgment in a civil lawsuit resulted in a cost avoid-         Ofﬁce on September 1, and was sentenced to two years probation. In
                      ance of $724,299 for the Postal Service. A Florida man sought $3 million            June, OIG agents seized a large commercial fuel tanker in Miami that
                      in damages for injuries received during a June 1999 trafﬁc accident with            was used to transport stolen fuel purchased with counterfeit credit cards
                      a postal vehicle. As a result of the OIG’s investigative efforts, a U.S. District   using Voyager and Exxon/ Mobil credit card numbers.
                      Court judge in Jacksonville, Fla., concluded that the plaintiff proved dam-
                      ages totaling only about $1.4 million and then awarded him $724,299.                Handling of Suspicious Mail Reviewed
                                                                                                          In August 2004, the Postmaster General asked the OIG to review the poli-
                      $916,710 in Illegally Gained Disability Beneﬁts Avoided                             cies, procedures and practices of the Postal Service and Postal Inspection
                      OIG special agents helped the Postal Service avoid paying $916,710 in               Service (USPIS) regarding the handling of a suspicious mail package at
                      disability payments over the lifetime of an employee who was cheating               the V Street mail processing facility in Washington, D.C.The results and
                      the system. Investigators substantiated that a postal mechanic, who                 ﬁndings of this inquiry are restricted due to the security issues identiﬁed.
                      worked in Maryland, continued to receive more than $2,300 a month
                      in disability beneﬁts even though he had returned to full-time work.                Seattle Employee Confesses to Hacking Postal Computers
                      For his improper conduct, the man was removed from his position on                  A Seattle postal employee was put on immediate administrative sus-
                      August 27. The Ofﬁce of Workers’ Compensation Programs overpaid the                 pension after he confessed to adding unauthorized IDs and computer
                      mechanic $20,291 for the eight months from February to October 2003                 password-defeating software to computers in the Seattle District. The
                      when he was working.                                                                OIG initiated an investigation on May 6, after learning that the unauthor-
                                                                                                          ized user IDs were added to the local administrator’s group without the
                      Scammer Knocked Off OWCP Roles                                                      consent or knowledge of the Internet services manager. The employee’s
                      An OIG investigation substantiated that a former Maryland postal worker             case is pending administrative action by postal management.
                      was receiving full disability beneﬁts after she returned to work. The
                      woman’s job injury occurred in September 2002, but she began earning




58 | Semiannual Report to Congress
                                                                                                                          SUPPLEMENTAL INFORMATION
SUPPLEMENTAL INFORMATION
FREEDOM OF INFORMATION ACT
ACTIVITIES
For the period April 1, 2004, through September 30, 2004


REQUESTS                                                   Number of Requests
Carryover from prior period                                                8
Received during period                                                    53
Total on hand during the period                                           61

OIG ACTIONS                                                Number of Requests
Processed during the period                                               26
Released     (19)
Withheld      (7)
Referred to Postal Service or other agency                                 7
Otherwise closed                                                           5
Total Processed During the Period                                         38
Balance at End of Period (Pending)                                        23

APPEALS
Status                                                      Number of Appeals
OIG determinations appealed                                                5

OIG determinations upheld                                                  3
OIG determinations upheld in part                                          2
OIG determinations reversed                                                0
Appeals of OIG determinations pending                                      0




                                                                                April 1, 2004 – September 30, 2004 | 59
SUPPLEMENTAL INFORMATION
                                   GLOSSARY
                                       Advance fee scheme – Obtaining fees purporting to                 False billings scheme – Mailing solicitations in the
                                       secure buyers or obtain loans.                                    guise of billings.
                                       Bargaining unit employee – A Postal Service em-                   First-Class Mail – A class of mail that includes all
                                       ployee who is represented by a labor organization (union)         matter wholly or partly in writing or typewriting, all actual
                                       that negotiates with the Postal Service for the wages, hours      and personal correspondence, all bills and statements of
                                       and other terms and conditions of employment. These               account, and all matter sealed or otherwise closed against
                                       employees include city carriers, clerks, mail handlers,           inspection. First-Class Mail comprises three subclasses:
                                       rural carriers, special delivery messengers, maintenance          postcards, letters and sealed parcels, and Priority Mail. Any
                                       employees and motor vehicle operators.                            mailable matter may be sent as First-Class Mail. First-Class
                                                                                                         Mail is a Postal Service trademark.
                                       Boiler rooms/telemarketing scheme – An ofﬁce
                                       or suite of ofﬁces with banks of telephones and telephone         Flat–size mail – A mailpiece that exceeds one of the
                                       solicitors who use high-pressure techniques to persuade           dimensions for letter-size mail (11-1/2 inches long, 6-1/8
                                       consumers to respond to bogus offers.                             inches high, 1/4 inch thick) but that does not exceed the
                                                                                                         maximum dimension for the mail processing category (15
                                       Bulk mail – Mail that is rated for postage partly by              inches long, 12 inches high, 3/4 inch thick). Dimensions are
                                       weight and partly by the number of pieces in the mailing.         different for automation rate ﬂat size mail eligibility. Flat-size
                                       The term is generally used to refer to Standard Mail (A).         mail may be unwrapped, sleeved, wrapped or enveloped.
                                       Business mail entry unit (BMEU) – The area of a                   Fraud internet schemes – Fraudulent schemes using
                                       postal facility where mailers present bulk, presorted and         the Internet with a connection to the mail.
                                       permit mail for acceptance. The BMEU includes dedicated
                                       platform space, ofﬁce space and a staging area on the             Gain Share – A gain share is used to describe a situation
                                       workroom ﬂoor.                                                    where a savings has been realized and will be shared with
                                                                                                         the Postal Service and an outside entity.
                                       Contest/sweepstakes scheme – Schemes in
                                       which the respondent is required to pay a fee to obtain           Highway contract transportation routes
                                       prizes of money, gifts or other items of value. “Prizes” are      – A route served by a postal contractor to carry mail by
                                       either never shipped or are inferior to what was promised.         highway between designated points.
                                       Common facility footprint – A standard footprint                  Logistical support network – Activities or programs
                                       design for architectural design, equipment complement             which support the transportation of mail, such as fuel
                                       and layout.                                                       procurement, mail transport equipment procurement and
                                                                                                         management, and vehicle management and maintenance.
                                       Craft – A bargaining unit employee represented by a
                                       union at the national level.                                      Lottery scheme – Advertisements seeking money or
                                                                                                         property by mail for participation in schemes to win prizes
                                       Employment scheme – Soliciting money for                          through chance.
                                       information or assistance in obtaining nonexistent or
                                       misrepresented jobs.                                              Merchandise failure to pay scheme – Mail order
                                                                                                         merchandise that is acquired without providing payment.
                                       Express Mail™ – A mail class that provides expedited
                                       delivery service for mailable matter subject to certain           Merchandise misrepresentation scheme
                                       standards. It is available in ﬁve basic domestic service         – Mail order merchandise or services that are materially
                                       offerings (Same Day Airport Service, Custom Designed              misrepresented in advertising.
                                       Service, Next Day Service, Second Day Service and Military
                                       Service). Express Mail International Service is available         Postal Rate Commission (PRC) – An independent
                                       between the United States and most foreign countries.             federal agency that makes recommendations on Postal
                                       Express Mail is a Postal Service trademark.                       Service requests for changes in postal rates and mail
                                                                                                         classiﬁcations. The ﬁve commissioners are nominated by
                                       External First-Class Measurement – A system                       the President and approved by the U.S. Senate.
                                       whereby a contractor performs independent service per-
                                       formance tests on certain types of First-Class Mail (letters,     Postal Reorganization Act – The statute that re-
                                       ﬂats, postcards) deposited in collection boxes and business       quires postal rates and fees to “provide sufﬁcient revenues
                                       mail chutes. It provides national, area, performance cluster      so that the total estimated income and appropriations…will
                                       and city estimates, which are compared with Postal Service        equal as nearly as practicable total estimated costs.”
                                       goals. The results are released to the public quarterly by the    (Public Law 91-375, signed August 12, 1970).
                                       consumer advocate.




  60 | Semiannual Report to Congress
                                                                                                                                                                         SUPPLEMENTAL INFORMATION
Priority Mail – First-Class Mail that weighs more than          stations, Post Ofﬁce branches, contract postal units and
13 ounces and, at the mailer’s option, any other mail           non-personnel units.
matter weighing 13 ounces or less. Priority Mail provides
expedited delivery.                                             Revenue forgone appropriations – Congres-
                                                                sionally authorized reimbursements to the Postal Service for
Processing and Distribution Center/Facility                     revenue that was not received because of phased or lower
(P&DC/F) – A central mail facility that processes and           rates mandated by Congress for certain mail categories,
dispatches part or all of both incoming mail and outgoing       such as free matter for the blind.
mail for a designated service area. It also provides
instructions on the preparation of collection mail, dispatch    Standard Mail – A class of mail consisting of mailable
schedules and sorting plan requirements to mailers.             matter that is not required to be mailed as First-Class Mail
                                                                or is not mailed as Periodicals.
Rate setting – The process by which postage rates and
fees are changed under the joint responsibility of the Postal   Unsupported costs – Costs that are questioned
Service and the Postal Rate Commission (PRC). Postal            because of inadequate supporting documentation for the
Service managers recommend proposed rates for all mail          proposed/claimed costs.
classes to the Board of Governors; with the approval of         Veriﬁcation – The procedural checks of a mailing
the Board, the proposed rates are sent to the PRC, which        presented by a mailer to determine proper preparation and
holds public hearings and recommends rates. It the Board        postage payment.
ﬁnds these rates unsatisfactory, it may modify them by
unanimous vote.                                                 Voice of the Employee (VOE) – An assessment
                                                                of Postal Service employee issues that will strengthen
Retail facility – A postal unit of a Post Ofﬁce and its         the company, shape the business future and improve
subordinate units as well as military Post Ofﬁces that sells    employees’ role in its success.
postage stamps and provides other postal retail services
to customers. The subordinate units are within the              Work at home scheme – Schemes, such as envelope
service area of a main Post Ofﬁce and include Post Ofﬁce        stufﬁng, that do not provide home employment.




                                                                                                                               April 1, 2004 – September 30, 2004 | 61
NOTES




  62 | Semiannual Report to Congress
OFFICE OF INSPECTOR GENERAL


Report
Fraud, Waste and Misconduct
in the Postal Service

CONTACT THE HOTLINE AT:

1-888-USPS OIG
1-888-877-7644 Fax: 1-866-756-6741
or www.uspsoig.gov
TTY (HEARING IMPAIRED)
1-866-OIG-TEXT
1-866-644-8398




                                     April 1, 2004 – September 30, 2004 | 63
OFFICE OF INSPECTOR GENERAL
        1735 N. Lynn Street
     Arlington, VA 22209-2020
           (703) 248-2100
        Fax: (703) 248-2291
    Internet: www.uspsoig.gov
